<html>
<title> - IRAQ STABILIZATION AND RECONSTRUCTION: U.S. POLICY AND PLANS</title>
<body><pre>[Senate Hearing 108-132]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-132

                 IRAQ STABILIZATION AND RECONSTRUCTION:
                         U.S. POLICY AND PLANS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                              MAY 22, 2003

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



89-516              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     8
    Articles submitted for the record:
      ``Europeans Say Bush's Pledge to Pull Out of Balkans Could 
        Split NATO,'' from The New York Times, Oct. 25, 2000, by 
        Steven Erlanger..........................................    78
      ``Bush Would Redefine U.S. Strategy in Europe: Ten Years 
        After the Cold War's End, A Rethinking of the U.S. Role 
        in NATO is Long Overdue,'' from the Plain Dealer, 
        Cleveland, OH, Oct. 27, 2000, by Christopher Layne.......    80
Brownback, Hon. Sam, U.S. Senator from Kansas, prepared statement    11
    Responses of Deputy Secretary Wolfowitz to additional 
      questions for the record...................................    82
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, prepared 
  statement......................................................    13
    Responses of Deputy Secretary Wolfowitz to additional 
      questions for the record...................................    83
Hagel, Hon. Chuck, U.S. Senator from Nebraska, prepared statement    11
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3
Pace, General Peter, Vice Chairman, Joint Chiefs of Staff, 
  Department of Defense, prepared statement......................    32
Wolfowitz, Hon. Paul D., Deputy Secretary of Defense; accompanied 
  by: General Peter Pace, Vice Chairman, Joint Chiefs of Staff, 
  Department of Defense, Hon. Alan P. Larson, Under Secretary of 
  State for Economic, Business and Agricultural Affairs, and Hon. 
  Wendy J. Chamberlin, Assistant Administrator, Bureau for Asia 
  and the Near East, U.S. Agency for International Development...    14
    Prepared statement...........................................    23

                                 (iii)

  

 
      IRAQ STABILIZATION AND RECONSTRUCTION: U.S. POLICY AND PLANS

                              ----------                              


                         THURSDAY, MAY 22, 2003

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:35 p.m. in room 
SD-106, Dirksen Senate Office Building, Hon. Richard G. Lugar 
(chairman of the committee), presiding.
    Present: Senators Lugar, Hagel, Chafee, Allen, Brownback, 
Enzi, Coleman, Biden, Sarbanes, Dodd, Feingold, Bill Nelson, 
and Corzine.
    The Chairman. This hearing of the Senate Foreign Relations 
Committee is called to order. It is a great personal privilege 
to welcome today Deputy Secretary of Defense Paul Wolfowitz and 
Vice Chairman of the Joint Chiefs of Staff General Peter Pace. 
We have been looking forward to your testimony and to our 
discussion of the status of policies and plans for Iraqi 
stabilization and reconstruction. This is the first of several 
hearings over the next few weeks that our committee will hold 
on Iraq stabilization and reconstruction issues. These hearings 
are intended to help the committee perform its oversight 
function and to inform the American people, whose support is 
necessary for United States efforts in Iraq.
    The United States military and coalition forces and the 
President and his team, including our witnesses today, deserve 
high praise for execution of a brilliant war plan that brought 
the combat phase of conflict in Iraq to a decisive and speedy 
conclusion. We mourn those who lost their lives in this 
conflict. We recognize the extraordinary care taken to prevent 
such loss.
    In fact, the comprehensive planning that went into the 
military campaign that ousted Saddam Hussein's regime was 
evident in every aspect of the resounding military victory 
declared by President Bush on May 1. This military success, 
however, was only the first step in winning the war in Iraq. 
Victory is at risk unless we ensure that effective post-
conflict stabilization and reconstruction efforts in Iraq 
succeed over the long term.
    The measure of success in Iraq that matters most is what 
kind of country and institutions we leave behind. Iraq has some 
important ingredients for success, an educated population, a 
tradition of trade and industry, large reserves of oil to 
benefit its people. The achievement of stability and democracy 
in Iraq present an opportunity to catalyze change in the region 
that can greatly improve United States national security. 
Stabilizing and reconstructing Iraq are key to success in this 
larger context of the Middle East region and in the global war 
on terrorism.
    Given these stakes, the United States must make a long-term 
commitment to achieving our objectives in Iraq. A sustained 
American commitment would heavily influence the political 
dynamics of the region and reinforce the credibility of United 
States diplomacy around the world. I am concerned that the 
administration's initial stabilization and reconstruction 
efforts have been inadequate. The planning for peace was much 
less developed than the planning for war. Moreover, the 
administration has not sufficiently involved Congress and the 
American people in its plans regarding the costs, the methods, 
and goals of reconstruction Iraq.
    Congress has already voted $2.5 billion toward the 
rebuilding effort in Iraq, but we have heard estimates before 
this committee that the final bill may be over $100 billion. 
Now, I believe the process could take at least 5 years. There 
is little understanding of the administration's short-and mid-
term plans and priorities to address increasingly urgent issues 
such as providing food, water, electricity, and fuel. The 
United States and coalition forces are struggling to create a 
secure environment to allow civil engineers and humanitarian 
assistance workers to do their jobs, but there seem to be 
insufficient military and police forces to establish this 
security. Given these circumstances, talk of a reduction in 
forces by year's end is premature. To restore law and order, we 
may need to put more soldiers and marines into Iraq, rather 
than draw them down.
    There also is uncertainty about the long-term plans for the 
transition from military to civilian authority in Iraq, and 
increasing fear that vacuums of authority will lead to 
sustained internal conflict in Iraq and greater instability 
throughout the region. We should not underestimate the ethnic 
and religious rivalries of a long-repressed people.
    Now, these challenges should be met by a unified command 
structure that clearly articulates objectives and shares 
transparent plans for political transition, and this committee 
is hopeful that the recent appointment of Ambassador Bremer as 
the Civil Administrator of the Department of Defense's Office 
of Reconstruction and Humanitarian Assistance is the first step 
in a carefully coordinated, integrated plan for dealing with 
Iraq.
    In addition, our plans must be clear about the roles of all 
forces, agencies, and organizations involved in the 
stabilization and reconstruction process. The specific 
responsibilities of the Department of Defense, Department of 
State, and other agencies must be more clearly delineated. We 
also want to hear about the administration's plans for 
generating alliance contributions that will reduce long-term 
American burdens. Can NATO play a peacekeeping role in Iraq 
that would allow for the replacement of United States' units? 
The main criteria for involvement of allies in international 
organizations beyond the coalition must be their ability to 
make contributions that will advance our goals in Iraq.
    Secretary Wolfowitz and General Pace, we look forward to 
your testimony today to give us confidence that comprehensive 
planning is occurring, that our strategy in Iraq is designed to 
be a springboard to a greater regional stability and wider 
peace in the region. Achieving such ambitious goals will not be 
easy, quick, or cheap, and we are engaged in nation building in 
Iraq because it is in our national interest.
    This is a complicated and uncertain business that requires 
both a sense of urgency now, and patience over the long run. 
Before I ask our distinguished witnesses to testify. I would 
like to add that Hon. Alan Larson and Hon. Wendy Chamberlin are 
at the table, and they may be of benefit and of counsel 
throughout the hearing today. It was at the specific request of 
Secretary Wolfowitz that we wanted to make certain that all 
those who might have information today that would be 
supplemental were on hand, and we appreciate your presence.
    [The opening statement of Senator Lugar follows:]

             Opening Statement of Senator Richard G. Lugar

    I am very pleased to welcome Deputy Secretary of Defense Paul 
Wolfowitz and Vice Chairman of the Joint Chiefs of Staff General Peter 
Pace. We have been looking forward to your testimony and to our 
discussion of the status, policies, and plans for Iraqi stabilization 
and reconstruction.
    This is the first of several hearings over the next few weeks that 
the Foreign Relations Committee will hold on Iraq stabilization and 
reconstruction issues. These hearings are intended to help the 
committee perform its oversight function and to inform the American 
people, whose support is necessary for U.S. efforts in Iraq.
    The U.S. military and Coalition forces and the President and his 
team, including our witnesses today, deserve praise for the execution 
of a brilliant war plan that brought the combat phase of conflict in 
Iraq to a decisive and speedy conclusion. We mourn those who lost their 
lives in this conflict. We recognize the extraordinary care taken to 
prevent such loss. In fact, the comprehensive planning that went into 
the military campaign that ousted Saddam Hussein's regime was evident 
in every aspect of the resounding military victory declared by 
President Bush on May 1st.
    This military success, however, was only the first step in winning 
the war in Iraq. Victory is at risk unless we ensure that effective 
post-conflict stabilization and reconstruction efforts in Iraq succeed 
over the long-term.
    The measure of success in Iraq that matters most is what kind of 
country and institutions we leave behind. Iraq has some important 
ingredients for success--an educated population, a tradition of trade 
and industry, and large reserves of oil to benefit its people. The 
achievement of stability and democracy in Iraq present an opportunity 
to catalyze change in the region that can greatly improve U.S. national 
security. Stabilizing and reconstructing Iraq are a key to success in 
the larger context of the Middle East region and in the global war on 
terrorism.
    Given these stakes, the United States must make a long-term 
commitment to achieving our objectives in Iraq. A sustained American 
commitment would heavily influence the political dynamics of the region 
and reinforce the credibility of U.S. diplomacy around the world.
    I am concerned that the administration's initial stabilization and 
reconstruction efforts have been inadequate. The planning for peace was 
much less developed than the planning for war. Moreover, the 
administration has not sufficiently involved Congress and the American 
people in its plans regarding the costs, methods, and goals of 
reconstructing Iraq. Congress has already voted $2.5 billion toward the 
rebuilding effort in Iraq. We've heard estimates that the final bill 
may be over $100 billion. I believe the process could take at least 
five years.
    There is little understanding of the administration's short and 
mid-term plans and priorities to address increasingly urgent issues 
such as providing food, water, electricity, and fuel. U.S. and 
Coalition forces are struggling to create a secure environment to allow 
civil engineers and humanitarian assistance workers to do their jobs, 
but there seems to be insufficient military and police forces to 
establish this security. Given these circumstances, talk of a reduction 
in forces by year's end is premature. To restore law and order we may 
need to put more soldiers and Marines into Iraq, rather than draw them 
down.
    There also is uncertainty about the long-term plans for the 
transition from military to civilian authority in Iraq and increasing 
fear that vacuums of authority will lead to sustained internal conflict 
in Iraq and greater instability throughout the region. We should not 
underestimate the ethnic and religious rivalries of a long-repressed 
people.
    These challenges should be met by a unified command structure that 
clearly articulates objectives and shares transparent plans for 
political transition. This committee is hopeful that the recent 
appointment of Ambassador Bremer as the Civil Administrator of the 
Department of Defense Office of Reconstruction and Humanitarian 
Assistance, is the first step in a carefully coordinated, integrated 
plan for dealing with Iraq.
    In addition, our plans must be clear about the roles of all forces, 
agencies, and organizations involved in the stabilization and 
reconstruction process. The specific responsibilities of the Department 
of Defense, Department of State, and other agencies must be more 
clearly delineated. We also want to hear about the administration's 
plans for generating alliance contributions that will reduce long-term 
American burdens. Can NATO play a peacekeeping role in Iraq that would 
allow for the replacement of some U.S. units? The main criteria for the 
involvement of allies and international organizations beyond the 
Coalition must be their ability to make contributions that will advance 
our goals in Iraq.
    Secretary Wolfowitz and General Pace, we look forward to your 
testimony today to give us confidence that comprehensive planning is 
occurring and that our strategy in Iraq is designed to be a springboard 
to greater regional stability and a wider peace in the region.
    Achieving such ambitious goals will not be easy, quick, or cheap. 
We are engaged in nation-building in Iraq, because it is in our 
national interests. This is a complicated and uncertain business that 
requires both a sense of urgency now and patience over the long run.

    The Chairman. I would like to call now upon the 
distinguished ranking member of our committee, Senator Joe 
Biden.
    Senator Biden. Thank you, Mr. Chairman. Mr. Secretary, 
General Pace, Secretary Larson. I welcome you all. Let me take 
this opportunity to publicly state in front of you, Secretary 
Wolfowitz and General Pace, and others what you already know 
and what the whole country has attested to, and that is how 
brilliantly our military forces performed. Their success is a 
tribute to their skill and courage and to the commitment of the 
administrations, the last two administrations, in ensuring that 
our fighting men and women are the best-trained and the best-
equipped in the world.
    Mr. Secretary, I think it is not an understatement to say 
that no other member of the administration has been more 
identified with the effort to change the regime in Iraq than 
you have. You have been a passionate and articulate spokesman 
for the view that ending Saddam's regime was a moral as well as 
a strategic imperative, and the mass graves discovered since 
Iraq's liberation are a terrible testament to the uniquely 
barbaric nature of the former regime, and to how right you were 
about the moral imperative. It is my hope that the Iraqi people 
will never again have to endure such brutality and they can 
soon, with God willing, enjoy the liberties that so many of us 
take for granted.
    But it also is my hope that the administration recognizes 
that reaping the strategic dividends of Iraq's liberation--from 
sending a message to reluctant States such as Syria, which you 
have done well; to spreading democracy in the Middle East, 
which is a task undertaken; to shifting the balance in the 
region away from radicalism--all depend upon winning the peace. 
So does helping the Iraqi people build the kind of future they 
deserve. This commitment has focused on the need to win the 
peace, and we have as a committee focused on one point in this 
effort--and under both chairmanships sometimes we have been 
questioned why we focus so much on it--and that is how to win 
the peace.
    For the last 10 months, since our hearing last summer that 
has been the subject of this committee. We have made the simple 
point repeatedly about Afghanistan, but sometimes I fear that 
it has fallen on deaf ears. What we saw in Afghanistan and 
what, unfortunately, we may be seeing again in Iraq is that for 
all our success in projecting power, we are less adept at 
staying power. We know how to win wars, but, Mr. Secretary, 
with all due respect, so far we have not gotten off to as 
stellar a start, in my view, in winning the peace.
    We cannot afford to defeat rogue States, and I am sure we 
all agree with this, to allow them to become failed States 
which become breeding grounds for terrorism and instability.
    I would like to read from an article in Monday's Washington 
Post, which I am sure you all have seen and probably already 
been questioned on. Of course the press is always interested in 
the dogs that bark more than the dogs that do not, but this is 
not an isolated account. Virtually every major news outlet has 
published similar reports, and your opening statement, Mr. 
Secretary, which we have had a chance to read because you have 
been kind enough to submit to us, in part makes reference to 
this and takes it on. The Washington Post article I am about to 
read from reflects the views of many so-called experts who have 
made the same point, but let me quote from the Post:
    ``Military officers, other administration officials and 
defense experts said the Pentagon ignored lessons from a decade 
of peacekeeping operations in Haiti, Somalia, and the Balkans 
and Afghanistan. It also badly underestimated the potential for 
looting and lawlessness after the collapse of the Iraqi 
Government, lacking forces capable of securing the streets of 
Baghdad in the transition from combat to post-war 
reconstruction.''
    Continuing the quote: ``Only in the past week did 
administration officials began to acknowledge publicly these 
miscalculations. They described continued lawlessness as a 
serious problem in Baghdad, and called for more U.S. forces on 
the ground to quell the wave of violence that has kept American 
officials from assuring the Iraqi people that order would soon 
be restored.
    ``How and why senior military and civilian leaders were 
caught unaware of the need to quickly make the transition from 
warfighting to stability operations with adequate forces 
mystifies military officers, administration officials and 
defense experts with peacekeeping experience from the 1990s.''
    Continuing the quote: ``Defense experts inside and outside 
the Pentagon say military planners are clearly influenced by 
the Pentagon's belief, expressed by Deputy Secretary Paul D. 
Wolfowitz and other senior leaders, that U.S. forces would be 
welcomed as liberators. They also point to the Bush 
administration's professed antipathy to military peacekeeping 
and nation-building as articulated by the President during the 
2000 campaign when he charged the Clinton administration with 
overextending the armed forces with such missions.
    ``Defense experts and some military forces also cited the 
Pentagon's determination to fight the war and maintain the 
peace with as small a force as possible, noting that it 
reflected Rumsfeld's determination to use the war in Iraq to 
support his vision for `transforming' the military by showing 
that smaller and lighter armed units supported by special 
forces and air power could prevail on the 21st century 
battlefield.''
    Later, the article says, ``Officials inside and outside the 
administration say the shift in mission should not have been a 
surprise. In January, the Center for Strategic and 
International Studies, a Washington think tank, published an 
`action strategy' for Iraq that recommended that the Pentagon 
plan as diligently for the post-war period as for the war. `To 
avoid a dangerous security vacuum it is imperative to organize, 
train, and equip for post-conflict security missions in 
conjunction with planning for combat,' the document states.
    ``In February, an official from the U.S. Institute of Peace 
briefed the Defense Policy Board, an influential advisory panel 
on a $628 million proposal developed by the institute and based 
on the peacekeeping experiences in Kosovo. It called for 
bringing 6,000 civilian police officers, 200 lawyers, judges, 
court administrators, and corrections officers into Iraq as 
soon as the fighting stops.`Both proposals,' according to 
senior administration officials, `were matched by debates 
inside the government.' But the Pentagon had no plan for 
civilian policing assistance in place and almost no military 
police on hand when the fighting stopped in early April.''
    Last paragraph: ``Before the war began, General Eric K. 
Shinseki, the Army Chief of Staff, told Congress that `several 
hundred thousand' forces would be necessary to stabilize Iraq 
after the war. Several days later, Wolfowitz told another 
congressional committee that far fewer troops would be needed, 
calling Shinseki's estimate `way off the mark.' ''
    Well, this is not the first time we are hearing this kind 
of thing. The points highlighted in this story were raised 
during the hearings that the chairman and I have held since 
last July, and it is no surprise. The Deputy Secretary, I am 
sure, will have an answer for this, but I am confident you have 
come prepared today to address and rebut several of these items 
mentioned in the story, and there is no doubt that we are 
seeing positive changes in Iraq, that we are making progress, 
especially outside of Baghdad, but the overall impression has 
begun to take hold, and justifiably, in my view, that there was 
either a lack of planning or overly optimistic assumptions, or 
both.
    I mean, we were honestly surprised by the rise of the 
Shiites and the resurgence of fundamentalism. Did we plan for 
that? Were we honestly surprised by the lawlessness that 
plagues Baghdad? I have to say, Mr. Secretary, in my view there 
is a real danger that if we do not recover quickly, the damage 
may be irreparable.
    The Taliban takeover in Afghanistan was a sobering lesson 
to the people willing to pay almost any price for a basic sense 
of security, and the longer it takes us to restore law and 
order, the more likely it is the Iraqis will turn to extremist 
solutions, in my view.
    Just as many in Iraq and the region invented the conspiracy 
theory that the United States wanted Saddam to remain in power, 
they will now begin to believe that we want to see Iraqis 
remain in a state of anarchy so that we can control their 
riches. We have two competing pressures, I acknowledge. One is 
the understandable desire to leave as soon as possible and not 
become occupiers. The other is to stay as long as necessary to 
make sure that Iraq can stay together and function on its own 
without descending into chaos. It is still my view, it has not 
changed, that only if we satisfy both of these demands are we 
going to be all right.
    It would seem to me that the common sense solution remains, 
invite in NATO, involve our European allies, involve friendly 
nations in the Arab and Muslim world. The good start today with 
the Security Council resolution and its changed emphasis. Only 
then will we lighten our burden on our forces, spread the risk, 
and prevent us from being seen as occupiers, and vastly improve 
our chance of success, and yes, getting the endorsement of the 
much-maligned United Nations will make it easier, I believe, 
for those governments whose people opposed the war in the 
beginning and still oppose it to contribute to the building of 
the peace, and as I said, I am pleased that the President has 
made significant progress at the U.N. today, and that NATO has 
said yes to Poland's request for assistance in managing its 
sector.
    Now, if we could show a little magnanimity in victory 
instead of talking about retaliation and limiting contracts 
with countries who were not with us in the war, maybe we can 
get even more friends in on the peace, for I do not believe 
Iraq is some kind of prize. Iraq, just as Afghanistan--and I 
cannot say I have seen it yet, but I think Iraq, just as 
Afghanistan, the single most important issue, as you all would 
agree, I suspect, is security, and if people are afraid for 
their lives, if they will not go to work or to school, if 
shooting and lawlessness rage, engineers, builders, and 
technicians will not be able to make the repairs needed to get 
the economy going, the oil flowing and civil servants will stay 
away from their offices and doctors from their hospitals, and 
the people who drive the buses, run the power plants, and pick 
up the garbage are not going to do their job.
    And as good as our soldiers are, most of them are not 
trained to be police, to control crowds, to capture common 
criminals. Where are the military police, the gendarmes? Who is 
going to do this job? How could we have failed to learn from 
the Balkans about the need to bolster our soldier peacekeepers 
with properly trained peacekeepers?
    So Mr. Secretary, I read your prepared remarks. I have a 
number of questions I want to ask you. I have already taken 
longer than I usually do in an opening statement, but I believe 
if we had more police, our soldiers would have more flexibility 
to perform other critical tasks that we have fallen short of 
the mark on, like securing nuclear facilities, where we have 
seen looting.
    No one is talking about 100,000 police, as you claim in 
your statement. We are talking about 10,000. Actually, the 
report suggested to you was 6,000, and we should have planned 
for it, and if the security situation is still too dicey for 
even heavily armed gendarmes, then we need more troops, maybe 
even several hundred thousand, as General Shinseki had 
indicated early on.
    Indeed, I find it a little ironic that you are quoted today 
as saying that one of the lessons of the Balkans in terms of 
post-conflict situations is to have forces, ``so big and so 
strong that nobody would pick a fight with us.'' By your own 
testimony, you say that they are still picking fights with us 
in Iraq and our land commander, General McKiernan, complained a 
week ago that he cannot stabilize a country the size of 
California with only 150,000 troops, so I am anxious to hear 
what we are going to do from this point on and ask unanimous 
consent, Mr. Chairman, that the rest of my statement be placed 
in the record as if read.
    The Chairman. Your statement will be placed in the record 
in full.
    I thank the Senator. Likewise, for all Senators who have 
them, statements will be placed in the record in full 
immediately following the two statements that have just 
occurred.
    [The statements of Senator Biden, Senator Hagel, Senator 
Brownback, and Senator Feingold follow:]

           Opening Statement of Senator Joseph R. Biden, Jr.

    Mr. Secretary, General Pace: I join the chairman in welcoming you 
to the committee.
    Let me also take this opportunity to say our Armed Forces performed 
brilliantly. Their success is a tribute to their skill and courage--and 
to the commitment of the last two administrations in ensuring that our 
fighting forces are second to none in training and equipment.
    Mr. Secretary, I think it is not an understatement to say that no 
other member of the administration has been more identified with the 
effort to change the regime in Iraq than you. You've been a passionate, 
and articulate spokesperson for the view that ending Saddam Hussein's 
regime was a moral as well as a strategic imperative.
    The mass graves discovered since Iraq's liberation are a terrible 
testament to the uniquely barbaric nature of the former regime.
    It is my hope that the Iraqi people will never again have to endure 
such brutality and they can soon enjoy the liberties that so many of us 
take for granted.
    But, Mr. Secretary, It's also my hope that the administration 
recognizes that reaping the strategic dividends of Iraq's liberation--
from sending a message to reluctant states such as Syria--to spreading 
democracy in the Middle East--to shifting the balance in the region 
away from radicalism--all depend upon winning the peace. So does 
helping the Iraqi people build the kind of future they deserve.
    This committee has focused on the need to win the peace 
relentlessly for ten months, ever since our hearings last summer. We've 
made the same point, repeatedly, about Afghanistan. But sometimes I 
fear it has fallen on deaf ears.
    What we saw in Afghanistan, and what, unfortunately, we may be 
seeing again in Iraq, is that for all our success at projecting power, 
we're less adept at staying power. We know how to win wars, but, Mr. 
Secretary, with all due respect, so far we're fumbling the peace.
    We cannot afford to defeat rogue states only to allow them to 
become failed states, which are breeding grounds for terrorism and 
instability.
    I'd like to read from an article in Monday' Washington Post, which 
I am sure you have seen. Of course, the press is always more interested 
in the dogs that bark than those that don't. But this is not an 
isolated account. Virtually every major news outlet has published 
similar reports. And the many experts this committee has spoken with 
have made the same points. But let me quote from the Post:

          Military officers, other administration officials and defense 
        experts said the Pentagon ignored lessons from a decade of 
        peacekeeping operations in Haiti, Somalia, the Balkans and 
        Afghanistan.

          It also badly underestimated the potential for looting and 
        lawlessness after the collapse of the Iraqi government, lacking 
        forces capable of securing the streets of Baghdad in the 
        transition from combat to postwar reconstruction.

          Only in the past week did administration officials begin to 
        acknowledge publicly these miscalculations. They described 
        continued lawlessness as a serious problem in Baghdad and 
        called for more U.S. forces on the ground to quell a wave of 
        violence that has kept American officials from assuring the 
        Iraqi people that order would soon be restored.

It goes on to say:

          How and why senior military and civilian leaders were caught 
        unaware of the need to quickly make the transition from war-
        fighting to stability operations with adequate forces mystifies 
        military officers, administration officials and defense experts 
        with peacekeeping experience in the 1990s.

          Defense experts inside and outside the Pentagon say military 
        planners were clearly influenced by the Pentagon's belief, 
        expressed by Deputy Defense Secretary Paul D. Wolfowitz and 
        other senior leaders, that U.S. forces would be welcomed as 
        liberators. They also point to the Bush administration's 
        professed antipathy to military peacekeeping and nation-
        building, as articulated by the president during the 2000 
        campaign when he charged the Clinton administration with 
        overextending the armed forces with such missions.

          Defense experts and some military officers also cite the 
        Pentagon's determination to fight the war and maintain the 
        peace with as small a force as possible, noting it reflected 
        Rumsfeld's determination to use the war in Iraq to support his 
        vision for ``transforming'' the military by showing that 
        smaller and lighter armed units, supported by Special Forces 
        and air power, could prevail on the 21st century battlefield.

Later, the article says:

          Officials inside and outside the administration say the shift 
        in mission should not have been a surprise.

          In January, the Center for Strategic and International 
        Studies, a Washington think tank, published an `action 
        strategy' for Iraq that recommended the Pentagon plan as 
        diligently for the postwar period as for the war. `To avoid a 
        dangerous security vacuum, it is imperative to organize, train, 
        and equip for the post-conflict security mission in conjunction 
        with planning for combat,' the document states.

          In February, an official from the U.S. Institute of Peace 
        briefed the Defense Policy Board, an influential advisory 
        panel, on a $628 million proposal, developed by the institute 
        and based on peacekeeping experiences in Kosovo.
          It called for bringing 6,000 civilian police officers and 200 
        lawyers, judges, court administrators and corrections officers 
        into Iraq as soon as the fighting stopped.

          Both proposals, according to a senior administration 
        official, ``were matched by debates inside the government.'' 
        But the Pentagon had no plan for civilian policing assistance 
        in place, and almost no military police on hand, when the 
        fighting stopped in early April.

          Before the war began, Gen. Eric K. Shinseki, the Army chief 
        of staff, told Congress that ``several hundred thousand'' 
        forces could be necessary to stabilize Iraq after a war. 
        Several days later, Wolfowitz told another congressional 
        committee that far fewer troops would be needed, calling 
        Shinseki's estimate ``way off the mark.''

    This isn't the first time we're hearing this. The points 
highlighted in this story were raised during hearings that the Chairman 
and I have held since last July. There's no surprise here.
    Mr. Secretary, I'm confident that you have come prepared today to 
address and rebut several of the items mentioned in this story.
    And there is no doubt that we are seeing positive changes in Iraq--
that we're making progress, especially outside of Baghdad.
    But the overall impression has begun to take hold--and 
justifiably--that there was either a lack of planning or overly-
optimistic assumptions, or both. I mean, were we honestly surprised by 
the rise of the Shiites and the resurgence of fundamentalism. Did we 
plan for it? Were we honestly surprised by the lawlessness that plagues 
Baghdad?
    I have to say, Mr. Secretary, in my view, there is a real danger 
that if we do not recover quickly, the damage may be irreparable.
    The Taliban takeover in Afghanistan was a sobering lesson that 
people are willing to pay almost any price for a basic sense of 
security.
    The longer it takes for us to restore law and order, the more 
likely it is that Iraqis will turn to extremist solutions.
    Just as many in Iraq and the region invented the conspiracy theory 
that the United States wanted Saddam to remain in power, they will now 
begin to believe that we want to see Iraq remain in a state of anarchy 
so that we can control its riches.
    We have two competing pressures in Iraq. One is the understandable 
desire to leave as soon as possible and not become occupiers. The other 
is to stay as long as necessary to make sure that Iraq can stay 
together and function on its own without descending into chaos.
    It is still my view--it has not changed--that the only way to 
satisfy these competing demands is to share the burden with others.
    It would seem to me that the common sense solution remains. Involve 
NATO. Involve our European allies. Involve friendly nations in the Arab 
and Muslim world. It will lighten the burden on our forces, spread the 
risk, prevent us from being seen as occupiers, and vastly improve our 
chances of success.
    And, yes, getting the endorsement of the much-maligned U.N. will 
make it easier for governments whose people opposed the war to 
contribute to building the peace. I'm pleased we've made good progress 
on a new U.N. resolution, and that NATO has said yes to Poland's 
request for assistance in managing its sector.
    Now, if we would show a little magnanimity in victory instead of 
talking about retaliation and limiting contacts with countries that 
were not with us in the war, maybe we can get even more friends in on 
the peace. Iraq is not some kind of prize.
    In Iraq, just as in Afghanistan, and, Mr. Secretary, I can't say 
I've seen it yet--security is the single most important issue. Security 
should be our number one priority. Everything follows from that.
    If people are afraid for their lives, they won't go to work or to 
school. If shooting and lawlessness reign, engineers, builders and 
technicians won't be able to make the repairs needed to get the economy 
going and the oil flowing. Civil servants will stay away from their 
offices and doctors from their hospitals. The people who drive the 
buses, run the power plants and pick up the garbage won't do their 
jobs.
    As good as our soldiers are, most of them are not trained to be 
police--to control crowds--to capture common criminals. Where are the 
Military Police--the gendarmes--who know how to do this? How could we 
have failed to learn from the Balkans and Haiti about the need to 
bolster our soldier peacemakers with properly trained peacekeepers?
    Mr. Secretary, I read your prepared remarks. You argue that the 
situation in Iraq is profoundly different than the situation in the 
Balkans or Haiti because the enemy, while largely defeated, is still 
capable of killing Americans. As a result, you conclude, our emphasis 
has to be on soldiers, not police in Iraq. With all due respect, this 
is not a zero sum game. We need both.
    If we had more police, we'd free up more soldiers to take on the 
remnants of the enemy.
    If we had more police, our soldiers would have more flexibility to 
perform other critical tasks where we've fallen short of the mark, like 
securing nuclear facilities where we've seen looting. No one is talking 
about ``100,000'' police as you claim in your statement. We're talking 
about maybe 10,000 and we should have planned for it. And if the 
security situation is still too dicey for even heavily armed gendarmes, 
then we need more troops--maybe even the ``several hundred thousand'' 
that General Shinseki proposed. We're pretty close to that number now.
    Indeed, I find it a little ironic that you are quoted today as 
saying that one of the lessons from the Balkans in terms of post-
conflict situations is to have forces ``so big and so strong that 
nobody would pick a fight with us.'' But in your testimony, you say 
they are still picking fights with us in Iraq. And our land commander, 
General McKiernan, complained a week ago that we can't stabilize a 
country the size of California with only 150,000 troops.
    Finally, Mr. Secretary, I was glad to read in your statement that 
you believe we must be in Iraq for the long haul. You remind us that 
we're still in Bosnia 8 years after Dayton--and rightly so--and that 
the stakes in Iraq are even greater and the tasks more difficult. I 
agree. I only wish that the President had made this clear to the 
American people ahead of time--something I asked for repeatedly in the 
many months leading up to the war. I wish that the President would tell 
the American people now that we are going to be in Iraq for years and 
it is going to cost us tens of billions of dollars.
    No foreign policy, no matter how well conceived, can be sustained 
without the informed consent of the American people. And they have not 
been informed.
    There are many other critical issues, including where we are in the 
search for weapons of mass destruction and what we're doing to support 
the creation of an interim Iraqi government that is seen as legitimate 
by the people of Iraq, not a U.S. puppet. But let me leave it at that 
for now and thank you both, again, for being with us today.

                                 ______
                                 

               Prepared Statement of Senator Chuck Hagel

    Thank you, Chairman Lugar for calling this and subsequent hearings 
on Iraq Reconstruction. Let me begin by fully associating myself with 
your op-ed on this subject in today's Washington Post.
    I would like to take the opportunity offered by the appearance 
today of Deputy Secretary Wolfowitz and General Pace to express my 
respect and appreciation for the spectacular performance of our Armed 
Forces in Iraq. War is never an easy option, and American men and women 
have taken great risks and made great sacrifices in meeting our initial 
objectives in Iraq. Our men and women in uniform have the respect and 
admiration of all Americans.
    We are now in the business of ``nation building'' in Iraq. The 
complexities of Iraq--its size, its culture, its geography, its 
demography--make nation-building there one of the greatest challenges 
this country has ever faced. We are only at the beginning of a process 
that Chairman Lugar estimates could take at least five years. I agree.
    That the American military would defeat Saddam Hussein's regime was 
never in doubt. What was in doubt was what comes next in Iraq and how 
we manage a transition to stability and democracy in such a complicated 
region of the world.
    The sudden change in the structure, mission, and personnel at the 
Office of Reconstruction and Humanitarian Assistance (ORHA) in Iraq 
indicates that we may have underestimated or mischaracterized the 
challenges of establishing security and rebuilding Iraq. This is an 
area of great unknowns and uncertainty. No one can accurately predict 
the future.
    I encourage the Bush Administration to continue to reach out to the 
United Nations and our NATO and Arab allies to work with us as partners 
in this immense task of rebuilding Iraq. President Bush and Secretary 
Powell have achieved a major diplomatic success with today's vote at 
the United Nations. Our interests are well-served by UN engagement and 
legitimacy. NATO also has taken steps to get more involved in security 
in Iraq. We need to encourage them to do more. America cannot, and 
should not, bear this burden alone.
    Iraq cannot be considered in a vacuum. Without progress on the 
Israeli-Palestinian peace process; new confidence-building measures in 
the Persian Gulf, and real steps toward political reform and economic 
development in the Arab world, our efforts in Iraq and throughout the 
Middle East will be frustrated and fail.
    Thank you again, Mr. Chairman for calling this hearing today. I 
look forward to the testimony of our distinguished witnesses.

                                 ______
                                 

              Prepared Statement of Senator Sam Brownback

    Mr. Chairman, thank you for holding this important hearing on the 
status of activities in this post-conflict stage of Operation Iraqi 
Freedom. I must first begin by congratulating the President on today's 
resounding victory in the United Nations Security Council on lifting 
sanctions. I hope members from this committee soon will be able to 
visit Iraq to survey the country and to provide support to the Bremer 
administration for the enormous task that is now just beginning to 
unfold. I especially hope we are able to visit the southern Shi'a areas 
of Iraq where I understand we are having notable successes.
    I hear many reports from the field and while it is not a perfect 
picture, I believe much is being achieved by our many able-bodied 
soldiers, diplomats and others on the ground. There has been much 
criticism from my colleagues about the purported events transpiring in 
this newly liberated country.
    First, I would like to begin by talking about the threat Iran poses 
to America's security and our efforts to bring security and stability 
to Iraq and Afghanistan.
    I want to call the committee's attention to some important 
revelations that have come out in this week's news regarding Iran. From 
the May 21st, New York Times--the headline: ``U.S. Suggests Al Qaeda 
Cell in Iran Directed Saudi Bombings'' and the L.A. Times, the 
headline: ``U.S. Ends Talks with Iran Over Al Qaeda Links.''
    Mr. Chairman, these headlines say it all. To say that we can not 
trust the Iranians is perhaps the understatement of the year. I know 
many on this committee have hoped that we could reach some type of deal 
with the so-called reformers in this country--but it is obvious that 
this is not only impossible, but that trusting in such an approach is 
extremely dangerous for U.S. security.
    The NY Times quotes a senior Bush administration official as saying 
that ``The United States has `rock-hard intelligence' that at least a 
dozen Oaeda members, including Mr. Adel [the organization's security 
chief] had been 1directing some operations from Iran'.'' Furthermore, 
the article goes on to cite a senior Saudi official confirming the view 
that it is Adel--who is in Iran, who directed the Riyadh attack.
    The Iranian regime is a terrorist regime. A longstanding truism of 
American foreign policy has been that you can not and should not 
negotiate with terrorists. I hope that the current revelations will put 
an end to the dangerous desires by some to make a deal with these 
tyrants.

  <bullet> What examples have you seen of Iran's meddling in the 
        reconstruction of Iraq?

  <bullet> In clear violation of Iran's promises, we have heard reports 
        that the Iran is sending numerous agents into Iraq to stir up 
        the Shiite community. What is being done to combat this?

  <bullet> If we do not confront Iran--it seems that by removing Saddam 
        Hussein and the Taliban, we have merely paved the way for 
        export of the Islamic Revolution? Could you address the 
        importance of confronting Iran on the nuclear, terrorist and 
        human rights abuses--as it relates to our ability to ever 
        achieve long-term stability in Iraq?

    I would like to extend to my colleagues the question of what their 
expectations are for moving forward in Iraq, whether on reconstruction, 
political transition or security? Sadly, I think many of us have 
wrongly pointed to already existing difficulties and blamed a lack of 
immediate solution on the President. I would point out to you that it 
took us quite a while to establish a constitution to govern our own 
country after we liberated ourselves. We should not be so arrogant as 
to expect instant gratification on these matters.
    In the southern Shi'a cities, the children are in school, people 
are being fed and are making much headway with very little. The 
expediency with which we have deployed a civilian administrator is 
validation of the success of the post-conflict operation.
    Many have beat-up on General Garner and claimed that he was being 
sent back home with his tail between his legs. That is not the case and 
to my knowledge, the pre-supposed expectation by many that he would 
stay indefinitely in Iraq was not part of the plan--in fact, he was 
told that he had no obligation to deploy and his leadership of the 
Office of Reconstruction and Humanitarian Assistance (ORHA) would be 
for a specific task for a short period.
    The Bremer team is just now on the ground. I hope Deputy Secretary 
Wolfowitz will highlight the successes, but I certainly hope he will 
give us an unvarnished view of the things transpiring on the ground. I 
hope he emphasizes the twenty-five year theft by Saddam Hussein of the 
resources, the energy and the vitality of the Iraqi people--that is 
clearly our biggest challenge. In his wake are destroyed lives, 
decaying and unattended infrastructure, a regime indoctrinated in fear, 
and the imagination, traditions and talent of a strong people 
suppressed.
    In addition, I would hope we are able to look into past human 
rights abuse and war crimes, and be able to intercept new violations of 
human rights and religious freedom. First, reports have been coming out 
of the country of mass graves and rumors have circulated that we are on 
the verge of uncovering a massive tragedy--graves that could total in 
excess of a million people. I think the scale of the crimes against 
humanity are still widely unknown here on Capitol Hill.
    Emotions are running high in the country and I understand our 
military, at the request of local clerics, has tried to remain out of 
sight so as to be sensitive to the families who want to bury their 
relatives according to Islamic customs. I am afraid it will soon be 
apparent to all of us here that these crimes will be on the scale of 
Hitler and Stalin in their brutality and in the number of lives taken.
    Currently, I understand Chaldean Catholics, Assyrian and other 
religious minorities in Iraq are reporting that they are being targeted 
with violence for religious reasons throughout Iraq--in Baghdad, 
Basrah, and Kirkuk. Some have been hunted down and murdered, others are 
reporting that their homes, factories, and businesses have been burned 
or otherwise destroyed. According to a recent LA Times report, 
Christian women are reporting threats and intimidation for not wearing 
``Islamic'' dress. These Christian communities are 2000 years old and 
constitute one of the largest Christian communities in the Middle East. 
There are now fears that they could be forced out under such treatment 
over the next few months. Their co-religionists are expressing fear and 
frustration about an apparent lack of concern by U.S. authorities for 
the protection of religious minorities.

  <bullet> Beyond efforts to restore law and order, is the ORHA taking 
        steps to protect vulnerable religious minorities? What are 
        they?

  <bullet> Is there anyone in the Bremer administration charged with 
        monitoring and relating to religious minority groups? Who?

  <bullet> Has the Bremer administration or anyone else in ORHA made 
        statements specifically aimed at warning dominant Shiite groups 
        and militants warning them not to attack or harass non-Muslim 
        minorities?

    Noah Feldman, a 32-year-old NYU law professor, has been appointed 
by the U.S. Government to head up the drafting of Iraq's new 
constitution. Professor Feldman has written a recent book, ``After 
Jihad,'' and has made other comments that raise concerns about whether 
basic human rights and freedom will be guaranteed in the new 
constitution. In his book, it is clear he does not equate democracy 
with liberal democracy and seems unconcerned with some basic human 
rights and freedoms. He praises Iraq as an ``Islamic democracy'' that 
has brought women into the work place and achieved more equitable 
income distribution. He was quoted by the BBC as saying, ``that the 
separation of church and state, although a central part of the U.S. 
constitution might not be appropriate for a country which was 
overwhelmingly Muslim.'' He is not one who advocates for religious 
freedom or other human rights in his insistence that jihadists be 
brought into the electoral process.

  <bullet> Will basic human rights including religious freedom be 
        guaranteed without qualification for all groups and 
        individuals, Muslims and non-Muslims alike, in the new Iraq 
        constitution?

  <bullet> Will the U.S. advocate protection for these basic human 
        rights in the new constitution and laws of Iraq?

  <bullet> Will Islamic law be a basis for Iraq's new legal system and 
        judiciary or will it be referenced in the new constitution?

  <bullet> What can be pointed to as a model for ``Islamic democracy'' 
        that Prof. Feldman enthusiastically supports in his book?

  <bullet> Is it out of the question for Iraq to be a secular state or 
        is it a foregone conclusion that Iraq will be an Islamic state 
        as Prof. Feldman implied in his BBC interview just before going 
        to Baghdad?

  <bullet> If it is to be an Islamic state what would the protections 
        be for Iraq's many religious minorities?

  <bullet> Will the constitution drafting team include any Christian 
        human rights experts (such as Habib Malik)?

  <bullet> Is there anyone in the drafting team who are expert in 
        forging human rights guarantees within an Islamic context (like 
        Khalid El Fadi)?

                                 ______
                                 

           Prepared Statement of Senator Russell D. Feingold

    Mr. Chairman, I thank you and Senator Biden for holding this 
important hearing, and I thank both of our witnesses for being here 
today.
    Since last summer, many members of this committee, myself included, 
have been asking questions about the nature of the U.S. commitment to 
post-conflict Iraq, trying to identify clearly the tremendous needs 
that must be met if Iraq is to enjoy stability and cease to threaten 
the region in the future. This has gone from a speculative exercise to 
a very current one, but what troubles me is that we still have so few 
answers. Answers from the administration about the scope of the job, 
and the likely requirements in terms of U.S. manpower, resources, and 
time, remain vague at best.
    Recent press reports give our efforts to date mixed reviews at 
best. I am deeply concerned about our failure to account for weapons of 
mass destruction and the means to make them. I am also concerned about 
the disorder that persists in parts of the country, and about the 
shifting American plans and teams involved in what appears to be an 
adhoc effort, despite all of the advance warnings about the critically 
important reconstruction period.
    Unfolding events in Afghanistan have proven the importance of a 
robust commitment to security and reconstruction. We do not need more 
examples or more reports to convince us that this is a serious business 
and that we need to get stabilization and reconstruction right. What we 
do need is candor about the commitment that will be required, and 
clarity about our priorities in the short, medium, and long terms. And 
critically, we need help from the rest of the world.
    The men and women of the United States Armed Forces performed 
brilliantly in Iraq. We cannot let them down by squandering their 
efforts now with a half-baked plan for reconstruction.

    The Chairman. Let me indicate that Deputy Secretary 
Wolfowitz will present his statement. My understanding is that, 
General Pace, your statement will be included in the record in 
full, and then we will commence questioning by the Senators at 
that point.
    Let me just say, as a point of personal privilege, that 
Deputy Secretary Paul Wolfowitz is a friend. He has been not 
only an able American public servant, but one who certainly 
guided my understanding of the Philippines during 1985 and 
1986. In his own service in Indonesia it was my privilege to 
visit with him and to understand that country through his eyes 
and through his witness. I appreciate very much his service to 
the country now, and it is a real privilege to have him before 
our committee today, and I call upon you, Mr. Secretary, for 
your testimony.

   STATEMENT OF HON. PAUL D. WOLFOWITZ, DEPUTY SECRETARY OF 
 DEFENSE, DEPARTMENT OF DEFENSE; ACCOMPANIED BY: GENERAL PETER 
   PACE, VICE CHAIRMAN, JOINT CHIEFS OF STAFF, HON. ALAN P. 
 LARSON, UNDER SECRETARY OF STATE, FOR ECONOMIC, BUSINESS AND 
 AGRICULTURAL AFFAIRS AND HON. WENDY J. CHAMBERLIN, ASSISTANT 
 ADMINISTRATOR, BUREAU FOR ASIA AND THE NEAR EAST, U.S. AGENCY 
                 FOR INTERNATIONAL DEVELOPMENT

    Mr. Wolfowitz. Thank you, Mr. Chairman. Thinking back on 
your visit to Indonesia, it seems like eons ago. It was a very 
different time in the Muslim world, in that biggest Muslim 
country in the Muslim world. A lot has changed, not all of it 
by any means for the better, that is for sure.
    Mr. Chairman and members of the committee, your example has 
consistently demonstrated that America's security concerns 
transcend party or politics. On behalf of the men and women who 
serve our country so faithfully and so well, we are grateful 
for the support of you and your colleagues in both Houses of 
the Congress. I appreciate the opportunity to discuss with you 
today the critical task of stabilization and reconstruction in 
Iraq.
    Mr. Chairman, we are committed to helping Iraqis build what 
could be and should be a model for the Middle East, a 
government that protects the rights of its citizens, that 
represents all ethnic and religious groups, and that will help 
bring Iraq into the international community of peace-seeking 
nations. Now that this goal is within sight, Iraq represents 
one of the first and best opportunities to build what President 
Bush has referred to in his State of the Union Message last 
year as, ``a just and peaceful world beyond the war on 
terror.''
    I would note too, Mr. Chairman, I have heard the President 
refer privately to the fact that the challenge of winning the 
peace in Iraq is even greater than the challenge of winning the 
war, and I think he would share the sentiments that you have 
expressed in that regard and your distinguished ranking member 
has expressed in that regard.
    Mr. Chairman, Saddam Hussein was a danger to his people and 
a support to terrorists and an encouragement to terrorist 
regimes. His removal from power opens opportunities to 
strengthen governments and institutions in the Muslim world 
that respect fundamental human dignity and protect freedom, 
that abhor the killing of innocents as an instrument of 
national policy. Success in Iraq will continue to demoralize 
those who preach doctrines of hatred and oppression and 
subjugation. It will encourage those who dream the ancient 
dream of freedom.
    In the last half-century, those ideals of freedom and self-
government have been the most powerful engines of change in the 
world. They give us hope for further development in the Muslim 
world, a development that will benefit every nation throughout 
the world and bring us important allies in the war against 
terror. We cannot afford to fail. We cannot afford to allow 
Iraq to revert to the remnants of the Baathist regime that now 
reigns throughout their country in a desperate bid for 
influence and power, or to see that country become vulnerable 
to other extremist elements.
    As the distinguished chairman of this committee said as 
recently as Sunday at Notre Dame, ``Iraq must not become a 
failed State and a potential incubator for terrorist cells.'' 
We cannot and we will not allow such a threat to rise again, 
nor can we dash the hopes of the Iraqi people. Make no mistake, 
recent efforts to destabilize Iraq in large measure represent 
the death rattle of a dying regime. We can defeat them, and we 
will.
    As Presidential envoy Paul Bremer told me recently in a 
telephone conversation, ``If the Baathists have any staying 
power, let there be no doubt--we have more.'' We will not stop 
our efforts until that regime is dead. Rebuilding Iraq will 
require similar time and commitment.
    Mr. Chairman, I have just returned from a visit to Bosnia 
and Kosovo and Macedonia. My main purpose in those first two 
countries was to thank American troops for their dedication and 
commitment, and to assure the authorities in the region that 
the United States will see our tasks through to completion.
    To those who question American resolve and determination, I 
would remind them that we are still playing our crucial role in 
Bosnia 8 years after the Dayton Accord, many years after some 
predicted we would be gone, and we continue to be the key to 
stability in Macedonia and in Kosovo. The stakes in Iraq are 
even greater than in the Balkans, far greater, but if the 
stakes are huge in Iraq, there is no question that our 
commitment to secure a peaceful Iraq is at least equal to those 
stakes.
    Mr. Chairman, I have noted with strong agreement your 
statements about the need for America to stay the course in 
Iraq. I applaud your determination and appreciate your support 
and the support of this committee in helping the American 
people to understand the stakes that we have in success and 
what we must do to achieve it.
    Mr. Chairman, I would like to point out that today is only 
67 days since our Marines and Army forces first crossed the 
Kuwaiti border into Iraq. It is only 3 weeks since President 
Bush announced the end of major combat operations. I underscore 
that word major, because I will explain at greater length later 
smaller combat operations in Iraq still continue on a daily 
basis.
    Even though the war has not completely ended, we are 
already started on the process of rebuilding that country. 
Several months before the war even began, we established the 
Office of Reconstruction and Humanitarian Assistance in order 
to be able to address the post-war tasks. As the title of that 
office implies, much of its early planning and focus was aimed 
at two disasters that fortunately did not happen, one was to 
relieve what was anticipated to be a massive humanitarian 
crisis, and the second to halt the environmental damage that 
was anticipated from large-scale destruction of the Iraqi oil 
fields.
    Thanks, I think in large measure to the speedy success of 
the military operation, the task we face has turned out to be 
very different. There is no humanitarian crisis in Iraq. 
However, a great deal of other work remains to be done, most of 
it anticipated in ORHA's planning and staffing, work such as 
restoring rapidly the functioning of the electric power in that 
country and restoring essential medical services. Most of these 
problems are not primarily a result of the war, but rather the 
result of decades of tyrannical neglect and misrule, where the 
wealth and treasure of the country was poured into creating 
palaces, building tanks, and procuring weapons of mass 
destruction instead of caring for the Iraqi people.
    That damage has been compounded by widespread looting in 
the aftermath of the Saddam regime, some of it clearly 
conducted by surviving elements of the regime for political 
purposes. The task before us is more about construction than 
reconstruction, the building of a society that was allowed to 
rot for more than three decades by one of the world's worst 
tyrants.
    There is some good news in all of that. The good news is 
that the Iraqi people will be able to notice improvements in 
their normal lives long before we have reached the full 
potential of that country, one of the most important in the 
Arab world.
    Just a few examples, Mr. Chairman. Before the war, large 
numbers, estimates range from 20 to 50 percent of Iraq's 
children under the age of five suffered from malnutrition. Only 
60 percent of the Iraqi people had access to safe drinking 
water. Ten of Basrah's 21 potable water treatment facilities 
were not functional. Seventy percent of Iraq's sewage treatment 
plant needed repair, and according to UNICEF, some half-a-
million metric tons of raw or partially treated sewage was 
dumped in the Tigris and Euphrates Rivers, Iraq's main source 
of water.
    Eighty percent of Iraq's 25,000 schools were in poor 
condition, with an average of one book per six students, while 
I would note at the same time in every one of the first 100 or 
so schools we inspected in Southern Iraq, every one of them had 
been used as a military command post and an arms storage site.
    Iraq's electrical power system operated at half its 
capacity before the war. Iraq's agriculture production had 
dropped significantly, and Iraq's oil infrastructure was badly 
neglected. It will take time to reverse the effects of 
persistent, systematic neglect and misallocation of resources, 
but if the task is enormous, even at this very early stage 
there are grounds for optimism.
    I talked this morning on a secure telephone with Lieutenant 
General John Abizaid, the Deputy Commander of Central Command, 
one of our most distinguished army leaders. He also commanded 
U.S. peacekeeping troops in Bosnia and in Kosovo, and he 
reported after his very recent visit to Baghdad that in Iraq we 
are already way ahead of where we were in either Bosnia or 
Kosovo at a comparable stage in those deployments.
    Despite claims that there were no plans for peace 
operations in the wake of military operations, Presidential 
envoy Bremer and Jay Garner are implementing plans drawn up 
long before the war to strengthen and rebuild the country. 
Assertions that we were already failing, detailed at some 
length in the Washington Post article that the ranking member 
read from, assertions that remind me of similar assertions that 
the military campaign had taken us into a quagmire just one 
week into the war, reflect in my view an incomplete 
understanding of the situation in Iraq as it existed before the 
war, and an unreasonable expectation of where we should be now.
    Security is our No. 1 priority, and our most urgent task in 
the post-Saddam Hussein era is to establish secure and stable 
conditions throughout the country. Secretary Rumsfeld 
reiterated recently, and I quote, ``security remains the No. 1 
priority in Iraq precisely because security and stability are 
the fundamental prerequisites for everything else we need to 
accomplish, essential for providing the basic normal life and 
services, and beyond that to create a climate''--and this is 
important--``where people for the first time in their history 
can express political views in an atmosphere free of rear and 
intimidation.''
    Much of what I read on this subject suggests what I believe 
is a fundamental misunderstanding about the nature of the 
security problem in Iraq, and consequently a failure to 
appreciate that a regime which had tens of thousands of thugs 
and war criminals on its payroll does not vanish overnight. The 
people who created the mass graves that are now being uncovered 
in Iraq still represent a threat to stability that was not 
eliminated automatically when the statues came tumbling down in 
Baghdad.
    I read recently in that same article that unnamed officials 
and experts say that the Pentagon ignored lessons from a decade 
of peacekeeping operations in Haiti, Somalia, the Balkans, and 
Afghanistan. It seems to me that those anonymous sources ignore 
the difference between normal peacekeeping operations and the 
kind of situation we are in now, which is a combination of 
peacekeeping and low-level combat. In just the last 24 hours 
alone--I emphasize this is just the report that came in this 
morning--in Baghdad, the 3rd Infantry Division raided a Baath 
Party meeting and detained nine Baathists in Fallujah, which 
continues to be a hotbed of Baathist activity, some of it with 
connections to foreign extremists, possibly al-Qaeda. An Iraqi 
vehicle attacked a checkpoint in the 3rd Armored Cavalry 
Regiment, two enemy were killed and one detained. In the same 
area, in the same 24-hour period, three Iraqi snipers engaged 
U.S. troops, and in a third incident in the Fallujah, area a 
Bradley was disabled by a rocket-propelled grenade fired from a 
mosque.
    In Baqubah, another town in north central Iraq, again in 
just the last 24 hours, the 4th Infantry Division conducted a 
raid and captured seven Iraqis and seized 15 million dinars. In 
al Kut, a patrol of the 1st Marine Division engaged 20 enemy, 
killed two, wounded one, and captured 11. Fortunately, in this 
24-hour period there were no U.S. casualties, but that level of 
activity illustrates continued hostile activity that we 
encounter, much of it apparently associated with elements of 
the old regime.
    To give you some statistics, in the last 2 weeks there have 
been 50 hostile incidents, 37 of them initiated against our 
troops. We have had 17 wounded in action and one killed. That 
is since the end of major combat activity.
    In short, while major combat operations have ended, 
American soldiers continue to be shot at almost daily. While we 
have made substantial progress in catching the people on the 
blacklist, there is still additional work that needs to be 
done. We face in Iraq a situation where a substantially 
defeated enemy is still working hard to kill Americans and to 
kill Iraqis who are trying to build a new and free Iraq because 
they want to prevent Iraqi society from stabilizing and 
recovering. Bizarre as it may sound, it would appear that their 
goal is to create nostalgia for Saddam Hussein. We cannot allow 
them to succeed.
    We need to recognize that this situation is completely 
different from Haiti or Bosnia or Kosovo, where opposition 
ceased very soon after our peacekeeping troops arrived. We do 
not have the choice in Iraq of avoiding confrontation with 
these repressive elements of the old regime. We have to 
eliminate them, and we will do so, but it will take time.
    This task requires more than just military policemen. There 
is a very difficult balance to be struck, particularly in 
Baghdad, between providing ordinary civil order forces on the 
streets, which we are doing, and being prepared to deal with 
snipers and armed bands. CENTCOM is making that transition. 
There are now 45,000 coalition military personnel in the 
Baghdad area, approximately 21,000 of whom are actively 
involved in security operations. In just the last 24 hours 
alone, the 3rd Infantry Division has conducted nearly 600 
patrols, secured 200 fixed sites, and manned 85 checkpoints. 
Again, General Abizaid reports from his recent visit that we 
are already seeing much more commerce, many more people on the 
street, and much shorter gas lines.
    I think of importance in Sadr City, the notorious Shia slum 
in Baghdad of more than a million people that used to be known 
as Saddam City, that people are already reporting that their 
conditions are better than they were before the war. Of course, 
that is not hard to do in that part of town. We are making 
progress.
    In my most recent conversation with Presidential Envoy 
Bremer, he reports that while the security situation is 
serious, and unfortunately still imposes very severe 
restrictions on the ability of U.S. personnel to move freely, 
and that is a constraint on our reconstruction effort, Baghdad 
more generally is not a city in anarchy. Shops are open and the 
city is bustling with traffic. We have gotten some 7,000 Iraqi 
police on duty in Baghdad, and reports of looting and curfew 
violations and gunfire are decreasing, but one of our principle 
challenges is that we have been able to make much less use of 
the old Iraqi police force than we had planned. It turns out 
that their leadership was hopelessly corrupted by the old 
regime, and the policemen themselves seem to have been better 
trained to raid people's homes at night than to patrol the 
streets.
    It is important to distinguish the security situation also 
in different parts of the country. Most of the attention, 
appropriately enough, is on Baghdad, and there is no question 
that the capital is one of the keys to the future of the 
country, but we would make a mistake if we saw it as the only 
one.
    Conditions in other parts of the country are generally 
better. For example, in the south, the second largest city in 
the country, Basrah, with a population of almost 1.3 million 
people, most of them Shia, are overwhelmingly grateful to be 
free of Saddam's tyranny, and the city is largely stable. In 
Nasiriah, local police are now armed, and the force has grown 
to over 600. In Diwaniya, nearly 300 Iraqi police officers have 
been hired and the coalition is installing two 911 emergency 
phone lines.
    In Northern Iraq, the two large cities, Mosel and Kirkuk, 
with a combined population of more than 2\1/2\ million people, 
are largely stable thanks to the successful efforts of Major 
General Dave Petraeus and the 101st Air Assault Division. There 
remain some problems in those two cities, most significantly 
problems arising out of the property disputes created by 
Saddam's policy of Arabization, a kind of slow-motion ethnic 
cleansing, but we are taking political and legal measures to 
try to address those problems.
    We sent a study team led by former U.S. Ambassador to Iraq 
William Eagleton, that included distinguished experts from 
Poland, the Czech Republic, and Bosnia, countries that have had 
experience with these kinds of property restitution problems in 
the past, and they will come up with some recommendations of 
how we can address those problems by legal means and discourage 
the use of force.
    Finally, if you would indulge me, Mr. Chairman, I would 
like to give a little detail about what I think is potentially 
a very important success story in the somewhat smaller city, 
although it is still a city of half a million, called Karbala. 
Karbala's significance far exceeds its size, because as one of 
the two holy cities of Shia Islam, it has enormous potential to 
point the direction for Iraqi society, or at least for the Shia 
segment of Iraqi society.
    There, the 3rd Battalion of the 7th Marines has worked 
effectively with local officials to create what are reportedly 
excellent conditions of law and order in that town. A political 
officer from our embassy in Kuwait visited Karbala recently and 
he reported that, and I quote, ``with support from U.S. 
military forces, moderate reformers are engaged in an audacious 
experiment aimed at building democratic rule in one of Shiism's 
two holiest cities.''
    In cooperation with civil affairs teams from 3rd Battalion, 
7th Marines, they have achieved notable successes, and that 
report goes on to note that the infrastructure in Karbala is 
largely functioning. Electricity service has returned to pre-
war levels and almost all homes have running water. The three 
local hospitals are open, although they admittedly lack basic 
medicines. U.S. Marine engineers are repairing local schools, 
hospitals, and the water plant.
    Most significantly, in addition to fostering the 
reestablishment of basic public service, and this, I think, is 
particularly important, the Marines have supported the 
emergence of a functional, competent provisional government in 
Karbala Province that advocates--remember, this is in the heart 
of Shia Iraq--that advocates a secular democratic future for 
that country.
    Significantly, the leadership of this new secular and 
democratic local government is a religious figure, Sheikh Ali 
Abdel Hassan Kamuna. He is not only a Said, which means a 
descendant of the Prophet Mohammed, and a member of a prominent 
local tribal clan, but, apparently no contradiction, he is also 
a member of the secular intelligentsia.
    The council elites contain other senior tribal figures, 
including five other Saids, but also representatives of the 
secular intelligentsia and business world, including a 
university professor, a civil engineer, a merchant, a retired 
army colonel, several lawyers, sociologists, and 
ophthalmologists. I am going to ask if there are any women 
among them, because that would be a good sign of progress, but 
I think that is pretty impressive by itself. The religious 
intelligentsia is represented by a sheikh who endured 12 years 
in Saddam's prisons for his part in the 1991 uprisings.
    The fact that a new day has dawned in Iraq was nowhere so 
evident as in the recent Arbayeen pilgrimage in the cities of 
Karbala and Najaf. For the first time in 26 years, more than a 
million Shia pilgrims walked to their holy cities without fear 
and without violence.
    In judging the success or failure of the military plan for 
dealing with the aftermath of the collapse of the regime, one 
cannot judge it against the standard of unachievable 
perfection. There is no plan that could have achieved all of 
the extraordinary speed of this one, and at the same time been 
able to flood the country with military policemen. Choices had 
to be made. I think we made the choices, the right choices, 
choices that saved both American and Iraqi lives and prevented 
damage to the environment and to the resources of the Iraqi 
people.
    Let me just say a little bit about those plans. Starting in 
January of this year we recruited Jay Garner to stand up the 
Office for Reconstruction and Humanitarian Assistance. To my 
knowledge, this is the first time we have created an office for 
post-war administration before a conflict had even started. It 
was obviously a sensitive matter because we did not want to do 
anything that would undercut the efforts to reach a diplomatic 
resolution of the crisis presented by Iraq's defiance of U.N. 
Resolution 1441. For that reason also, we did not brief key 
Members of Congress perhaps in as much detail as we would have 
liked.
    We should certainly have ensured that Jay Garner briefed 
you before he left for the theater. We will work hard to do our 
best to remedy those errors, including arranging secure video 
teleconferences with Envoy Bremer and Mr. Garner as 
appropriate. Having said that, let me also say we picked Jay 
Garner because he had demonstrated at other times in his 
career, most significantly when he was a commander in the 
extraordinarily successful operation in Northern Iraq in 1991, 
a capacity for putting organizations together quickly and 
energizing them and focusing them on getting practical tasks 
accomplished.
    Fortunately, as I noted earlier, a great deal of our pre-
war planning turned out not to be needed, because there were no 
massive food shortages, there was no massive destruction of oil 
wells or gas platforms, and I believe in large measure that is 
attributable to the success of the military plan. I would like 
to briefly mention some of the features of that plan that I 
think contributed to that success.
    At the heart of the military plan was the imperative to 
defeat Iraq's major combat forces. The emphasis was on speed. 
We consciously chose to keep our force size relatively small, 
limiting the amount of people and materiel deployed on the 
initial thrust into Iraq. This plan gave great flexibility. 
Those forces quickly plunged deep into Iraq, bypassing a good 
portion of the country in their push to Baghdad. We recognized 
that was a choice, and that we would be leaving problems in our 
rear.
    Despite the fact that Saddam's regime had strategic warning 
of an impending attack, because of our speed, coalition forces 
were able to achieve substantial tactical surprise. In short, 
we began the war with a timetable the regime did not expect, 
and we combined it with a speed that made it difficult for the 
regime to react and regroup. The enemy was never able to mount 
a coherent defense, nor was it able to blow up dams, bridges, 
and critical infrastructure or use weapons of mass terror, 
perhaps because it was caught so completely off-guard.
    As a result, in less than 3 weeks we were in Baghdad, and 
with the toppling of Saddam's statue, history's annals tallied 
another victory for freedom akin to the fall of the Berlin Wall 
or the liberation of Paris.
    Our plan worked even better than we could have hoped. For 
example, in Baghdad we tried a few armored raids to probe and 
shock the Iraqi Army. We had not expected to see resistance 
collapse completely as a result, but when those armored raids 
actually caused the collapse of Iraqi resistance, we 
capitalized on our success and moved into the heart of Baghdad, 
a decision that testifies to the flexibility of the war plan as 
well as its speed.
    Mr. Chairman, not only did this plan achieve its military 
objectives, this plan saved lives, American lives and Iraqi 
lives. The unprecedented use of precision not only destroyed 
the intended military targets, but protected innocent lives and 
key infrastructure, and the Iraqi people stayed home. They 
understood our military actions were directed against Saddam 
and his regime, not against them.
    As a result, there is a list of crises we have averted, 
successes that are measured as much by what did not happen as 
what did. There is no food crisis in Iraq. There have been no 
major epidemics. There was not the refugee crisis that many 
predicted would destabilize the region. There was no wholesale 
destruction of oil wells or other critical infrastructure after 
the war began, and the regime did not use weapons of mass 
destruction.
    Mr. Chairman, let me say a few words about costs, or more 
importantly about how we are going to pay for them. The costs 
of reconstruction are difficult to estimate, since many of the 
problems we face resulted from decades of neglect and 
corruption, but there are a number of funding sources that can 
help Iraq. First, there is $1.7 billion in formerly frozen 
Iraqi Government assets in the United States that the U.S. 
Government vested by Presidential order. Second, there is about 
$700 million, and the number grows almost daily, in State- or 
regime-owned cash that has so far been seized and brought under 
our control and is available to be used for the benefit of the 
Iraqi people. Third, once Iraqi oil exports resume, and with 
the passage of the U.N. Security Council resolution today, they 
can resume immediately, the proceeds from those sales will be 
devoted entirely to the benefit of the Iraqi people, except for 
a 5 percent fund that the U.N. is setting aside for reparations 
from past conflicts.
    Under the terms of the recently passed U.N. Security 
Council resolution, assets from two additional sources would be 
placed in the Iraqi Assistance Fund, and there have been public 
pledges from the international community of more than $600 
million under the U.N. appeal and nearly $1.3 billion in other 
offers of assistance for the food, health, agriculture, and 
security sectors. Indeed, I believe the passage of the 
resolution today is an important watershed in making it 
possible to get contributions on both military assistance for 
stability operations and on the nonmilitary side for 
reconstruction from many countries around the world.
    Mr. Chairman, just a few words about the political side, 
which in the long run will turn out to be the most important, 
although it is not at the moment our most urgent task, but we 
continue to work toward the establishment of an Iraqi interim 
administration [IIA] which will assume increasingly greater 
responsibility for the administration of Iraq.
    The IIA will draw from all of Iraq's religious and ethnic 
groups and provide a way for Iraqis to begin to direct the 
economic and political reconstruction of their country, but the 
interim administration's most important responsibility will be 
to set in motion a process leading to the creation of a new 
Iraqi Government, for example by setting up local elections, 
drafting a new constitution and new laws. This is a process 
that foreigners cannot direct. It must be a process owned by 
Iraqis.
    In the final phase of our plan, an Iraqi Government would 
assume full sovereignty on the basis of elections in accordance 
with a new constitution. Our intention is to leave Iraq in the 
hands of Iraqis themselves, and to do so as soon as we can. As 
President Bush has said, the United States intends to stay in 
Iraq as long as necessary, but not a day longer. To those who 
fear that Baathists and Iranians may intervene when we have 
left, our message is simple. While we intend to withdraw as 
rapidly as possible from Iraqi political life and day-to-day 
decisions, we will remain there as an essential security force 
for as long as we are needed.
    I would also caution that this process will take time, and 
it is necessary to get it right. Mr. Chairman, currently 24 
coalition countries are providing military support, some of 
that publicly, some of it is still private. Thirty-eight 
nations have offered financial assistance, totaling now $1.8 
billion, and very importantly, a number of countries have made 
commitments to providing brigade-size and larger forces for the 
stability operation once the U.N. Security Council resolution 
has passed, as has just happened.
    I would just like, before I conclude, to note that there 
have been some very significant successes already as a result 
of the efforts of ORHA and our pre-war planning. Some Iraqis 
today have more electric service than the past 12 years. For 
the first time since 1991, the people in Basrah have 
electricity 24 hours a day. When the national grid backbone is 
operational later this month, Baghdad will be able to receive 
excess power from the north and the south, and with the removal 
of U.N. sanctions and the ability to start exporting, we will 
now be able to use Iraqi natural gas to produce another 700 
megawatts of power.
    Primary schools throughout Iraq opened on May 4. Jay Garner 
is hopeful that secondary schools and universities will open 
soon. We have started emergency payments to civil servants, to 
more than a million of them. Privately hired stevedores have 
begun offloading operations and put rice directly on trucks. 
Currently over 1,500 tons per day are offloaded, and I could go 
on with more and more. A great deal is happening. More is 
happening every day.
    Let me just conclude by mentioning the important subject of 
the energy infrastructure. Obviously, one of the keys to 
getting Iraq up and running as a country is to restore its 
primary source of revenue, its oil infrastructure. As with many 
other facets of life in Iraq, this infrastructure had been 
allowed to decay to a surprising degree. Fortunately, we 
averted the destruction of almost all of the Iraqi oil wells, 
and a great deal of repair work is underway to ensure that 
operations can safely resume.
    While the coalition will be involved at the outset, the 
goal is to have production and marketing responsibility in the 
hands of a stable Iraqi authority as soon as possible. The 
lifting of the U.N. sanctions, which is something we have been 
working hard to achieve, the lifting of those sanctions today 
not only represents an opportunity for Iraq to start earning 
the oil revenues that can help rebuild that country, it also 
allows us to relieve shortages of gasoline and cooking fuel, 
since the absence of any available storage capacity had meant 
the refineries could no longer operate.
    Mr. Chairman, let me close by thanking you for holding this 
hearing and thanking all the Members of Congress for the 
outstanding bipartisan support that we have had since the 
beginning of this war, indeed since the beginning of the war on 
terror. As I noted in my statement, we are still fighting at 
the same time that we are trying to win the peace, and as you 
noted in your article today, transforming Iraq will not be 
quick or easy. Our victory will be based, as you put it so 
well, on the kind of country we leave behind.
    The stakes for our country and the world are enormous, and 
the continued commitment of Congress and the American people is 
essential. I appeal to you and your colleagues for your 
continued support and your leadership in this historic effort.
    Thank you, Mr. Chairman.
    [The prepared statements of Deputy Secretary Wolfowitz and 
General Pace follow:]

 Prepared Statement of Hon. Paul Wolfowitz, Deputy Secretary of Defense

    Mr. Chairman and Members of the Committee: Your example 
consistently demonstrates that America's security concerns transcend 
party or politics. On behalf of the men and women who serve our country 
so faithfully and so well, we are indeed grateful for your support. I 
appreciate the opportunity to discuss with you today the Defense 
Department's perspective on stabilization and reconstruction efforts in 
Iraq.
   our imperative--winning the peace in iraq: the stakes are enormous
    Just as the Department was committed to getting right the plan for 
military operations in Iraq, we are equally committed to getting right 
the process of helping Iraqis establish an Iraq that is whole, free, 
and at peace with itself and its neighbors. We are committed to helping 
Iraqis build what could be a model for the Middle East--a government 
that protects the rights of its citizens, that represents all ethnic 
and religious groups, and that will help bring Iraq into the 
international community of peace-seeking nations. Now that this goal is 
within sight, Iraq represents one of the first and best opportunities 
to build what President Bush has referred to as a ``just and peaceful 
world beyond the war on terror.''
    Saddam Hussein was a danger to his people and a support to 
terrorists and an encouragement to terrorist regimes. His removal from 
power opens opportunities to strengthen governments and institutions in 
the Muslim world that respect fundamental human dignity and protect 
freedom, and that abhor the killing of innocents as an instrument of 
national policy. Success in Iraq will continue to demoralize those who 
preach doctrines of hatred and oppression and subjugation. It will 
encourage those who dream the ancient dream of freedom. In the last 
half century, those ideals of freedom and self-government have been the 
most powerful engines of change in the world. They give us hope for 
further development in the Muslim world, a development that will 
benefit every nation throughout the world and bring us important allies 
in the war against terrorism.
    We cannot afford to fail. We cannot afford to allow Iraq to revert 
to the remnants of the Baathist regime that now range throughout Iraq 
in their desperate bid for influence and power--or, to see it 
vulnerable to other extremist elements. As the distinguished Chairman 
said as recently as Sunday at Notre Dame, ``Iraq must not become a 
failed state and a potential incubator for terrorist cells.'' We cannot 
and we will not allow such a threat to rise again--nor can we dash the 
hopes of the Iraqi people. Make no mistake: recent efforts to 
destabilize Iraq represent the death rattle of a dying regime. We can 
defeat them. And we will. As Presidential Envoy Paul Bremer has told 
me, ``If the Baathists have any staying power, let there be no doubt--
we have more.'' We will not stop our efforts until that regime is dead.
    Rebuilding Iraq will require similar time and commitment. Mr. 
Chairman, I've just returned from a visit to Bosnia and Kosovo, where 
my main purpose was to thank our American troops for their dedication 
and commitment and to assure the authorities in the region that the 
United States will see our tasks through to completion. To those who 
question American resolve and determination, I would remind them that 
we are still playing our crucial role in Bosnia eight years after the 
Dayton Accord, long after some predicted we would be gone, and we 
continue to be the key to stability in Kosovo and even in Macedonia.
    The stakes in Iraq are even greater than in the Balkans. But if the 
stakes are huge in Iraq, there is no question that our commitment to 
secure a peaceful Iraq is at least equal to the stakes. Mr. Chairman, I 
have noted with strong agreement your statements about the need for 
America to stay the course in Iraq. I applaud your determination and 
appreciate your support and the support of this Committee in helping 
the American people understand the stakes that we have in success.
    Mr. Chairman, today marks only day 67 since the start of major 
combat operations in Iraq. It is only three weeks since President Bush 
announced the end of major combat operations, and, as I will explain at 
greater length later, smaller combat operations in Iraq still continue. 
Even though the war has not completely ended, we are already started on 
the process of rebuilding Iraq. Several months before the war even 
began, we established the Office of Reconstruction and Humanitarian 
Assistance in order to be able to address that task.
    As the title of the office implies, much of its early focus was on 
planning for two disasters that fortunately did not happen: First, to 
provide humanitarian assistance to a war-ravaged population, including 
the possible victims of large-scale urban fighting, and secondly, to 
halt the environmental damage that was anticipated from large-scale 
torching of the Iraqi oil fields and to begin the reconstruction of 
that vital national asset. Thanks to the speedy success of the military 
operation, the task we face has turned out to be very different. There 
is no humanitarian crisis in Iraq.
    The humanitarian problems of war have been largely avoided, in no 
small measure because of the speed with which the campaign was carried 
out. However, a great deal of other work remains to be done, most of it 
anticipated in ORHA's planning and staffing, work such as restoring 
rapidly the functioning of the electric power in Iraq and restoring 
essential medical services. Most of these problems are not primarily a 
result of the war, but rather the result of decades of tyrannical 
neglect, where the wealth and treasure of the country was poured into 
creating palaces, building tanks and procuring weapons of mass 
destruction, instead of caring for the Iraqi people. That damage has 
been compounded by widespread looting in the aftermath of the Saddam 
regime, some of it clearly conducted by surviving elements of the 
regime themselves. The task before us is more about construction than 
reconstruction--the building of a society that was allowed to rot from 
within for more than three decades by one of the world's worst tyrants. 
The good news in all of this is that the Iraqi people will be able to 
notice improvements in their normal lives long before we have reached 
the full potential of this country--one of the most important in the 
Arab world.
    The level of pre-war neglect and repression was as widespread and 
as systematic as Saddam's methods of terror. As the uncovering of mass 
graves is revealing to a world that should have known before, tens of 
thousands of Iraqis have been brutally executed by Saddam's regime. 
Families, businesses and even cultures were destroyed, as we saw in 
Saddam's brutal attempt to wipe out the Marsh Arabs, an ancient people 
with a remarkable culture in southern Iraq. The latter also represents 
a horrific act of ecological terrorism, which others are left to fix. 
The following list suggests the widespread neglect of what we consider 
basic services, but for Saddam many were used as instruments of 
control.
    Before the war:

  <bullet> Large numbers of Iraq's children under five years old 
        suffered from malnutrition;

  <bullet> Only 60% of the Iraqi people had access to safe drinking 
        water;

  <bullet> 10 of Basrah's 21 potable water treatment facilities were 
        not functional;

  <bullet> 70% of Iraq's sewage treatment plants needed repair. 
        According to UNICEF reports, some 500,000 metric tons of raw or 
        partially treated sewage was dumped into the Tigris or 
        Euphrates rivers, which are Iraq's main source of water;

  <bullet> 80% of Iraq's 25,000 schools were in poor condition; in some 
        cases, as many as 180 students occupied one classroom--with an 
        average of one book per six students--while at the same time 
        every one of the first 100 or so schools we inspected in 
        Southern Iraq had been used as military command posts and arms 
        storage sites;

  <bullet> Iraq's electrical power system operated at half its 
        capacity;

  <bullet> Iraq's agriculture production had dropped significantly;

  <bullet> Iraq's oil infrastructure was neglected.

    Obviously, it will take time to reverse the effects of persistent, 
systematic neglect. But, if the task is enormous, even at this very 
early stage, there are many reasons for optimism. Deputy Commander of 
Central Command, LTG John Abizaid, who also commanded U.S. peacekeeping 
troops in Bosnia and in Kosovo, reported after a recent visit to 
Baghdad that we are already much further along in Iraq than we were in 
either of those two places at a comparable stage. Despite claims that 
there were no plans for peace operations in the wake of military 
operations, Presidential Envoy Bremer and Jay Garner are implementing 
plans drawn up long before the war to strengthen and rebuild Iraq. 
Assertions that we are already failing--reminiscent of similar 
assertions that the military plan had taken us into a quagmire just one 
week into the campaign--reflect both an incomplete understanding of the 
situation as it existed in Iraq before the war and an unreasonable 
expectation of where we should be now.
    The situation in Iraq right now is difficult--it's very difficult. 
But, it was even more difficult a couple weeks ago, and worse yet a 
couple months before that. We continue to make progress in what was 
expected to be an extremely difficult situation. As press accounts 
continue to report what is wrong, I would say, we don't want less of 
these reports, we want more--because we are eager to see revelations in 
the press about what needs our attention. And we're interested in the 
opinions of a people who are newly free. If the situation in Iraq is 
somewhat messy now, it's likely to seem even messier as Iraqis sort out 
their political process. But, that is part of self-determination. We 
expected this period of uncertainty and our plans anticipated it.
    However, there is also a great deal of good news, and it is 
important to report that also. I will be discussing some of it later in 
my statement, but first let me address what is unquestionably our most 
immediate challenge, and that is establishing secure and stable 
conditions throughout the country.

                    SECURITY IS PRIORITY NUMBER ONE

    Our most urgent task in the post-Saddam Hussein era is to establish 
secure and stable conditions throughout the country. Secretary Rumsfeld 
reiterated recently, ``security remains the number one priority in 
Iraq'' precisely because security and stability are a fundamental 
prerequisite for everything else we need to accomplish in Iraq--to 
provide the basics of normal life and services, and beyond that, to 
create a climate where people can express political views in an 
atmosphere free of fear and intimidation, something that Iraqis have 
been unable to do for decades.
    Much of what I read on this subject suggests a fundamental 
misunderstanding about the nature of the security problem in Iraq, and 
in particular, a failure to appreciate that a regime which had tens of 
thousands of thugs and war criminals on its payroll does not disappear 
overnight. The people who have created the mass graves that are now 
being uncovered in Iraq represent a threat to stability that was not 
eliminated merely when the statues came tumbling down in Baghdad. I 
have read recently that unnamed officials and experts say that the 
Pentagon ignored lessons from a decade of peacekeeping operations in 
Haiti, Somalia, the Balkans and Afghanistan. It seems to me that those 
speaking anonymously ignore the difference between normal peacekeeping 
operations and the kind of situation that we are now in.
    In just the last 24 hours alone, in Baghdad the 3rd Infantry 
Division raided a Baath Party meeting and detained 9 Baathists. In 
Fallujah, which continues to be a hotbed of Baathist activity, some of 
it with connections to foreign extremists, an Iraqi vehicle attacked a 
checkpoint of the Third Armored Cavalry Regiment and two enemy were 
killed and one detained. In the same area, three Iraqi snipers engaged 
U.S. troops and, in a third incident, a Bradley was disabled by an 
rocket propelled grenade fired from a mosque. In Baqubah, again in just 
the last 24 hours, the 4th Infantry Division conducted a raid and 
captured seven Iraqis and seized 15 million dinars. In Al Kut, a patrol 
of the 1st Marine Division engaged 20 enemy, killed two, wounded one, 
and captured 11. There were no U.S. casualties in any of these 
incidents, but they illustrate the level of continued hostile activity, 
much of it apparently associated with elements of the old regime.
    In short, while major combat operations have ended, American 
soldiers continue to be shot at almost daily. While we made substantial 
progress in catching the people on the black list, there is still 
additional work that needs to be done. We face in Iraq a situation 
where a substantially defeated enemy is still working hard to kill 
Americans and Iraqis who are trying to build a new and free Iraq in 
order to prevent Iraqi society from stabilizing and recovering. Bizarre 
as it may sound, their goal is to create nostalgia for Saddam Hussein. 
We cannot allow them to succeed. We need to recognize that this is 
completely different from Haiti, Bosnia or Kosovo, where opposition 
ceased very soon after peacekeeping troops arrived in force.
    In those situations, we could successfully adopt a strategy that 
emphasized the intimidating effect of presence, rather than active 
combat operations. Indeed, the strategy in both those places was to 
minimize the extent to which we got involved in direct confrontation 
with any of the local forces. We do not have the choice in Iraq of 
avoiding confrontation with the repressive elements of the old regime. 
We have to eliminate them, root and branch. We will do so, but it will 
take time.
    It's perhaps worth noting that the striking exception in that list 
of peacekeeping operations is the case of Somalia, where we, in fact, 
encountered the enormous difficulties of taking on armed elements 
without adequate force and preparation. This task requires more than 
just military policemen. There is a very difficult balance to be 
struck, particularly in Baghdad, between providing ordinary civil order 
forces on the streets--which we are doing--and being prepared to deal 
with snipers and armed bands. CENTCOM is making that transition. There 
are now 45,000 Coalition military personnel in the Baghdad area, 
approximately 21,000 of whom are actively involved in security 
operations. In just the last 24 hours alone, the 3rd Infantry Division 
has conducted nearly 600 patrols, secured 202 fixed sites, and manned 
85 checkpoints. The total number of patrolling battalions in Baghdad 
has increased in just the last 24 hours from 22 to 29. Again, General 
Abizaid reports from his recent visit that we are already seeing much 
more commerce, many more people on the street, and much shorter gas 
lines. In Sadr City--the notorious Shi'a slum in Baghdad that used to 
be known as Saddam City--the people are already reporting that their 
conditions are better than before the war. General Pace will be able to 
comment on that in more detail.
    We are making progress. In my most recent conversation with 
Presidential Envoy Bremer, he reports that, while the security 
situation is serious--and still imposes severe restrictions on our 
ability to move freely--Baghdad is not a city in anarchy--shops are 
open and the city is bustling with traffic. Let me offer some details 
about our progress in achieving law and order: In Baghdad, some 7,000 
Iraqi police are on duty, and reports of looting, curfew violations and 
gunfire are decreasing. However, one of our principal challenges is 
that the old Iraqi police are much less unable than we had planned. 
Their leadership was corrupted by the old regime and they were trained 
to raid people's homes at night rather than conduct street patrols.
    It is also important to distinguish the security situation in 
different parts of the country. Most of the attention, appropriately, 
is on Baghdad, and there is no question that Baghdad is one of the keys 
to the future of the country. We would make a mistake if we saw it as 
the only one and overemphasized the importance of the capital. For 
example, the second largest city in the south, Basrah, with a 
population of almost 1.3 million people, most of them Shi'a and 
overwhelmingly grateful to be free of Saddam's tyranny, is now stable.
    In Nasiriyah, local police are now armed and the force has grown 
from 350 to over 600. In Diwaniya, 277 Iraqi police officers have been 
hired, and the coalition is installing two ``911'' emergency phone 
lines. A USAID DART team (Disaster Assistance Response Team) recently 
visited Karbala and according to their recent cable, the ``city is in 
the safe hands of the U.S. Marines . . . who have succeeded in 
establishing a largely stable and secure environment.'' This is 
obviously a good news story, and we're working to replicate it 
throughout the country.
    Perhaps the single most important factor in achieving a more secure 
environment is the active engagement and support of the people of Iraq. 
Members of local populations continue to come forward and provide 
information about subversive activities and weapons caches.
    It is also important to recognize that the situation we face is in 
no small measure a result of the success of our military plan, which I 
will discuss in more detail, and the speed with which we were able to 
collapse the main structures of the regime.
    In Northern Iraq, including the two large cities of Mosul and 
Kirkuk, with a combined population of more than 2.5 million, Major 
General Dave Petraeus and the 101st Air Assault Division have been 
largely successful in creating a stable situation. There remain some 
problems, most significantly those arising out of the property disputes 
created by Saddam's policy of Arabization--a kind of slow-motion ethnic 
cleansing--but we are taking measures to address that. We have already 
sent a study team led by former U.S. Ambassador to Iraq William 
Eagleton and including some distinguished experts from Poland, the 
Czech Republic, and Bosnia, which have had experience with these kinds 
of problems in the past--to come up with some recommendations about how 
these problems can be solved by peaceful legal means and discourage the 
use of force. It also remains the case that there still appear to be 
some active organized cells of old regime elements in those cities that 
are still working to attack us and defeat the coalition effort.
    Finally, I would note a possibly very significant success story in 
the relatively smaller city of Karbala (population 500,000), whose 
significance far exceeds its size. As one of the two holy cities of 
Shi'a Islam, it has enormous potential for pointing the direction for 
Iraqi society. There, as already noted, the 3rd Battalion of the 7th 
Marines has worked effectively with local officials to create what are 
reportedly excellent conditions of law and order in this key town. A 
political officer from our Embassy in Kuwait visited Karbala recently 
and reported that, ``With support from U.S. military forces, moderate 
reformers are engaged in audacious experiment aimed at building 
democratic rule in one of Shi'ism's two holiest cities. In cooperation 
with Civil Affairs Teams from 3rd Battalion, 7th Marines, they have 
achieved notable successes.'' Karbala's infrastructure is largely 
functioning, although problems remain. Electricity service has returned 
to pre-war levels, and almost all homes have running water. The three 
local hospitals are open, though they lack many basic medicines and 
supplies. Marine engineers are busy repairing local schools, hospitals, 
and the water plant. The local television station is privately owned 
and relatively unbiased.
    Most significantly, in addition to fostering the reestablishment of 
basic public services, the Marines have supported the emergence of a 
functional, competent provisional government in Karbala Province that 
advocates a secular democratic future for Iraq. Significantly, the 
leadership of this new secular and democratic local government is a 
religious figure, Shaykh Ali Abdal Hassan Kamuna. He is not only a Said 
or descendant of the Prophet Mohammed and the member of a prominent 
local tribal clan, but he is also a member of the local secular 
intelligentsia. The council elites contains other senior tribal 
figures, but also five other Saids and representatives of the secular 
intelligentsia and business world, including a university professor, 
civil engineer, a merchant, a retired army colonel, several lawyers, 
sociologists and an ophthalmologist. Religious intelligentsia is 
represented by a shaykh who endured 12 years in Saddam's prisons for 
his part in the 1991 Shi'a uprising.
    The fact that a new day has dawned in Iraq was nowhere so evident 
as the recent Shia pilgrimage in the city of Karbala. For the first 
time since Saddam's regime, more than a million Shia pilgrims walked to 
that holy city without fear and without violence, something that had 
been illegal for twenty-six years.
    It is worth noting the surviving elements of the Baathist regime 
target not only our troops but also aim at destabilizing Iraqi society. 
There are indications that some of the most serious looting that is 
continuing should more accurately be described as acts of sabotage. 
They seem specifically targeted at making it more difficult to repair 
those facilities such as power plants that are critical to restoring 
some of the basic functioning of society.
    In judging the success or failure of the military plan for dealing 
with the aftermath of the collapse of the regime, one cannot judge it 
against a standard of unachievable perfection. There is no plan that 
could have achieved all the extraordinary speed of the plan and, at the 
same time, have been able to flood the country with 100,000 military 
policemen. Choices had to be made. I think that we made choices that 
saved both American and Iraqi lives, and prevented damage to the 
environment and to the resources of the Iraqi people.
    It's also worth pausing for a moment to think about the alternative 
if we had simply waited for another decade or two until this regime 
collapsed. Setting aside the horrors the Iraqi people would have 
suffered in that time and the threat that it would have presented to us 
and our friends in the region, the eventual collapse of the Saddam 
regime would almost certainly have created a situation of some anarchy. 
The difference in what has happened is not only that we ended that 
threat and that horror sooner rather than later, but we are now in a 
position, working with our coalition partners and with the Iraqi 
people, to restore security and stability much faster and more 
thoroughly than would have happened in our absence.

                        PLANNING TO GET IT RIGHT

    Starting in January of this year, we recruited Jay Garner to stand 
up the Office for Reconstruction and Humanitarian Assistance, the first 
time, to my knowledge, that we have created an office for post-war 
administration before a conflict even started. It was obviously a 
sensitive matter, because we did not want to do anything that would 
undercut the efforts to achieve a diplomatic resolution of the crisis 
presented by Iraq's defiance of UN Security Council Resolution 1441. 
For that reason also, we did not brief key Members of Congress in as 
much detail as we would have liked. We should have ensured that Jay 
Garner had the opportunity to brief you before he left for the theater. 
We will work hard to do our best to remedy that situation, including 
arranging secure video-teleconferences with Presidential Envoy Bremer 
and Mr. Garner, as appropriate.
    Having said that, let me also say that we picked Jay Garner because 
he had demonstrated at other times in his career, and most 
significantly when he was a commander in the extraordinarily successful 
Operation Provide Comfort in Northern Iraq in 1991, a capacity for 
putting organizations together quickly and energizing them and focusing 
on getting practical tasks accomplished. The magnitude of his efforts 
goes under appreciated, in part because so much of his energy was 
appropriately focused on preparations to handle large numbers of 
refugees and to put out extensive oil well fires--neither of which, 
fortunately, happened, in no small measure because of the speedy 
success of the military plan to which I have now referred several 
times. It is ironic, in fact, that we seem to be criticized not only 
for lack of planning but also for too much planning when people 
complain that we contracted with some corporations--to be able to take 
on these tasks quickly.
    Let me give you further insight into the extent of our planning. An 
interagency Political Military Cell was formed in July of 2002; an 
Executive Steering Group was formed just a month later. We began 
planning efforts for Humanitarian and Reconstruction issues in the fall 
of 2002.
    This planning provided the basis for the creation of the Office of 
Reconstruction and Humanitarian Assistance, which formally came into 
existence this past January.
    Fortunately, a great deal of that planning turned out not to be 
needed. And that is, in some measure, because of the military plan. 
Allow me to briefly discuss the basis for CENTCOM's plan, and then I 
will address some of the crises that were averted precisely because of 
that plan.
    Military plan: At the heart of the military plan was the imperative 
to defeat Iraq's major combat forces. The emphasis was on speed. We 
consciously chose to keep our force size relatively small, but packing 
a powerful punch, limiting the amount of people and materiel deployed 
on the initial thrust into Iraq. This plan gave great flexibility. 
These forces quickly plunged deep into Iraq, bypassing a good portion 
of the country in their push to Baghdad. Despite the fact that Saddam's 
regime had strategic warning of an impending attack, because of this 
swift attack, coalition forces were able to achieve tactical surprise. 
Beginning the ground war before the major air campaign was another 
surprise for the Iraqis, since it broke with the expected model of 
Operation Desert Storm.
    In short, we began the war with a timetable the regime did not 
expect and we combined it with a speed that made it difficult for the 
regime to react and regroup. The enemy was never able to mount a 
coherent defense; nor was it able to blow up dams, bridges and critical 
infrastructure--or use weapons of mass terror--perhaps because it was 
caught so completely off guard.
    In less than three weeks, we were in Baghdad, and, with the 
toppling of Saddam's statue, history's annals tallied another victory 
for freedom akin to the fall of the Wall in Berlin or the liberation of 
Paris. Our plan worked even better than we could have hoped. For 
example, in Baghdad we tried a few armored raids to probe and to shock 
the Iraqi Army. We hadn't expected to see resistance collapse in 
Baghdad completely as a result. When these armored raids actually 
caused the collapse of Iraqi resistance--before the larger force that 
was planned for could arrive--we capitalized on our success, and moved 
into the heart of Baghdad--a decision that testifies to the flexibility 
of the war plan as well as to its speed.
    Not only did this plan achieve its military objectives, this plan 
saved lives--American lives and Iraqi lives. The unprecedented use of 
precision not only destroyed the intended military targets, but 
protected innocent lives and key infrastructure. And as a result, the 
Iraqi people stayed home; they understood military actions were 
directed against Saddam and his regime--not against them.
    Crises averted: We can also judge the success of the military 
operation in Iraq as much by what didn't happen as by what did:

  <bullet> There is no food crisis in Iraq. Fortunately, we did not 
        need all the humanitarian assistance stocks we had planned for. 
        . . . The coalition is working closely with the World Food 
        Program to reestablish food distribution throughout Iraq.

  <bullet> There have been no major epidemics. The Office of 
        Reconstruction and Humanitarian Assistance is working to 
        reestablish a Ministry of Health, and we have seen active 
        cooperation among ORHA, the World Health Organization and the 
        emerging Iraqi Ministry of Health.

  <bullet> There was no refugee crisis that many predicted would 
        destabilize the region. Due to the accuracy of the military 
        campaign, residents felt safe enough to stay in their homes, 
        contrary to many pre-war forecasts. Those who fled from Saddam 
        Hussein moved in with friends and relatives in secure areas.

  <bullet> There was no wholesale destruction of oil wells or other 
        critical infrastructure after the war began. Efforts are 
        underway to restore oil production as quickly as possible to 
        provide the Iraqi people with their primary source of revenue.

  <bullet> The regime did not use weapons of mass destruction.

    As we continue to study Operation Iraqi Freedom, we will note other 
important lessons. Above all, we can be confident that a remarkable 
plan combined with the bravery and skill of American Armed Forces 
contributed in very great measure to its overall success.
    The costs of reconstruction in Iraq are difficult to estimate since 
many of the problems we face resulted from decades of the regime 
corruption, mismanagement and tyranny. Damage due to the war was 
relatively small-scale. There are a number of funding sources that can 
help Iraq.
    First, there is $1.7 billion in formerly frozen Iraqi government 
assets in the U.S. that the U.S. Government vested by Presidential 
order. Second, about $700 million in state or regime owned cash has so 
far been seized and brought under U.S. control in accordance with the 
laws of war, available to be used for the benefit of the Iraqi people.
    Third, once Iraqi oil exports resume, those proceeds will be 
available for the benefit of the Iraqi people.
    Under the terms of the proposed UN Security Council resolution, 
assets from two additional sources would be placed in the Iraqi 
Assistance Fund. Other countries are called to place in the Fund any 
Iraqi government assets, or assets that have been removed from Iraq by 
Saddam Hussein or other senior officials of the former regime, held in 
their countries. And the remaining balance in the UN's ``Oil For Food'' 
escrow account is to be turned over to the Fund.
    There have been public pledges from the international community of 
more than $600 million under the UN appeal and nearly $1.3 billion in 
other offers of assistance for the food, health, agriculture, and 
security sectors. We anticipate other contributions as well, including 
troop contributions to create Multi-National Divisions of peacekeeping 
troops.
    Finally, Congress has appropriated approximately $2.5 billion for 
reconstruction efforts. There are also additional authorities that we 
can draw from if needed, such as the Natural Resources Risk Remediation 
Fund, which can be used for repairing damage to the oil facilities in 
Iraq.

                          POLITICAL SITUATION

    As I mentioned earlier, in the city of Karbala, because the 
presence of U.S. Marines has supported the emergence of a functional, 
competent provisional government in Karbala province that advocates a 
secular, democratic future for Iraq. That's goodnews--an indication, we 
hope, of more to come.
    If such a sign at the local level is positive, there is cause for 
optimism on a national level as well. There has already been an 
acceptance of the idea of a unified Iraq among all Iraqis' Kurds, 
Arabs, Sunni and Shi'a and members of smaller minorities.
    With Presidential Envoy Bremer's order last Friday that banned 
senior members of the Baath Party from positions of authority in Iraq, 
the people of Iraq can be assured that their way forward will not be 
blocked by remnants of the regime that terrorized them for decades. 
Baathist remnants and Iranian-oriented theocratic groups constitute, at 
present, our main concerns with respect to the political reconstruction 
of Iraq. To deal with these concerns, we must encourage the rest of the 
Iraqi population to become more politically active and organized. We 
are confident that neither group constitutes a large segment of Iraqi 
society--they may have a temporary advantage due to their greater 
degree of organization, but they can be marginalized as wider and wider 
swathes of Iraqi society become involved in the country's political 
life.
    Iraqi Interim Administration: We continue work towards the 
establishment of an Iraqi Interim Administration, which will assume 
increasingly greater responsibility for the administration of Iraq. The 
IIA will draw from all of Iraq's religious and ethnic groups and will 
provide a way for Iraqis to begin immediately to direct the economic 
and political reconstruction of their country.
    Over time, the ILA will take control of an increasing number of 
administrative functions. But the Interim Administration's most 
important responsibility will be to set in motion the process leading 
to the creation of a new Iraqi government, for example, by setting up 
local elections, drafting a new constitution and new laws. This is a 
process that foreigners cannot direct; it must be a process owned by 
Iraqis. Our task is to create the conditions in which they can 
formulate a process and then pick their leaders freely. An Interim 
Administration would be a bridge from the initial administration of 
basic services to an eventual government that represents the Iraqi 
people.
    Iraqi government: In the final phase of our plan, an Iraqi 
government would assume sovereignty on the basis of elections in 
accordance with a new constitution. Our intention is to leave Iraq in 
the hands of Iraqis themselves as soon as we can. As President Bush has 
said, the United States intends to stay in Iraq as long as necessary, 
but not a day longer. To those who fear that Baathists and Iranians may 
intervene when we have left, our message is simple: while it is our 
intention to withdraw relatively rapidly from Iraqi political life and 
day-to-day decisions, we will remain in Iraq as an essential security 
force for as long as it takes. But I would also caution that this 
process will take time and is also worth getting right.
external political situation: international community, coalition and un
    That so many nations came together speaks to the enormity of the 
threat posed by a vicious dictator in possession of weapons of mass 
destruction. The coalition acted to ensure that a regime that places 
little value on the lives of its own people--or those of others--will 
no longer be able to possess and pursue-or export--the means of mass 
terror. A significant consequence of Saddam's removal is that an 
industrious, educated people have reason to believe that representative 
government is within their grasp. The men and women of our American and 
coalition forces performed their missions with incredible courage and 
skill, and we are enormously proud of them.
    To help Iraq take its place among peace-seeking nations, the 
international community has a responsibility to ensure this vision 
becomes a reality. And the coalition is committed to working with 
international institutions. To date, coalition partners have 
contributed in great measure to the progress described. Currently, 24 
coalition countries are providing military support--some of which is 
public, some of which is private. Thirty-eight nations have offered 
financial assistance that totals more than $1.8 billion. Here are a few 
examples of coalition support:

  <bullet> Greece has given some 20 tons of clothing and food;

  <bullet> The Czech Republic has deployed a field hospital to Basra 
        and has send aid conveys with medicine, drinking water, tents 
        and blankets;

  <bullet> Spain has a 150-person health team in Iraq, and is helping 
        repair water and electrical systems;

  <bullet> Lithuania has sent orthopedic surgery specialists to Um-
        Qasr.

  <bullet> Jordan has sent two field hospitals and Saudi Arabia and the 
        U.A.E. have each sent one.

    There are many other contributions, and they will be described in 
the future. Our continued progress will depend on international 
assistance, including that of the United Nations. To facilitate our 
goals, we advocate a Security Council resolution that will lift the 
sanctions from the Iraqi people, define the UN's role in Iraq, and 
encourage the greater international community to participate in 
building a free and peaceful Iraq. This support must be geared for the 
long haul for, as one Iraqi councilman in Um-Qasr has said, ``it will 
take time. People need to understand that we cannot undo years of 
Saddam overnight.''

                        CHALLENGES AND SUCCESSES

    We knew that certain systems and services we take for granted here 
would not exist in a formerly totalitarian regime. And we also knew 
that we could not fully understand the scope of Iraq's needs until we 
were in the country and on the ground. One area that did surprise us, 
as I mentioned, was the extent of decay in Iraq's overall 
infrastructure. The coalition campaign went to great lengths to 
preserve Iraq's schools, mosques, hospitals, bridges, dams and roads. 
But, it has become clear that the Baath regime did not.
    As with any plan, we were ready to readjust and recalibrate when we 
could carefully assess conditions. We are doing that, and have begun 
addressing Saddam's legacy of destruction and decay. We began by 
calling in civilian companies familiar with tackling vast rebuilding 
challenges. USAID is developing a contractual mechanism to permit 
immediate action by Bechtel for emergency repair of power facilities. 
Among other successes we can point to are the following:

  <bullet> The World Food Program has large stocks of food in Iraq and 
        has plans to bring in each month some 487,000 metric tons; 
        June's rations are on their way. Although it will be a 
        challenge to distribute the food, we're working with the WFP 
        manager at CENTCOM to get it done;

  <bullet> Some Iraqis have more electric service than in the past 12 
        years. For example, people in Basrah have electricity 24 hours 
        a day. Only Baghdad suffers from electrical shortages above 
        pre-war levels. When the National Grid Backbone is operational 
        later this month, Baghdad will receive excess power from the 
        north and south;

  <bullet> Primary schools throughout Iraq opened on May 4. Jay Gamer 
        is hopeful that secondary schools and universities will open 
        soon;

  <bullet> Emergency civil servant payments have been made to more than 
        a million civil servants;

  <bullet> Baghdad's water system is at 60% of pre-war levels; in some 
        places where there is reliable electric power, there are claims 
        of higher levels of drinkable water than before the war;

  <bullet> Privately hired stevedores began ship off-loading operations 
        and put rice directly on trucks. Currently, over 1,500 tons per 
        day are off-loaded.

  <bullet> In a first, the UN will use oil-for-food funds to buy Iraq's 
        cereal crop.

  <bullet> In Karbala, the DART team reports that 130 school buildings 
        have been cleared of unexploded ordinance; battalion teams have 
        begun the renovation of five schoolbuildings.

    Energy infrastructure: One of the keys to getting Iraq up and 
running as a country is to restore its primary source of revenue: its 
oil infrastructure. As with many other facets of life in Iraq, this 
infrastructure had been allowed to decay to a surprising degree. 
Fortunately, the coalition plan averted the destruction of many of the 
oil wells. And a great deal of repair work is underway to ensure 
operations can safely resume at oil facilities. While the coalition 
will be involved at the outset, the goal is to have production and 
marketing responsibility in the hands of a stable Iraqi authority as 
soon as possible. Iraqi oil operations are now being run by an Interim 
Management Team, led by Thamir Ghadban, who was a senior Oil Ministry 
official under the former regime. Ghadban is advised by an American 
former oil executive and the former head of Iraq's State Oil Marketing 
Organization. The Iraqis have demonstrated in the past their skills in 
operating their energy infrastructure in the face of adversity. We are 
confident they will do even better now.
    The resolution before the UN Security Council will also relieve 
shortages of gasoline and cooking fuel. The resolution envisions the 
resumption of oil exports, and provides that revenues be deposited in 
the Development Fund for Iraq, with transparency provided by 
independent auditors and an international advisory board.
    Decisions regarding the long-term development of Iraq's oil 
resources and its economy will be the responsibility of a stable Iraqi 
government. The United States is dedicated to ensuring that Iraq's oil 
resources remain under Iraqi control. Iraq's resources--including all 
of its oil--belong to all of Iraq's people.
    Mr. Chairman, let me close by thanking you for holding this hearing 
and thanking all the Members of the Congress for the outstanding 
bipartisan support that we've had since the beginning of this war. As I 
noted in my statement, we are still fighting a war at the same time 
that we are struggling to win the peace. And as you noted in your 
article today, transforming Iraq will not be quick or easy. And our 
victory will be based, as you put it so well, on the ``kind of country 
we leave behind.'' The stakes for our country and for the world are 
enormous, and the continued commitment of the Congress and the American 
people is essential. I appeal to you and your colleagues for your 
continued support and leadership in this historic effort.

                                 ______
                                 

 Prepared Statement of General Peter Pace, Vice Chairman of the Joint 
                            Chiefs of Staff

    Mr. Chairman, Members of the Committee: Thank you for the 
opportunity to meet with you today to discuss U.S. policy and plans for 
Iraq stabilization and reconstruction. I'd like to first thank you for 
your continued support to the men and women of our armed forces. That 
support is as critical to our success now in the post-conflict phase as 
it was during the conflict, and we greatly appreciate it.
    Major combat operations in Iraq have ceased, yet much work lies 
ahead as we stabilize the country and help the Iraqis reconstruct their 
government and economy.

                         MILITARY ORGANIZATION

    When General Tommy Franks declared the liberation of Iraq, he also 
announced the creation of the Coalition Provisional Authority (CPA). 
The CPA temporarily administers the government, pending the people of 
Iraq's adoption of a new constitution, and the formation of a new 
government under that constitution. As the military commander, General 
Franks was the initial head of the CPA, and all coalition forces and 
other activities in Iraq, such as the Office of Humanitarian Assistance 
and Reconstruction (ORHA), reported to him. Ambassador Bremer is now 
the head of the CPA, and General Franks has returned to his 
headquarters in Tampa.
    Central Command's military organization in Iraq is now Combined 
Joint Task Force Seven (CJTF-7), commanded by Lieutenant General David 
McKiernan. All coalition military forces in Iraq are under CJTF-7, 
which reports back to General Franks in his continuing role as 
Commander, U.S. Central Command.
    Secretary Rumsfeld has directed General Franks, as the Commander of 
U.S. Central Command, to secure and stabilize the country in direct 
support of Ambassador Bremer. Those military tasks include deterring 
hostilities; maintaining Iraq's territorial integrity and security; 
searching for, securing, and destroying weapons of mass destruction; 
and assisting in carrying out U.S. policy.

                                SECURITY

    Today, security is the military coalition's highest priority. The 
situation is relatively calm throughout Iraq, with isolated incidents 
of anti-coalition activity. We continue to see low-level violence from 
Ba'athist remnants and criminals, particularly in Baghdad. The 
population continues to provide information on subversive groups and 
weapons caches to assist coalition forces in eliminating threats to a 
safe and secure environment. We have identified the high threat areas 
and are focusing the patrolling efforts there. We are conducting both 
fixed site security, as well as roving patrols, day and night.

                             TROOP STRENGTH

    We continue to adjust the mix and number of our military forces to 
meet the needs of the current situation. Today, the 3d Infantry 
Division, a brigade from the 82nd Airborne Division, the 3rd Armored 
Cavalry Regiment, and elements of the 2nd Light Cavalry Regiment are 
focused on providing security and stability in Baghdad. In addition, 
the 1st Armored Division continues its deployment to Iraq, with all 
division personnel now in theater and their onward staging, movement 
and integration due to complete on 26 May. We will continue to assess 
the situation and adjust the future force structure mix as required.

                          RULES OF ENGAGEMENT

    I also want to clarify our rules of engagement for these forces. 
Some press reports have stated that looters will be shot on sight, and 
that is simply not accurate. Coalition soldiers retain their inherent 
right to self-defense, and they use that avenue when necessary, and 
only when necessary. Simple looting does not warrant shooting Iraqi 
civilians. Coalition soldiers will, however, arrest and hold those 
caught in criminal acts.

                             IRAQI SUPPORT

    Coalition military forces are vigorously recruiting and training 
Iraqi police elements. This is an ongoing process, and our greatest 
challenge is the vetting and training of suitable candidates. The 
status varies by city, but Baghdad now has over 7,000 police officers 
that have been rehired. However, that number is less than half of what 
we assess is required for Baghdad alone, and we will continue to work 
to recruit and train police officers throughout Iraq.

                           COALITION SUPPORT

    Negotiations and discussions for recruiting and integrating 
coalition military forces from other nations continue. While some 
countries' domestic sensitivities limit the details that can be 
discussed openly, I'm happy to report that Poland, Spain, Italy, 
Denmark, Bulgaria, the Netherlands, Ukraine, and Romania have already 
agreed to provide forces. As we firm up commitments from these nations, 
U.S. Central Command will work with the appropriate country's planners 
to coordinate force flow into the theater.
    The composition of our military forces in Iraq will change over 
time, as heavy combat units are eventually withdrawn and replaced with 
less heavily armored forces, more military police, engineers, and the 
like. The exact timelines for withdrawal and/or replacement of U.S. 
forces has yet to be determined. The presence of U.S. forces, however, 
remains event-driven, and not timeline-driven.
    The coalition military forces have demonstrated speed, flexibility 
and precision throughout this war. They are now working to provide a 
secure and stable environment for post-conflict activities, allowing 
the people of Iraq the opportunity to make their own decisions 
regarding their future. Thank you.

    The Chairman. Thank you very much, Deputy Secretary 
Wolfowitz. The committee will have a 7-minute-per-member 
question period at this point. I will ask the timekeeper to 
start the 7-minutes on my questions, but I want to start with 
some comments.
    I appreciate very much the testimony you have just given. 
As you would confirm, we visited 2 weeks or so ago, and my plea 
to you was to come before the committee, as you have today, 
with a comprehensive statement. To my knowledge this is the 
first time that I have been privy to an all-points view of what 
is going on in the country. The American people I think will 
benefit from the fact you have given us some good news. There 
have been remarkable achievements that by and large are 
unrecognized.
    Likewise, I appreciate very much the thought that, perhaps 
through secure television, there could be regular reports to 
this committee, and perhaps to other Senators as well. We had 
the benefit of progress reports on the war from the Department 
of Defense daily up in S. 407, and we appreciate that. Most of 
us were there at 8 o'clock in the morning, as you were. The 
military came over, which was tremendously important in terms 
of instilling confidence in all of us in what was occurring, 
and the support mechanisms, I would simply say that was 
tremendously important during all of this period.
    You could just say, well, this is going to go on for a long 
time, these daily briefings, and we understand that. There has 
to be a reasonable situation to warrant these briefings, but 
there also have to be some ways in which the good news is 
conveyed, in addition to the other things you have to say to 
some of us, even with our own interpretations.
    Tom Friedman of the New York Times has written about the 
fact, as you have suggested today, that we have discovered that 
the Iraqi people were really beaten down. This is a situation 
which was not hopeful and prosperous for anybody except for the 
regime. Here you have people who, as you pointed out, have not 
had electric power, in some cases, ever, and in other cases not 
for quite a long while. This is a really beaten-down situation.
    Not only that, but in terms of morale of the people, these 
are folks who are not just leaping to take advantage of 
political action and volunteering to run in the next election 
or take part in the council. A good number of them, obviously 
and unfortunately most of the middle class, as I have observed, 
are hanging back wondering if Saddam is going to return. If not 
Saddam, the Baathist Party types who you have had to battle 
sort of day by day are not going to do them in.
    This is still a repressive situation in the perception of 
many people. The Iraqi people have not only the inconveniences 
of lack of power or lack of security, but they are really still 
not sure who is in charge. They are not sure about our staying 
power and resolve to make sure that the bad people do not 
finally return. That can be changed by the President saying, as 
he said to many Members of Congress today, stay the course, we 
are going to be there as long as we need to be. When that 
assurance comes, and you have given it to us again with a lot 
of supporting detail, that is tremendously important.
    Now, likewise, I appreciate the perception by Mr. Bremer 
that the Baathist people are not the ones who are going to 
restore democracy or even bring about any vestige of it, and 
that they are the enemy. There are people I know within our own 
government who have been sort of battling back and forth in 
terms of freedom of speech and freedom of all of this, and I 
understand that. It is an honest philosophical disagreement, 
but here we have got people who are cowed in the country by 
recognition that the same types are still around. How do you 
develop others? Very tough on the political side, quite apart 
from the security arrangements.
    Now, once again, we have the right kind of personnel to be 
there to do these things--so you have recognized these things, 
and I will not reiterate them because I appreciate the 
comprehensive statement that you have made, which I hope all of 
us will study.
    Let me just say a few words regarding the oil situation, 
which began to find some clarification in the Security Council. 
Secretary Powell is certainly to be complimented in the 
remarkable work he has done. He has been supported by you and 
the Department of Defense, and obviously the White House. 
Collectively that was a very important victory in a short 
period of time for all who were the naysayers to come around 
and say sanctions will be lifted. The United States, Britain, 
and those who fought the war are in charge, we will review it 
in due course, exports can happen. Those are very big things. 
For those who are always diminishing American diplomacy, you 
know, I hope they take notice of this remarkable change.
    However, having said that, if you were chief executive of 
Iraq oil today, the problem is still there--and you may clarify 
this a little bit more for us. Somebody has to deposit the 
money, somebody has to disburse the money, and make decisions 
as to who it goes to. You have set aside 5 percent for 
reparations and past wars, and 95 percent is out there. The 
transparency of all of that is obviously important, and 
overhanging this is the debt situation.
    As you take a look, if you are chief executive of this, how 
much do you put into repair of that which is there, and has 
been in disrepair even before the damage and looting. How much 
do you put in new investment? How much do you allocate to debt?
    Now, I had a meeting yesterday with a gentleman who has 
been an advisor to Russian rulers as they come and go, and his 
suggestion was, as perhaps Secretary Powell found, that the 
Russians were deeply interested in contracts. When it comes to 
debt, that is maybe something else. He had a lot of experience 
with both. They would like a lot of their debt forgiven. So 
would a lot of other nations who are involved in this. With 
that overhanging problem there, somebody has to be in charge of 
the fiscal situation of the country and the allocation of 
resources, the business management of it. There cannot be 
temporizing, in my judgment, about that. This is a very serious 
matter right now in terms of the confidence level that this 
money come out.
    Now, in doing that, the papers today point out that the 
Kurds in the north, are very worried about allocation of these 
oil resources for, say, relief of all of the country. They 
would say this is ours. Well, once again, we are back into what 
does it mean to be an Iraqi? Is there a sense that Iraqis want 
to be Iraqis?
    Most would say, sure, and the testimony we have had is that 
there is a very cultivated sense of that over decades. Still, 
we must promote the ability of the Iraqi people to come 
together and make compromises, to begin to think as we would 
like for Iraqis to think of themselves, as a cohesive society 
and country that are prepared to have great diversity in one 
government as opposed to a theological tyranny. All of these 
things you have thought of, and you must do so every day.
    Specifically, on the question of the oil money and the 
management of resources, those are not the only revenues. You 
have pointed out some others, but I am not sure how many taxes 
are being collected of any sort, on the fiscal side, on the 
income side. What can we expect and how can people manage that? 
In the absence of a legislature, a congress, or a President, 
will we make those decisions? Are they being made, or is there 
planning in a fiscal sense for the country presently?
    Mr. Wolfowitz. If I could say first of all, just very 
briefly, your suggestion of having, if not daily, at least 
regular briefings up here I think is an excellent one. I am 
impressed--Bill Luti who is sitting behind me I think was the 
OSD representative of the daily ones we had during the war, and 
it did seem to really establish a good pattern of 
communication, and maybe daily is too often, but let us work 
together and figure out what is the right schedule, because it 
helps us, and it is not just to transmit good news. There is 
plenty of bad news, too, and we could use help.
    The Chairman. Because we need to share, as opposed to being 
ultra critical. We must be prepared to be supportive.
    Mr. Wolfowitz. And I think it is very important. I notice 
this on a transatlantic meeting in Europe over the weekend that 
a lot of our allies are reassured when they hear that, in fact, 
we intend to stay the course. I do not know why, after what we 
have done in Bosnia, they doubt it, but at any rate we need to 
say it.
    This is an opportunity to do it, and I appreciate that, and 
I think you were correct in singling out Envoy Bremer's decree 
on de-Baathification. We are hearing already that just the mere 
declaration has had a big political impact.
    On the key question you brought up about these decisions 
about--and there are many decisions, one, there are decisions 
about how you get the oil sector up and running and how you 
invest to repair it, and I was pleasantly surprised to discover 
that we have found an Iraqi, his name I mentioned in my 
testimony--Tamir Gadban--and I am told that he had a senior 
position in the Oil Ministry despite his refusal to join the 
Baath Party. It is pretty remarkable. It also says he must be 
extremely competent, because they did not tolerate that in 
other people, but he will be running it.
    We have an advisory board and an American advisor who will 
help him make decisions and give us some guidance as to whether 
we think those are the right decisions. Ultimately, for the 
time being he is under the authority of the coalition 
provisional administrator, who is Ambassador Bremer.
    The issues about how the revenues get spent and invested 
are again under the authority of the coalition provisional 
administration. The key individual under Ambassador Bremer is a 
very distinguished American official, a former Deputy Secretary 
of the Treasury, Peter McPherson, who was the president, still 
is, I guess, he is on leave, from Michigan State University.
    We have had some extraordinary Americans volunteer to help 
us out there--a former commissioner of the New York police is 
going to help us with the police job.
    Peter McPherson I guess for the time being is a de facto 
finance economics minister for the provisional authority, but I 
would also emphasize we are looking for help everywhere we can 
get it, and in ORHA right now the current staffing is 617 U.S. 
and 471 coalition, about 1,000 people, and about 40 percent 
non-Americans, and I am pleased at that 40 percent number. I 
have been pushing particularly hard to tap into the expertise, 
which I think is substantial, of our friends in Poland and 
other Central European countries who have had to undertake this 
kind of tricky economic transition themselves and have a better 
sense of the tradeoffs than we have, with our experience of 
running a functioning economy, but it is a big effort. There 
are a lot of decisions to be made.
    What I tried to describe, maybe too briefly, in my 
statement is, there are two things that have to happen, and 
they need to happen in parallel. On the one hand we need to 
make sure that the country runs, and it is not that we want 
this responsibility, but we know that if we do not take it on, 
and with some unity of command and some ability to make 
decisions, things will limp.
    On the other hand, there needs to be a political process 
that eventually produces a legitimate government, and in that 
process I think our main function is just to make sure that it 
can take place under secure conditions, which is a long way 
from where we are now.
    Your point about people being afraid is, I think--I mean if 
members of ORHA have to worry about traveling in the streets 
and the ministries, imagine what somebody has to think about, 
not if they are going to the shops in Baghdad. People are doing 
that on a daily basis, but if they want to speak up in support 
of the coalition, they may get killed. It is still a problem.
    So creating secure conditions, and I think also setting the 
boundary lines, I think we can say that people who show that 
they are not willing to play by democratic rules are not 
included in this process, but inside the process I think we 
need to let Iraqis make decisions.
    The Chairman. Thank you. Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman.
    Let me begin by saying in a sense you are the wrong guy for 
me to be questioning, and what I mean by that is, I have known 
you for 30 years. One of the things that I am absolutely 
convinced about is your absolute conviction that we have to 
build a stable country there as long as it takes. I remember 
sitting in a couple of conferences on whither NATO, and what 
about Bosnia, and I remember you being critical of the 
candidate for President then, saying we had to get out of 
Bosnia and we had to get out of the Balkans, and during the 
last campaign----
    Mr. Wolfowitz. Excuse me. The candidate was not saying 
that. I am sorry, let us not go into that.
    Senator Biden. Well, it is important to go into it for this 
reason. One of the things I would like to know is when the 
President is going to tell the American people that we are 
likely to be in the country of Iraq for 3, 4, 5, 6, 8, 10 
years, with thousands of forces and spending billions of 
dollars, because it has not been told to them yet. They have 
not been told. They were not told before we went in, and you 
knew we were going to have to stay there, and he knew.
    It has not been told to them since then, and we are facing 
a $400 billion deficit, and we are going to be left holding the 
bag here a year from now when the military and the 
administration need considerable input in dollars in Iraq, and 
the American people are not going to understand why we are not 
spending it on education. Instead we are voting to spend it, as 
I will vote to spend it on Iraq, and that is the reason why I 
raise the question.
    You seem to want it both ways. You ask why anyone would 
doubt our resolve. We have been in Bosnia for 8 years, and the 
problem is a lot less significant and less difficult in Bosnia 
than it is in Iraq. That would seem to compute that we are 
likely to be in Iraq for a long time, a long time. If the 
problems are so much more complicated, which they are--as you 
point out--in Iraq than in Bosnia, then we are going to be 
around for a long time. I do not know about you, but my home 
constituency does not understand that. They think Johnny and 
Jane are going to come marching home pretty soon.
    Nobody in this country thinks we are going to be there for 
the next 4, 5, 6, 10 or 8 years, like in Bosnia, and so I would 
hope the President at some point will make our job of 
continuing to support him easier, which I have done every 
single step of the way in his effort here, and tell the 
American people. When are you going to say that?
    Are we not likely to be--and I am asking you. Are we likely 
to be in Iraq for at least the next 4 years, in significant 
numbers with a significant monetary commitment? Is that likely?
    Mr. Wolfowitz. Senator, the problem is, it is very 
difficult to predict. It is possible, and it is possible that 
things will go faster.
    Senator Biden. Is it possible at all, Mr. Secretary, at all 
to be out of there in the next 2 years?
    Mr. Wolfowitz. Not necessarily out of there, but I do not 
know how many forces we are going to need in the next 2 years. 
Things are going to be very different 2 years from now than 
they are now. As a matter of fact, things are very, very 
different in Bosnia now from they were 8 years ago, and let me 
be clear, I did not say this is more complicated than Bosnia. I 
said the stakes are higher than Bosnia. In some respects, it is 
less complicated. It was a functioning country in important 
respects. It has enormous resources, which Bosnia did not have.
    Senator Biden. It is not functioning now. You point out it 
is much more devastated than we thought it was going to be. 
There is little infrastructure left----
    Mr. Wolfowitz. There are huge problems, but there are huge 
resources.
    Senator Biden. What are the resources? I just attended the 
meeting with oil experts--with Mr. Larson present and with Ms. 
Chamberlin present--where the following numbers were, for us 
just to get to the point where we are talking about 1 million 
barrels per day export, there is going to be a need for a $5 
billion investment in the oil fields. To get to the point where 
you will buildup production to 5.5 million barrels per day, it 
is estimated, by the folks testifying today--and I would ask 
either of your colleagues if they disagree with this--7 to 10 
years and an investment of $30 to $40 billion in the fields.
    Now, nobody I know in the oil business is suggesting that 
there are going to be revenues that remotely cover the cost of 
rebuilding Iraq coming from those oil fields in the next 3 
years. I have not heard anybody. For the record, I would love 
you to submit--take as much time as you want--any evidence to 
suggest that a significant part of the reconstruction of Iraq 
required in the next 3 years will come out of revenues from 
Iraqi oil. Would you be willing to do that for the record?
    Mr. Wolfowitz. I will be happy to do it for the record.\1\
---------------------------------------------------------------------------
    \1\ See page 67.
---------------------------------------------------------------------------
    Senator Biden. OK. Because I have not heard a single person 
suggest that yet, not one. And I just wonder when we are going 
to start leveling. Look, you want us to continue to support 
you. You wonder why our European friends say--how they could 
doubt our staying power.
    You make this case that somehow this is so fundamentally 
different from Bosnia. Well, how about Afghanistan? American 
soldiers are still being shot at. Al-Qaeda is still alive and 
well. The Taliban did not go anywhere. Those 60,000 forces we 
are talking about, they are now living in mud huts all 
throughout there. They are not all in Pakistan or into Iran. 
They are still there. It is a shambles.
    Mr. Wolfowitz. I would not agree it is a shambles. The 
problem, if you want to shift to Afghanistan from here----
    Senator Biden. No, no, I want to shift to the comparison. 
You are suggesting that the reason why you cannot bring in 
large numbers of police and why you did not plan on doing that 
is because it is implicitly incompatible with the environment 
that they are in--what we really need are soldiers there, not 
police there--and I am suggesting to you the same situation 
exists----
    Mr. Wolfowitz. I am saying to you 3 months from now it may 
be very different.
    Senator Biden. Well, tell me the plans you have--so if it 
is different in 3 months you are able to drop in 6,000 police 
officers. Do you have a plan?
    Mr. Wolfowitz. I will give you the example of Karbala. 
There are about 1,000 marines in that city of half-a-million, 
and there is effective law and order in Karbala. So that is one 
example of how it might work.
    Senator Biden. What is being----
    Mr. Wolfowitz. I might ask General Pace to address the 
issue of where we might be 3 months from now in terms of change 
in composition of the force.
    Senator Biden. Well, with all due respect, I respect the 
general, but his judgment about where we are 3 months from now 
is going to be better than most, but still it is going to be a 
guess where we are going to be 3 months from now. I want to 
know where we are today. That is what I am worried about. I am 
not worried about anybody being able to predict 3 months from 
now. What I am concerned about is that, look, I met with the 
British Defense Minister. What is different in the city that 
you acknowledge is the most stable? What are they doing 
differently there than we are doing in Baghdad?
    Mr. Wolfowitz. Well, they have been there a lot longer. 
They are dealing with a population----
    Senator Biden. A lot longer. How much longer have they been 
there, a week, two, three?
    Mr. Wolfowitz. Oh, I think it is closer to a month, but 
they are dealing with a city which is very different in its 
composition, which is much less friendly to the kind of 
Baathist elements we are having trouble with. It is actually--
Basrah is probably comparable to Sadr City, the large 
neighborhood in Baghdad, roughly in population, roughly in 
ethnic composition, and General Abizaid reports that Sadr City 
is largely stable.
    We are dealing, particularly in central and north central 
Iraq, with armed opposition of some 30,000--I do not know the 
exact number, but it is several tens of thousands of people who 
were in the four major security organizations that kept an eye 
on one another and kept an eye on the Iraqi people. They are 
murderers, they are torturers, their goal is to destabilize the 
country. Those people are largely eliminated in Basrah. At some 
point I think they will be eliminated even in Baghdad, and then 
the numbers required to do this kind of work will be a lot 
smaller, but it is not a simple police function, it is 
something closer to light infantry. General Pace, do you----
    Senator Biden. I do not know why we cannot walk and chew 
gum at the same time, have police in the city and forces----
    Mr. Wolfowitz. Well, we are. I can go back and read you the 
statistics I read about how many people are in Baghdad today, 
how many of our forces are there. I think it is 21,000 that are 
doing patrolling duties and the number of patrols----
    Senator Biden. They are not trained to be police.
    Mr. Wolfowitz. They are trained to do this--this is not 
police work. This is something closer to urban combat, and they 
are trained for that. General Pace.
    Senator Biden. Looting is not urban combat, but I will come 
back to that later.
    General Pace. Sir, I would say it is certainly not time-
driven, it is event-driven. We have been in Basrah longer than 
Baghdad. We have been in Mosel shorter than Baghdad. Both 
Basrah and Mosel are in better condition securitywise than is 
Baghdad. Baghdad has, in addition to all its major-city 
problems, about 20,000 prisoners, criminal prisoners who were 
in jail who were released during the course of the war who have 
concentrated a lot of their activities. Just last night, just 
the patrols last night----
    Senator Biden. But they are thugs, they are not Baathists.
    General Pace. They are thugs and they need to be policed, 
and about 104 were policed up last night, so it is a 
combination of military and police. The police forces are being 
recruited. They are being trained, and it was a judgment going 
into Baghdad as to whether or not you waited outside the city 
to have enough forces that when you went in you could have 
complete control of the city and then potentially have the 
Fortress Baghdad fight that none of us wanted, or to take 
advantage of the opportunity of the speed and precision that we 
had, get in there quickly, take it down quickly, not destroy a 
city with 5 million people in it, and accept the problem of 
having a less secure environment than we would like to have.
    So on balance, I would much rather be where I am today, at 
the 2-month mark worrying about police action, than at the 2-
month mark still pounding away at a city because we waited too 
long.
    Senator Biden. In the second round I will point out why I 
do not believe that they are incompatible.
    The Chairman. Thank you very much, Senator Biden.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. To our 
distinguished witnesses, thank you for coming today, and 
congratulations on the good work that you and your colleagues 
have accomplished so far. Mr. Deputy Secretary and general, 
give our best wishes and congratulations and thanks to our 
Armed Forces, our men and women who have achieved a spectacular 
victory. To our State Department representatives, you had a big 
day today at the United Nations, and give Secretary Powell our 
best and our congratulations.
    As Chairman Lugar pointed out, this was important for 
America today, and important for Iraq, and quite frankly 
important for the United Nations as we rebuild alliances that 
were fractured as a result of Iraq, and strengthen these 
institutions that I believe will be critically important to the 
outcome in Iraq, as Deputy Secretary Wolfowitz has talked about 
today.
    Mr. Secretary, you went into some detail in the last part 
of your testimony about the political situation and the future 
of Iraq, and I paraphrase your comment. I believe you said 
something to the effect that that may be overall the most 
important dynamic as you stabilize Iraq and do the things you 
are doing to secure Iraq, because it will be the political 
process, as you note, that determines what kind of Iraq we 
have, and that will ripple across the region.
    Today's front page of the Washington Post, which you have 
seen--and let me quote just quickly a paragraph to set the 
question. ``Paul Bremer, chief U.S. civilian in Iraq, said 
today that the selection of an interim Iraqi Government is at 
least 7 weeks away, prompting aspiring leaders from Kurdish and 
returned exile groups to warn that Iraqis are tiring of the 6-
week-old U.S. occupation, and they want swift movement toward 
self-rule.''
    Yesterday's headlines in the New York Times: ``Iraqi 
political leaders warn of rising hostility if allies do not 
support an interim Government.'' Would you share with the 
committee what we are doing to get to that end? I recognize, we 
all do, it is imperfect. It is difficult for all the reasons 
you mentioned and others, but I think this is a pretty serious 
statement coming from serious allies of ours, the two main 
Kurdish leaders who Senator Biden and I met with in December 
when we are in Iraq, they are critical to the future of Iraq, 
you all know that.
    Some of the exiled leaders who you have strongly supported, 
Mr. Chalabi and others, obviously are a bit nervous about this. 
Can you tell us how we are going to get there?
    Mr. Wolfowitz. First of all, let me point out that, as 
important as that part is, the most urgent requirement remains 
the creation of stable and secure conditions and, in fact, 
while it may be the case that some Iraqis and certainly the 
gentlemen you quoted are impatient, or at least they want to 
say they are impatient, I think on the whole we hear more from 
Iraqis who are impatient to make sure that we are doing 
something about providing security and providing basic 
services, and there is a tension between those Iraqis who want 
us to be in charge and who frankly are used to the government 
taking care of things for them and those Iraqis who are 
impatient to be able to run their own affairs.
    I do not think it is an accident that the ones who are most 
impatient on the latter point are the ones who have had the 
experience of 12 years of pretty free conditions in Northern 
Iraq. I know Ambassador Bremer went out there--at the time he 
went out we had, as I think also noted in that article, an 
expectation that we might be able to stand up an interim 
administration as early as the beginning of next month.
    He went out there with explicit authority to make his own 
judgments about how right the situation was and how prepared 
conditions were, and I think his overall judgment, partly based 
on the need to focus on this restoration of security and 
services, but I believe also his sense that we still did not 
have a good enough feel for who were the appropriate people who 
could be brought into a group that would adequately represent 
the Iraqi people, I think is his reason for taking a little 
more time. That is not a lot of time.
    And you ask about the process. The process is, in fact, in 
some considerable measure focused on intensive consultations 
which he has been conducting now with the senior leadership 
council that was formed in Northern Iraq just before the war, 
including the two principal Kurdish leaders, Talibani and 
Barzani, including Mr. Chalabi and Mr. Alawi and two Sunni 
leaders who were--I am sorry, Mr. Alawi is one of the Sunnis. 
Bakar al Hakim from Syria, who initially opted not to 
participate and has since decided he will participate, and we 
are looking closely to make sure that his participation remains 
within the bounds of legitimate political activity and does not 
include the importation of his Badr Corps armed people from 
Iran, and finally Mr. Pachachi. That was the core six, and 
Ambassador Bremer is consulting with those people about how to 
expand their numbers, and we do not have a particular figure in 
mind, but to a larger council that would be more adequately 
representative of the larger population, and then the question 
will be how to get from there to an interim administration.
    But let me emphasize that word interim. It is really 
important. There is no way in present conditions to have an 
Iraqi administration that derives its legitimacy from Iraqi 
political processes. There are none. Its legitimacy really 
comes from its interim character and the fact that it is really 
a bridge paving the way to something that will provide 
legitimacy, so the more challenging task will be writing a 
constitution, which you can take your guess as good as mine. It 
sounds like that is a 6- to 12-month process, and getting 
elections organized, and there is going to be some discussion, 
I am sure, about whether you would start them at a national 
level or, I will give my bias, start working from the local 
level up.
    I mean, if you have a situation like the one I described in 
Karbala, then that is a wonderful opportunity to experiment 
with how Iraqis can handle the political process. Obviously, 
most areas of Baghdad are not ready for that sort of thing yet, 
so I think some local experimentation I believe will be a part 
of getting there. It will take some time, but I think the 
ingredients for success are--though they have never done it 
before, so this is a guess, but I think the ingredients for 
success are very good, an educated population--we can argue 
about how soon those resources will be available, but one of 
the richest natural resource producers in the world.
    And finally, and I think this is important in things that 
did not happen, unlike Bosnia, while there has been horrible 
killing, it has been the regime killing everybody. It is not 
one ethnic group killing another ethnic group. A lot of people 
expected Sunni-on-Shia violence. I think they were wrong to 
expect that. A lot of us were afraid that there would be 
Kurdish-on-Turkish, or Kurdish-on-Arab violence in the north, 
and while there have been isolated and tragic incidents of that 
sort of thing, it has not happened on a large scale, so Iraq 
starts, I believe, with more good will among the elements of 
the population toward one another than we ever had in the 
Balkans. That is a plus.
    Senator Hagel. I will followup on some of those on the 
second round. Thank you.
    The Chairman. Thank you, Senator Hagel.
    Senator Sarbanes.
    Senator Sarbanes. Well, thank you very much, Mr. Chairman.
    First, I want to commend Chairman Lugar for scheduling this 
hearing. In view of the confusions, the ambiguities and 
contradictions that exist with respect to our policy in Iraq, I 
think this hearing was certainly needed. I hope it will be the 
first in a series of hearings. I think that may be the 
intention. When it comes to this Nation's foreign policy, the 
executive and legislative branches play complementary roles, 
and neither can properly fulfill its responsibilities when 
acting entirely on its own.
    Mr. Chairman, I commend you for your tenacity in insisting 
on the importance of what you have called interbranch 
partnership on the question of Iraq. As you have written in the 
op ed piece which appeared in today's Washington Post, 
``transforming Iraq will not be easy, quick, or cheap. Clearly, 
the administration's planning for the post-conflict phase in 
Iraq was inadequate.''
    I am concerned that the Bush administration and Congress 
have not yet faced up to the true size of the task that lies 
ahead or prepared the American people for it, which was, of 
course, also a point that Senator Biden made just earlier in 
this hearing. And you went on to say, ``the public and Congress 
need to know what we are getting into,'' and I fully agree with 
that.
    Now, Secretary Wolfowitz, before I turn to Iraq, I want to 
divert for just a moment. The Economist on May 10--and the 
Economist by and large has been very supportive of the 
administration's foreign policy--has an article on Guantanamo 
in the course of which they say America's handling of the 
prisoners at Guantanamo is wrong in principle and a tactical 
error in its broader fight against terrorism, and they go on to 
question the continued holding of these people. After 16 
months, none of those detained at the camp has been charged.
    ``The claim that America is free to do whatever it wishes 
with the Guantanamo prisoners is unworthy of a nation which has 
cherished the rule of law from its very birth, and represents a 
more extreme approach than the United States has taken even 
during periods of all-out war. It has alienated many other 
governments at a time when the efforts to defeat terrorism 
require more international cooperation and law enforcement than 
ever before.''
    I gather Guantanamo is under the supervision and 
jurisdiction of the Defense Department.
    Mr. Wolfowitz. That is right.
    Senator Sarbanes. What are your plans with respect to that 
situation?
    Mr. Wolfowitz. Well, we continue--we pay a lot of attention 
to it. We are looking into--frankly, we would like to reduce 
the population there as much as possible, and we have made some 
releases. It is not an easy process.
    I recall a few weeks ago, when we were on the verge of 
sending some detainees back to their home countries and the FBI 
came up with some information that suggested these people would 
be dangerous to release, and we had to hold it up. We are 
working with a number of countries to get agreements so that if 
there are dangerous characters that need to be detained they 
can at least be detained in their home countries, and I think 
it is essential to point out that many of these people have 
very important information that can help us to prevent other 
terrorist attacks, and we are trying to manage the whole 
process in such a way that they cooperate with us and tell us 
what they know about the planning that they were involved in, 
and other terrorists who are still at large.
    These people are enemy prisoners of war, and prisoners of 
war in a war that was conducted by the most vicious means, and 
in violation of all the rules of war. It is a war that is not 
over. If anyone has any doubt about that, we got a reminder a 
few days ago, and we need to treat them in that way. We treat 
them fairly. We treat them humanely. If it turns out that they, 
in fact, are harmless, they are released rather quickly. If it 
turns out that they are of no intelligence value, but they 
remain somewhat dangerous, we try to find circumstances to 
detain them longer, and I will take a look at that Economist 
article.
    I agree with you that it is a matter of concern if our 
European allies feel that we are violating basic standards of 
fairness, but--and we need to perhaps do a better job of 
explaining what we are about, but I think the American people 
would have a hard time understanding why we would release 
people who have been involved in terrorist plotting against the 
United States.
    Senator Sarbanes. Well, if, in fact, that is the case, I do 
not know that I quarrel with that statement, but is that the 
case?
    Mr. Wolfowitz. It is the case, otherwise--we are not 
holding them because we enjoy it, Senator. We have really tried 
to prune that population down, and we continue to work at it, 
and where there are people who, in fact, are appropriate to be 
brought to some kind of trial, we are looking at military 
commissions for that purpose.
    Senator Sarbanes. Yes, well, this article says after 16 
months, none of those detained at the camp has been charged. 
They also make the point that we have been receiving a lot of 
complaints from many of the 42 nations, including some of 
America's closest allies, whose citizens are being held at 
Guantanamo. I gather they are, in effect, held incommunicado. 
They cannot communicate either with consular officials from 
their countries or with lawyers, is that correct?
    Mr. Wolfowitz. They do not have access to lawyers. They do 
have access to officials from their own countries I think in 
every case, not consular officials. They do not have consular 
privileges, but in every case where a country has citizens 
there and they want access to them we provided them access.
    Senator Sarbanes. Well, I would send this article to you, 
and I would be interested if you would want to send us up a 
written response, and I note again in citing it that the 
Economist generally has been very supportive of your position, 
so it is not as though this is coming from a source which has 
been critical of the administration.
    How many U.S. troops are in Iraq now, General Pace?
    General Pace. There are 145,000, sir.
    Senator Sarbanes. And are we expecting to increase that 
number?
    General Pace. The number is being increased as we speak, 
sir, by about 18,000 with the arrival of the 1st Armored 
Division, and then beyond that there are no current projected 
deployments.
    Senator Sarbanes. So we are going to go up to over 160,000?
    General Pace. Potentially, sir, although some of the troops 
that are there now, the ones who did all the fighting early, as 
General Franks sees the opportunity, when the security 
environment allows he will bring home who got there first.
    Senator Sarbanes. Well, General Franks is stepping down, is 
that right?
    General Pace. Sir, General Franks' time as commander there 
would normally end around 1 July. I believe the Secretary of 
Defense and the President are still discussing how long his 
tour will be and who would replace him.
    Senator Sarbanes. I gather he is retiring. There is a story 
on CNN to that effect. Is that correct?
    General Pace. Sir, that is likely, but again it is not 
confirmed. The President and the Secretary to my knowledge have 
not made a decision, nor have they discussed the final outcome 
with Tom, that I know of. That is a likely outcome, sir, but it 
is not a decision.
    Senator Sarbanes. All right, just to be clear, I am looking 
at an Associated Press dispatch here,`` U.S. Army General Tommy 
Franks, who planned and commanded the American-led wars in Iraq 
and Afghanistan, has decided to retire, Defense officials said 
Thursday.''
    General Pace. Sir, I am not trying to be cute at all, sir. 
The fact of the matter is that before he----
    Senator Sarbanes. I was not suggesting that you were trying 
to be cute.
    General Pace. Before he can retire he has to ask for it, 
and the Senate of the United States has to say yes, he may, 
neither of which has happened, and then the President and the 
Secretary of Defense need to decide who is going to replace 
him, and to my knowledge, they have not decided that, so I am 
just trying to be accurate, sir.
    Senator Sarbanes. My time is up, but I just want to pursue 
this point quickly. Being over 160,000 troops, Secretary 
Wolfowitz, I would ask you whether you think it was fair to 
label General Shinseki's remarks back in February that we would 
need roughly several hundred thousand troops in post-war Iraq 
as an estimate ``wildly off the mark.''
    Mr. Wolfowitz. I would say several hundred thousand is 
300,000 or more, and I do not think we are close to that.
    Senator Sarbanes. You would say what?
    Mr. Wolfowitz. Several hundred thousand to me means 300,000 
or more, and I do not think we are close to that.
    Senator Sarbanes. If it means 200,000, which is how I would 
read it, would you say we are close to that?
    Mr. Wolfowitz. Well, I would--several, to me--we are close 
to 200,000, but the other point, there are a couple of other 
points, Senator, which are important to make. We are looking, 
particularly now that the U.N. resolution has passed, at having 
some substantial contributions from other NATO allies and, 
indeed, from other countries.
    Senator Sarbanes. How many?
    Mr. Wolfowitz. We do not--we are just starting. There are 
countries that have said come talk to us after a U.N. 
resolution and we are going to be doing that, and the issue, 
too, is one number today, another number a year from now, 
another number 2 years from now. I think if you look at the 
experience in the Balkans, where we drew down from 60,000 NATO 
forces in Bosnia 8 years ago to 12,000 today, you can see a 
pretty sharp downward trend.
    What concerned me most about that very large number being 
out there, and I think most people take several to be three or 
more, is the implication that we were going to treat Iraq like 
Japan or Germany and occupy it indefinitely, and that, frankly, 
is what a lot of our enemies in the Arab world were trying to 
say about us, and I thought it was very harmful, otherwise I 
would have preferred not to have commented on the whole 
subject.
    Senator Sarbanes. How many British troops are there?
    Mr. Wolfowitz. About 20,000.
    Senator Sarbanes. About 20,000.
    Mr. Wolfowitz. Yes.
    The Chairman. Thank you very much, Senator Sarbanes.
    Let me just announce that there is a supposition that there 
will be roll call votes starting at about 4:15. They may run 
back-to-back. What I would propose is that we proceed with the 
questioning, because our witnesses' time is very valuable, as 
is the time of Senators. I will recognize Senator Chafee. I 
will proceed to vote on anticipation that vote can be cast 
swiftly and return. In the event I have not, Senator Chafee, 
you are in charge until I return, and then you may proceed to 
vote and we will try to expedite that.
    Senator Biden. That is OK by us, Mr. Chairman.
    The Chairman. I understand.
    Senator Chafee.
    Senator Chafee [presiding]. Well, thank you very much, Mr. 
Chairman, and welcome to the distinguished panel. It seems to 
me that we have thrown a rock into the pool that is the Middle 
East, and just for the sake of my question, if all goes well 
with restoring order in Iraq, what is the strategic vision of 
the ripples that are now going out from this rock? What is the 
strategic vision in the Middle East now?
    Mr. Wolfowitz. I would say several things. I think some of 
them hopefully will happen even perhaps before some of the 
other results are achieved inside Iraq. I think one of the 
ripples is a positive impact on the Arab-Israeli peace process, 
and clearly we need it. We need to move that process forward. I 
think we have credibility, enormous credibility, not that we 
did not have it before. We have it more than we did before.
    I think the removal of Saddam Hussein as somebody who was 
providing $25,000 to every terrorist family is already a sign 
that that is having a positive impact. I think a less direct, 
but maybe even more important impact is that I think the defeat 
of Saddam Hussein has improved the strategic position of Saudi 
Arabia, and the events of the terrorist attack of 10 days ago 
demonstrate that they need an improved strategic position.
    What do I mean by an improved strategic position? I mean, 
one, that the Saudis do not have to worry about a hostile 
regime to their north that was actively interested in 
undermining them, but second, and maybe even more important, 
because of the successful operation in Iraq, Secretary Rumsfeld 
and his Saudi counterpart 2 or 3 weeks ago now were able to 
agree that most U.S. forces could come out of Saudi Arabia.
    That gives the Government of Saudi Arabia some freedom it 
has not had for 12 years to not be constantly subject to the 
charge leveled by Osama bin Laden that they are basing so-
called crusader forces on Arab territory, and hopefully that 
also rebounds back into the peace process, because I think one 
of the things that was missing in the Camp David and Taba 
negotiations in 2000 and early 2001 was that the Saudis and the 
Egyptians did not step up to the plate, so those are big 
effects.
    But finally, I think if we could get to the point where 
Iraq can be a model of free representative democratic 
government by an Arab standard, not--I mean, Japan's democracy 
is different from ours, is different from England's. Iraq's 
democracy will be different from Poland's and different from 
Romania's, but if Iraq can present an example to the Arab world 
that is a positive example, I think, just as we have seen the 
power of example operate in East Asia or in Europe, I think it 
can operate in the Middle East in the Muslim world.
    It is hard to say exactly how. It is not a domino effect. 
It is not that Iraq affects the country next door, which 
affects--it is not a physical thing. It is a psychological and 
political and sort of moral impact, which can be large.
    I just met with the Foreign Minister of Morocco, who was 
very emphatic about what a positive effect the demise of the 
Saddam Hussein regime had on the Arab world, and Morocco is one 
of those countries that is making some of the most courageous 
steps to try to expand the realm of political freedom and 
democracy in that country.
    Senator Chafee. Could you elaborate, please, on how you see 
this affecting progress between the Palestinians and the 
Israelis?
    Mr. Wolfowitz. Well, as I said, it removes a factor that 
was deeply opposed to progress. In fact, it is not at all 
insignificant that when the Arab League organized against Anwar 
Sadat's peace efforts 20 years ago, it was led by Saddam 
Hussein and it was known as the Baghdad Summit. He has clearly 
been openly and probably less openly on a larger scale 
financing and supporting terrorism among the Palestinians, and 
I suspect also aligning with those people--and this is 
important--who, one of the biggest obstacles to peace is not 
just the terrorism against Israelis, but the threats that arise 
against those Palestinians who want to make progress, so I 
think that is a help.
    I think, as I said, the ability now of the moderate Arab 
countries to step up to the plate more easily is a help, but 
without any question, the commitment of the United States, the 
commitment of this President, the understanding that we have a 
major role to play, and I think that we have credibility in 
playing it that we did not have before.
    The problem is incredibly difficult, let us not 
underestimate it, but I think the stakes are also huge. If 2 
years from now, 3 years from now we could have the dual 
victories of a successful, prospering, free and democratic Iraq 
on the one hand, and a peace between Israelis and Palestinians 
on the other, those will be massive victories in the war 
against terrorism.
    Senator Chafee. Yes, I could not agree more, and seeing as 
how my light is still green, could you just reaffirm the 
President's commitment to the ``road map'' in these very, very 
difficult times as more than ever, with increased terrorist 
acts, the pressure to cease the settlements and to get the 
parties back talking about adhering to a ``road map''?
    Mr. Wolfowitz. Senator Chafee, you have heard him say it in 
public, I have heard him say it in private, and in 
circumstances where there was no need to reaffirm his 
commitment. He, I believe, has understood from the beginning 
that it has got to be a major initiative coming off of a 
successful war in Iraq.
    Senator Chafee. And my last question would be, there are 
those that question that commitment, and I suppose they want to 
see something accomplished on the settlement issue. What could 
you propose on that?
    Mr. Wolfowitz. I think I will turn to my colleagues in the 
State Department. This is a very tough problem, but I heard 
Henry Kissinger put it in a way that I thought captured the 
issue rather well. The Palestinians fear that Sharon is only 
prepared to grant them a shrunken kind of Bantustan sort of 
entity that would not be a State. The Israelis fear the 
Palestinians want a State only as a cease-fire and a stepping 
stone to the destruction of Israel, and I think both sides need 
some reassurance.
    The Palestinians need some reassurance, which I think needs 
to come from us, that, in fact, the outcome is going to be a 
viable Palestinian State, and that obviously means the 
elimination of large areas of Israeli settlement activity, or 
at least a complete change in their status. At the same time, I 
think Israel needs the assurance that this really will be peace 
and not just a step on the way to something worse, and as I 
said, in this meeting with Europeans on the weekend, I think 
Europe needs to step up to the plate in terms of reassuring 
Israel. Both sides need reassurance, and outside parties I 
think have a big role to play now.
    And finally, and I come back to my point about the Saudis, 
the Saudis in particular, but moderate Arab States in general, 
Egypt is important, could play a big role in part of that 
reassurance effort and also in, I think, encouraging the 
Palestinians to be reasonable on some of the more difficult 
issues.
    Senator Chafee. Yes. I will make the one comment that from 
visits that I get from Arab emissaries, they represent that it 
is just going to be physically impossible in not too long a 
time to have the President's vision of a Palestinian State on 
the West Bank as the settlements continue, that it is going to 
be physically impossible to have that happen.
    I will now, since the chairman has given me the authority, 
turn to Senator Dodd.
    Senator Dodd. Thank you very much, Mr. Chairman. How do you 
like the sound of that word, Mr. Chairman?
    Senator Chafee. Love it.
    Senator Dodd. Thank you very much. Let me thank our 
witnesses, and I apologize for arriving a little bit late.
    I am sorry I was not at Bilderberg this weekend. I gather 
from my colleague from New Jersey it was a rather lively 
discussion with the Secretary. I will leave it at that. I do 
not know if time will permit me to follow two lines of 
questioning, but let me proceed if I can. I would like to ask 
you to comment on the role of international inspectors, and let 
me preface the question with this, if I may.
    Generally, we have asked--the United States, we have called 
on the IAEA, as I understand it, to play more of a leading role 
in condemning Iran for its alleged nuclear weapons program, and 
I think that is the appropriate and proper thing to do, yet we 
appeared almost simultaneously, at least it does appear this 
way, to undercut the IAEA's credibility with Iraq, and let me 
tell you why I say that.
    The IAEA, as you know, is responsible for carrying out the 
U.N. weapons inspections in Iraq under Resolution 1441. Its 
inspectors, I think most would agree, have some pretty solid 
information of sites, suspected links to nuclear weapons 
programs, along with detailed inventories of existing Iraqi 
inventories of low enriched uranium and spent fuel stored under 
IAEA physical safeguards. Since the end of the war, the United 
States has refused to allow the IAEA inspectors to return to 
Iraq to verify that no tampering with the safeguards has 
occurred.
    At the same time, we barred UNMOVIC--if that is how you 
pronounce that--teams headed by Hans Blix from Iraq, and this 
week, after Mohammed ElBaradei issued an ominous warning that 
looted radioactive material may create a, to quote him, 
``humanitarian nightmare,'' Secretary Rumsfeld expressed some 
flexibility on the possible return of IAEA inspectors.
    I wonder if you might describe the current state of 
discussions for us between our government and the IAEA, and 
their possible return to Iraq, and second, what lay behind this 
month-long delay in starting these talks with IAEA? At the very 
least, we could have exchanged some notes, I think, on their 
detailed knowledge of pre-Iraqi stocks of the low enriched 
uranium and spent fuel cells and the like, so you would comment 
generally where we are with this, and if you disagree with any 
characterization I have made about this, certainly feel free to 
respond to that as well.
    Mr. Wolfowitz. I honestly do not have the sort of detailed 
track record on who said what to whom over the last few weeks. 
What I do know now is that--and by the way, I am making an 
assumption. I know how difficult it has been just to get 
civilians into Baghdad for the reconstruction effort. I mean, 
every single new job that we had, especially if it involves 
protecting civilians, is another burden on CENTCOM, and that 
has come up over and over again in a whole bunch of issues that 
have no political overtone to them whatsoever.
    In any case, where we are today is that we are--and the 
U.N. resolution obviously helps also to eliminate some of the 
possible barriers. We are happy to have them come. We are, I 
believe, in discussions with them about who would come and for 
what purposes, but there is no desire to keep them away, and I 
think they do have something useful to contribute.
    Senator Dodd. Do you have any idea when that may occur? Are 
we going to try and facilitate their return, and tell me about 
this latest report that was described as a humanitarian 
nightmare. If we have actually lost materials, what can you 
tell us about that?
    Mr. Wolfowitz. I have seen the same reports that there has 
been some looting of sites where people may have picked up 
radioactive material. We are not sure who did it, or therefore 
why they might have done it. If they did not know what they 
were doing, obviously they could have caused themselves a lot 
of trouble.
    General Pace, can you comment on how many of the sites are 
currently secured?
    General Pace. Sir, there are 22 known sites, and they are 
all secure right now. I am not 100 percent sure of the details 
on the health hazard, Senator, but I do know that there are 
some containers that were holding yellowcake that were taken by 
local people. The yellowcake was dumped out of it and the 
containers were being used to hold water, which, of course, 
creates a radiological hazard for the people who are drinking 
that water. The containers have all been recovered, and there 
are medical teams onsite trying to assist with determining 
what, if any, contamination the local people contracted.
    Senator Dodd. Thank you for that, and any more information 
on that, I am sure the Armed Services Committee would be 
interested, and we would be as well, I think, in this 
committee.
    And I do not know if it is the major rationale, one of the 
major rationales for taking military action in Iraq was 
obviously the weapons of mass destruction, and so I appreciate 
the news that we are allowing them to come back in, but it 
seems to me it should have been a higher priority to some 
degree, given their knowledge, and the possible loss of some of 
these materials to terrorist States or terrorist organizations 
and groups is disturbing, but I am heartened to know that they 
are moving back in.
    Quickly again, and I do not know how much time we have 
here, but I would like to ask you as well about the looting 
that is going on, and what we sort of anticipated here? 
Obviously, we have all read the stories about the 
archaeological losses, the museums, the libraries. In fact, I 
am told that the destruction as a result of looting exceeds the 
destruction that was caused by the bombing during the phase of 
the war, and I wonder if, No. 1, did we anticipate that this 
might be a problem following the collapse of the regime?
    I am told that there were warnings that we received from 
archaeologists and others that this might occur prior to the 
actual commencement of hostilities, and if there were warnings, 
why were not they heeded, or at least apparently not heeded, 
and I wonder if you might share with us whatever discussion 
might have taken place, now that it is after the fact, in 
planning for this, to the extent we thought this might be a 
problem, and what steps we were going to take to address it.
    Mr. Wolfowitz. Let me speak specifically to the museum and 
ask General Pace to speak to the larger issue of how the 
military planning anticipated this issue.
    We had a lot of information from archaeologists about 
cultural sites in Iraq which was frankly, to the best of my 
knowledge, fed in primarily to our people doing targeting to 
make sure that we did not damage those sites mistakenly. The 
museum is still a little bit of a mystery, and I do not think 
we have gotten to the bottom of it yet, but one member of a 
foreign embassy in Baghdad who tried to visit the museum some 3 
weeks before the war was told that the museum was closed and 
most of the artifacts had been put into storage, and looking 
through the doors of the museum it looked to him as though most 
stuff had been put away, which would suggest that whatever 
happened to it afterwards was something other than a 
straightforward looting job.
    The good news is that through a combination of rewards and 
border controls and just straightforward cooperation from Iraqi 
people I am told we have now recovered all but 38 of the 
objects, which is a pretty good record, and obviously we would 
still like to get the rest of them.
    The museum story got, understandably, a special amount of 
attention, I think like some of the other--I am not saying 
there is not a great deal of random looting. Clearly, in the 
initial days some of the looting was by people who were just 
furious at the regime, and it was a chance to strike back at 
the regime.
    The disturbing point which I make in my testimony is, I 
think today there is clear evidence that some of the looting is 
aimed deliberately at sabotaging reconstruction efforts, that 
it has no economic purpose, but it looks to be organized by 
Baathist elements supporting the old regime.
    General Pace, do you want to comment on the military 
planning?
    Senator Dodd. Yes, was this anticipated in any way, 
general?
    General Pace. Sir, this was, and it was in combination with 
many things that we tried to plan for. Looting was one, Shia 
versus Shia, Shia versus Sunni, Sunni versus Sunni killings was 
another, the oil fields being destroyed and how to avoid that 
was another, the weapons of mass destruction was still another.
    So at the end of the day, when General Franks made his 
recommendations to the Secretary and to the President, he had 
to balance between a force size that he was comfortable was 
sufficient to complete the military campaign, but one that may 
not have been sufficient to completely pulse the entire nation 
at one time as far as stability was concerned, but on balance, 
the fact that the speed of the assault and the accuracy and the 
precision of the bombing on balance, the fact that you did not 
have the oil fields destroyed, you did not have weapons shot at 
neighboring countries, the fact that you were able to quickly 
get into Baghdad, that we did not have to bomb Baghdad 
mercilessly for days on end, because we were able to get in 
quickly with a relatively small force, that outweighed the 
concerns of not having initially enough forces on the ground to 
prevent things like looting.
    Senator Dodd. My time is up, but what I am hearing you 
saying, in other words, there was an argument being made as 
proposals were put on the table that this debate that we all 
read about at the time, the argument over a larger or a smaller 
force, that, in fact, the argument for a larger force would 
have been, we would be better able to deal with the after-
conflict consequences such as this, but a decision was made for 
the smaller force, recognizing that as a result of that we 
probably would not be in a position then to deal with some of 
the anticipated problems that we should have been----
    General Pace. To my knowledge, that was all part of the 
fabric of the discussion, and we could still be right now 
adding forces into Kuwait, waiting for the attack, if we wanted 
to be able to have enough forces to be able to do everything 
that we thought we might have to do. Fortunately, we did not 
have to do a lot of the things we thought we might have to do. 
We ended up having to do the piece with looting, but on balance 
militarily the amount of death and destruction that was caused 
by going early is so much less than what we would be doing now 
had we gone in with a larger force and had we given him time to 
think through his defenses. We moved so quickly that he never 
was able to react, and because of that we saved a lot of lives 
on both sides.
    Senator Dodd. Thanks, Mr. Chairman.
    Senator Chafee. Senator Allen.
    Senator Allen. Thank you, Mr. Chairman. I want to 
congratulate the General and the Deputy Secretary, and 
obviously our men and women in uniform for a magnificently 
well-done job as far as the military use of technology and 
precision-guided missiles. While there may be some who might be 
Monday-morning quarterbacking, I think it is one of the most 
historic changes in warfare. In the previous wars, you would 
pummel the population until your combatant would just give up, 
and that has not been the case here.
    Now, in light of the United Nations resolution's success 
today, one of the previous questions raised the point of the 
cost associated with long-term reconstruction or rebuilding, or 
formation of some sort of a government, whether it is a 
federation, confederation, local up, which makes sense. That is 
the way our country was founded. It was first the States that 
then formed the union from a confederation, then to our 
Constitution.
    Are we now exploring the option of including willing allies 
more actively in mitigating the cost to the United States 
taxpayers in this effort of constituting a new government and 
bringing the basics to Iraq?
    Mr. Wolfowitz. Yes, Senator. We have actually been doing it 
even before the U.N. resolution, and maybe ask Alan Larson to 
provide more detail, but I think the different forms of 
assistance that were pledged were already beginning to approach 
$2 billion. The passage of the U.N. resolution also should give 
us, or rather give the Iraqis access to frozen assets in a 
number of countries.
    There is some $12 billion in an escrow account in Paris 
under Oil for Food which has got to now be reviewed by the 
Secretary General to see--I imagine he will find that some of 
those dollars were committed to contracts to buy trucks to 
transport tanks and luxurious Mercedes for Baath Party 
officials, so I think there is some reallocation that can take 
place there, but I think most importantly the U.N. resolution 
opens the opportunity for much larger-scale support, including 
from the World Bank.
    But Under Secretary Larson, do you want to comment?
    Mr. Larson. Thank you very much. As Secretary Wolfowitz 
said, we have been in active consultation for several weeks now 
with both coalition members, but a number of noncoalition 
members about the importance of supporting the Iraqi people and 
reclaiming the country. There has already been very active 
international support for humanitarian relief. There has been 
very active support on the part of some countries for other 
elements of the program.
    At this stage I think we really have cleared the decks to 
make a concerted effort internationally. The World Bank and the 
United Nations Development Program can be part of that by 
setting out a needs assessment that can be part of the 
benchmark of needs that can contribute to what Ambassador 
Bremer and the team on the ground are sizing up as the 
important development needs. We would intend to go forward 
very, very quickly now in assembling the international 
community to discuss those needs and to solicit contributions 
and cash in kind.
    Senator Allen. Could you very shortly, because I want to 
get on to another point, state what percentage you think the 
United States will be contributing to this, and what will other 
nations' percentage be? If you do not feel comfortable saying 
it, please say so.
    Mr. Wolfowitz. I really do not. In a couple of months we 
might have a better fix on that.
    Senator Allen. OK. Fair enough. We will followup on that.
    Mr. Wolfowitz. We are really trying to have the last dollar 
come from the U.S. taxpayer rather than the first. That is the 
principle.
    Senator Allen. As long as you have that good guiding 
principle, and I very much appreciate, Secretary Wolfowitz, the 
details of the lay of the land right now, some of the 
challenges and so forth. Here is where I think we need to go, 
and I think the President laid out the guiding principles in 
his speech earlier this year at VMI when he was talking about 
Afghanistan, and here should be our guiding principles in Iraq 
as well.
    He was talking about ensuring that the people live in 
dignity to create and build and own property, to raise their 
children in peace and security. The President went on to say 
that dignity requires the rule of law, limits on the power of 
the State, respect for women, which is more of an issue in 
Afghanistan than necessarily Iraq, but still important in both 
countries, private property, equal justice, and religious 
tolerance.
    Those are the foundational principles of individual rights, 
and one of those individual rights is religious beliefs, 
peaceful expression, private property, and then a rule of law 
where you get fair adjudication of disputes where property and 
other God-given rights of individuals are protected, and to the 
extent that we can bring out that idea, it is capitalism--you 
may say it is on the model, for example, of the Alaska 
Permanent Fund, or the concepts that Hernando deSoto talks 
about, capitalism for property, where people care more about 
their property, title to it, and the country.
    When Secretary Powell was here recently I asked him about 
these sort of concepts insofar as oil is concerned, that--maybe 
it is not exactly like the Alaska Permanent Fund, but as oil 
and the fields were protected, as oil starts being produced, 
the concept of allowing the people to have a small dividend, it 
may be $50, $100, whatever it may be, to show that it is an 
asset of the people of Iraq. Have these concepts been 
contemplated and are they being formulated? Because when one 
looks at a Marshall Plan, whether it was in Europe or whether 
it was what General MacArthur was able to do in Japan, those 
would be, to me, the models that we ought to be looking at. A 
lot of those are based on those fundamental principles of 
private property rights and having the people actually own 
their government and some of the resources.
    Mr. Wolfowitz. We agree with you that those are some of the 
most fundamental decisions that have to be taken, and I think--
I am not sure if you were here when I mentioned earlier that 
Peter McPherson, who is a former Deputy Secretary of the 
Treasury, president of Michigan State University, has taken a 
leave of several months to go out there to be the organizer of 
that whole effort, and it is huge. I mean, it really requires 
rethinking the whole property basis of a State that was 
national socialist, I suppose, in the fascist model, and also 
we talk often about the advantage of Iraq's oil resources, and 
the advantages are huge, but in many ways, oil is a curse as 
well because it discourages sometimes the development of other 
economic activity, which has got to be the real long-term 
health of the country.
    So there are big issues there, huge issues. I cannot say 
they are sorted out yet, and ultimately, to some extent they 
need to be Iraqi decisions, but we would like to make sure that 
while we are there and before we leave that we have got it on 
the right course, because I agree with you, you cannot divorce 
those issues from the other fundamental issues of political 
freedom.
    I might just say on that point, by the way, you mentioned 
religious differences. I was very heartened a couple of weeks 
ago I met with a group of U.S. Shia, several Iraqi-Americans 
looking like Shia clerics of Najaf or Karbala. One of them is 
the representative in North America of Ayatollah Sistani. 
Uniformly from all of them the message was, we as Shia do not 
believe in religion interfering in the State. What we want is 
freedom to practice our religion in Iraq the way we practice it 
here, and I must say I found them very sincere in the way they 
spoke.
    Senator Allen. Thank you very much, Mr. Secretary. I look 
forward to working with you in constructing those sorts of 
ideas, and to the best you can implement them there. It seems 
like some of those Jeffersonian principles at least have taken 
root here, and hopefully can take root there in Iraq.
    Thank you.
    Senator Allen. Thanks, Mr. Chairman.
    Senator Chafee. Thank you, Senator Allen.
    Senator Nelson.
    Senator Nelson. Thank you, Mr. Chairman.
    Deputy Secretary, General, Ambassadors, if this CNN report 
is true that General Franks is retiring, he is certainly 
retiring after two enormously successful military campaigns, so 
he has served us very well, and he happens to reside in Tampa, 
Florida.
    Mr. Wolfowitz. And he is a great leader.
    Senator Nelson. Mr. Secretary, tell us, what is all the 
flap as to why General Garner is gone?
    Mr. Wolfowitz. Senator, he is not gone.
    Senator Nelson. You know what I mean.
    Mr. Wolfowitz. Well, I do. Let me say this. When we first 
approached Jay Garner in January to organize this Office of 
Reconstruction and Humanitarian Affairs it was not even 
necessarily with the notion that he himself would go to Iraq, 
but from the beginning we said, there is a function we would 
like you to perform which is getting a team up and organized to 
make sure that the ministries can run properly and basic 
services can be delivered, but there is going to be a senior 
civilian in charge of the whole operation, and particularly 
with a focus on the political side of the process.
    That was envisioned from the beginning, and so we did not 
appoint Ambassador Bremer because of any dissatisfaction with 
Jay Garner. He has been doing a magnificent job and we hope he 
will stay for sometime more.
    Senator Nelson. Would you like to inform the committee of 
anything that you might know in the hunt for Captain Scott 
Speicher?
    Mr. Wolfowitz. He is one of the important priorities. We 
are searching for information about him. I wish I could tell 
you that we have found a lot. We have had one trace here and 
another trace there, but that seems to be the extent of it. We 
are deploying, I think--General Pace, is it right now, or 
shortly--something we call the Iraq Survey Group, which is a 
team led by Major General Dayton of some 1,500 people focused 
on searching for information about weapons of mass destruction, 
information about terrorists, documentation of war crimes, and 
specifically looking for Commander Speicher, so we will keep--I 
think the key to finding almost all of this stuff is going to 
be finding Iraqis who will talk to us, and creating the 
conditions under which they have the right incentives to talk.
    Senator Nelson. Prior to the deployment of this team that 
you are talking about, how many people are searching for 
Speicher?
    General Pace. Sir, I might be able to help on that. Captain 
Speicher's whereabouts was a top priority from day one. We have 
chased down every lead we have gotten. It is one of the things 
we are interrogating our detainees and our prisoners about, so 
it is not the number of teams, sir. It is just that every time 
we get a bit of information, General Franks and his folks on 
the ground send a team to wherever it is to find out, so we are 
doing it as quickly--it is not a matter of manpower, sir, it is 
a matter of leads, and the interrogation teams have that as one 
of their prime objectives when they are questioning people.
    Senator Nelson. General, I might offer for you and the 
Deputy Secretary to consider, it has been, as you said, a 
couple of months, I do not know how many days you said since we 
have been in there, and what might be helpful is you, and I 
know exactly how many people that we have in there, and I am 
concerned that we do not have enough.
    I do know that it was clearly a priority for General 
Franks, and I have thanked him personally for that, but I think 
what you have is some people who have been detailed, that you 
might want to get some higher-visibility leadership 
specifically tasked with regard to Captain Speicher.
    Needless to say, you know, it is a downer every day that we 
do not get any information, and I am hoping that that cell 
where they found his initials is going to render some kind of 
forensic evidence.
    Mr. Secretary, how many of the 55 top leaders have we now 
in custody?
    Mr. Wolfowitz. I think the number just went up to 25 or 26.
    General Pace. Yes, sir. I think 25 alive, one confirmed 
dead.
    Senator Nelson. So 26 of the 55 we have accounted for?
    General Pace. Yes, sir.
    Senator Nelson. Can you explain to the committee what it 
is, the conditions that would allow the remaining 29 to be at 
large, Mr. Secretary?
    Mr. Wolfowitz. I think that it is the same conditions that 
allow armed groups, the Baathists to continue sabotaging key 
facilities, attacking our people. I assume these folks are 
hiding in neighborhoods or areas where for one reason or 
another the local residents are prepared to protect them and 
shelter them, either out of sympathy or out of fear, or maybe 
some combination of both.
    In a country that large, I mean, Baghdad is a city the size 
of Los Angeles, and to me it is not surprising that it takes 
some time to root them out.
    I hope that success builds on success, and as more of these 
people are detained, and as the population begins to recognize 
that the Baathists are being brought under control, that the 
fear factor will start to eliminate, and then we will have 
people turning these folks in.
    Senator Nelson. Including Saddam Hussein?
    Mr. Wolfowitz. If he is alive. We do not know.
    Senator Nelson. What would you characterize as the level of 
cooperation with the President of Syria and the Government of 
Syria?
    Mr. Wolfowitz. I think I should leave that to the State 
Department, but let me put it this way, the most destabilizing 
activities that Syria was engaged in in Iraq a few weeks ago 
have stopped. Beyond that--Al, do you want to----
    Mr. Larson. I would just make the very simple statement, 
Senator, that when Secretary Powell was there, he had a very, 
very explicit conversation about the way in which the world and 
the region had changed, and the importance of the leadership 
there in recognizing that change and making the right choices, 
and it was not just a general conversation, it was very 
specific about a number of areas where we have concerns.
    At this stage I think we are in the let us wait and see 
exactly how they respond to that message.
    General Pace. Senator, we are out of time, sir, and I 
apologize, but I would be remiss as a military man if I did not 
thank you for what you are doing to try to find Captain 
Speicher, and your very intense, sustained interest in his 
case, sir, and all of us in uniform appreciate the fact that 
you are not giving up, and neither are we, sir.
    Senator Nelson. And I thank you. The family, of course, is 
from Jacksonville, and you can imagine what the family has been 
going through, not just recently, but for over 12 years, and, 
of course, one of the greatest military principles that you 
have as a commander is, you do not leave a downed pilot. You go 
and try to get him, and through a series of mistakes we left a 
downed pilot.
    And then when we asked for prisoners of war we did not even 
ask for him. They asked for remains, and of course Iraq did not 
have remains, they had the prisoner, and so through one series 
of mistakes after another we are where we are, and that is why 
I think it is an important principle to follow.
    Thank you, general. Thank you, Mr. Chairman.
    The Chairman [presiding]. And thank you, Senator Nelson. I 
thank you, too, General Pace, for commending our colleague. It 
is certainly important.
    I am going to recognize Senator Feingold in a moment. Let 
me try to explain to the remaining Senators and those of you 
who are with us that some compromises were made. Some roll call 
votes have been forgone, but one is in process now that was 
unavoidable, and we really do not know what the prospects are 
for the future, but nevertheless we will have a hiatus, I 
think, of that type of activity and our colleagues will return, 
but I believe Senator Feingold has voted, as I have, and so we 
are here, and I will recognize my colleague, Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, very much, and I 
want to thank Secretary Wolfowitz and everybody for staying 
here.
    Let me first return to a comment that Senator Biden made 
when he started his questions, where he talked about the Bosnia 
commitment. I remember it well. I voted against the Bosnia 
action because I did not believe this idea that the American 
people were promised we would be there for 1 year, and it is 
really quite something to hear the fact that we have been there 
for 8 years cited as a plus. I understand why you say it, but 
the problem is that that mission was sold to the American 
people on the basis that those men and women would be home by 
the Christmas of 1996. I knew it would not happen that way, and 
it is funny how these things just sort of get lost in the mist 
of time.
    Now, I give you credit, you did not give a specific time 
commitment with regard to Iraq, but the problem is that the 
American people I think were led to believe that it would not 
be a terribly long time commitment. I am suspicious, as Senator 
Biden is, that this may, in fact, be a very, very long 
commitment, and I agree with him that our constituents were not 
really prepared for that, and that is how it was sold in part 
to the American people.
    Speaking of how things are sold, I am struck by the fact 
that after 2 hours, well over 2 hours of a hearing that is 
about stabilizing and reconstructing Iraq, we have heard quite 
a bit about reconstruction, and I do agree with the chairman 
that you did give an all-points view of the reconstruction, but 
for over 2 hours, until Senator Dodd apparently mentioned 
weapons of mass destruction, there was no conversation about 
stabilizing that aspect of Iraq. That is why I say this is 
about speaking of how things are sold, because there can be no 
doubt that the preeminent reason why this Congress voted to 
invade Iraq was in order to make sure that Saddam Hussein's 
weapons of mass destruction were disarmed and that that country 
was stabilized from the point of view of weapons of mass 
destruction more than anything else.
    So I do think that it matters whether or not we find WMD in 
Iraq. Most importantly, it matters because if those materials 
were in the country in the first place, and we cannot find them 
now, that is a security problem. Where did they go? Whose hands 
are they in? So I want to explore some of our efforts to date 
in this regard.
    Just last week, the New York Times reported that the 
nuclear expert for the Army's Mobile Exploitation Team Alpha 
was unaware of any U.S. policy as to how to handle radioactive 
material that may be found in Iraq, material that could be used 
to make a dirty bomb. Does such a policy exist, and has it been 
disseminated to the troops on the ground, Mr. Deputy Secretary?
    Mr. Wolfowitz. Pete, do you know the answer to that?
    General Pace. Sir, the inspection teams that we have had on 
the ground are specifically trained to find chemical, 
biological, and nuclear, and they know that what they find is 
to be handled with the sensitivity that that kind of a 
potential weapon has, so it is not to be transported, it is to 
be kept where it is until it is determined exactly what it is 
as best we can, and then as we determine what it is, we will 
determine then how to proceed with its destruction or its 
transfer somewhere else, so there are rules that have been 
given to those who are searching, on what to do when they find 
it, sir.
    Senator Feingold. Are you saying this report is wrong, 
then, the New York Times is wrong when they quoted the Army's 
Mobile Exploitation Team Alpha expert that there was no U.S. 
policy on how to handle radioactive material? Is there a 
policy?
    General Pace. Sir, I am not familiar with that report, and 
I am not sure how you are using the word, policy. What I am 
saying is, the military commanders on the ground have told 
their military folks who are doing the inspections what they 
are to do when they find materials that they suspect of being 
chemical, biological, or radiological.
    Senator Feingold. Let me try to followup with you in 
subsequent questions, but let me move on to on May 11, when the 
Washington Post reported that the group directing the U.S. 
search for weapons of mass destruction in Iraq is, ``winding 
down operations,'' after a host of fruitless missions. A more 
recent article reported that three of four Mobile Exploitation 
Teams have stopped hunting for WMD, and that all of the site 
survey teams are dedicating more and more time to work not 
related to the search for WMD.
    I would like to know, Deputy Secretary Wolfowitz, if this 
is accurate, why are some of the teams wrapping up, given the 
fact that we have actually found very little of the material 
that has been catalogued as unaccounted for for many months?
    Mr. Wolfowitz. Senator, we are not wrapping up the effort. 
In fact, we are stepping it up. We are deploying something much 
larger called the Iraq Survey Group, which, as I mentioned 
earlier, some 1,500 people specifically organized for this 
task. I think the mobile teams--and I will ask General Pace to 
correct me if I am wrong--I think the mobile teams are, to some 
extent, going to be folded into that effort, but it is going to 
be organized and directed at a much more senior level by Major 
General Keith Dayton, and we are not dropping the effort. If 
anything, we are intensifying it.
    But I think the important point to emphasize, too, is that 
at the end of the day, I believe the way we are going to have 
to get on this stuff is through information provided to us by 
people that know about it. That is probably going to be more 
fruitful than any number of sites that we can go through and 
dig up.
    I think someone asked earlier how is it possible for some 
of these senior Iraqi leaders to still be hiding, and the 
answer is, it is a big country, and there are a lot of places 
to hide, and in the case of the weapons of mass destruction 
there have been 12 years of conscious, deliberate effort to 
hide the program, as indicated, for example, in the mobile 
trailers that we have discovered that Secretary Powell spoke 
about at the United Nations.
    That is why, from the beginning of the U.N. effort, we put 
so much emphasis on giving the inspectors unprecedented 
authority to take Iraqi scientists and other knowledgeable 
people out of the country with their families so they could be 
interviewed in circumstances that were free from intimidation, 
and I think it is going to remain the key to finding out what 
has happened to Saddam's chemical and biological weapons and 
his nuclear program, having people who know about it tell us 
about it.
    Senator Feingold. Well, does each team that is doing this 
have one Arabic speaker so the team can read the documents and 
signs and understand what they are looking at?
    Mr. Wolfowitz. Obviously, linguists are one of the very 
important elements of the Iraq Survey Group. I can give you for 
the record the exact numbers.
    We have also been making a serious effort to recruit 
through contractors and other sources Iraqi-Americans, of whom 
quite a few hundred are prepared to go out to the region and 
help us in a variety of tasks, and one of those they could 
obviously be very helpful on is translating documents and 
scanning through the large mass of documents.
    Part of our problem is just the sheer volume of what we are 
collecting. Some of it is valuable and some of it is junk.
    Senator Feingold. I am pleased you are making those 
efforts, but what I would like to know, and perhaps you would 
have to tell me subsequently is, at this point, is there an 
Arabic speaker with each of these teams? I guess my time is up, 
but I would also submit for the record, Mr. Secretary, I would 
like to know what is the plan for securing the top 19 weapons 
of mass destruction sites identified by Central Command, and 
why were these sites not protected from looting.
    Thank you, Mr. Chairman.
    [The following response was subsequently received:]
       plan for securing top 19 weapons of mass destruction sites
    The intelligence community in conjunction with USCENTCOM identified 
nearly 600 potential Weapons of Mass Destruction (WMD) sites in Iraq 
prior to the beginning of military action. These sites were rank 
ordered based upon the likelihood of finding WMD activity. USCENTCOM 
ordered CFLCC to secure the top 130 WMD sites as ongoing combat 
operations permitted. Site Survey Teams (SSTs) comprised of WMD experts 
from the Defense Threat Reduction Agency (DTRA) were embedded in 
maneuver units and were tasked to determine whether WMD or evidence of 
WMD were present at sites as they were captured and identified. In 
accordance with the USCENTCOM plan, security was maintained at sites 
with evidence of WMD or requiring further exploitation.
    On 11 May 03 USCENTCOM ordered the Combined Forces Land Component 
Commander (CFLCC) to secure 22 nuclear sites. Only 2 out of the 22 
nuclear sites were among the top 130 WMD sites because most were 
historical sites not assessed to have radiological or nuclear sources.
    Some sites were looted after they were abandoned by regime 
authorities and before combat operations permitted coalition forces to 
secure them. It has yet to be determined whether any WMD materials were 
removed from these sites.

    The Chairman. Thank you very much, Senator Feingold.
    Senator Brownback.
    Senator Brownback. Thank you very much, Mr. Chairman, and I 
want to thank the panel for hanging in here on a long 
afternoon. I appreciate it--although some of you have not been 
working as hard as others, but I appreciate very much your 
being here.
    Let me also say at the outset, as several others have said, 
fantastic plan and job. I realize you are still in a very 
difficult part of working with Iraq, but the military campaign, 
it appeared to me, not one schooled in military arts, but it 
appeared to me from outside to be incredibly successful.
    I can pass on to you from Jacob Butler's family, he was a 
soldier from Kansas who died in action, and I have met and 
visited with his family several times--how proud they were of 
him and what the country has done, and they wanted me to pass 
that along personally to the President, and this is a family 
who has given the ultimate, and a soldier who was lost, but in 
a wonderful cause.
    And I think you also provide the images that we all yearn 
to see, and that is of the face of freedom, and that face of 
freedom in Baghdad is the same as it is anywhere else in the 
world, and it is a beautiful face.
    We obviously have plenty of difficulties. I have been in 
communication with people on the ground in Iraq. I know some of 
the difficulties that you are confronting, and I know you will 
work through those as well, although I think it is going to be 
a difficult time, as we are getting from this hearing.
    If I could, Deputy Secretary Wolfowitz, yet again all on 
you in the questioning, and I apologize that I have been in and 
out some, but I wanted to focus on Iran and a statement you 
have got in your testimony that has been troubling me in the 
meetings that I have been having with different individuals. 
You note on page 10 of your testimony that Baathist remnants 
and Iranian-oriented theocratic groups constitute at present 
our main concerns with respect to the political reconstruction 
of Iraq, is what you state, and I have been deeply concerned 
about what is taking place in Iran, of the PUSH, the difficulty 
that they are creating for us in Iraq.
    I do not know the degree in Afghanistan. I understand from 
Pakistani officials that the Iranian-backed groups continue to 
cause them concern in Pakistan. We had two newspaper reports of 
al-Qaeda operatives or headquarter-type figures in al-Qaeda 
operating out of Iran, and I would like to hear your thoughts 
and comments about, are we going to be able to stabilize the 
region and move forward with this much broader, grander vision 
of the spread of democracy in the region with the difficulty we 
continue to confront from the dictatorial regime that is in 
Iran, if you can give us any thinking about that, the problems 
it poses to us?
    Mr. Wolfowitz. Well, as I did indicate in my statement, I 
think that is one of the threats to building the kind of stable 
and free and democratic Iraq that we would like to see. I think 
that kind of Iraq poses a special challenge to the regime in 
Iran in two important respects, and it is a reason why I think 
it is an opportunity for us.
    I think first of all, just the example of a free and 
democratic country next door is one that is likely to inspire 
the Iranian people, 75 percent of whom voted for opposition 
figures some 5 years ago, but the country is still run by the 
people who lost the election. That is part of the problem.
    I think also it is important, and it is an opportunity if 
we are right in thinking that a significant portion of the Shia 
population of Iraq do not welcome the idea of theocratic rule, 
and if, as is the case, Iraq is really the heartland of Shia 
Islam, then that will be a challenge even to the theological 
basis of the Iranian regime.
    I think for both those reasons they are not only ambitious 
about Iraq, they are kind of fearful about Iraq, and whichever 
the motive, we have seen evidence of the willingness to 
interfere, and that simply cannot be tolerated. We will do 
everything we can to prevent it, and the one good thing in all 
of this is my sense is the Iraqi people do not want to be 
governed from Tehran, or told what to do by some Persian 
ayatollahs when they think, as the Arab Shia, they are the ones 
who really ought to be the authority.
    So I think we have a certain fundamental political sympathy 
on our side, and I think we will have to make sure that the 
Iranians do not use other means to try to destabilize the 
situation.
    Senator Brownback. I really applaud your grand vision and 
work in the region that the road to peace is not through 
dictatorships but is through democracy, and the spread of that 
in the region. I think for the first time in 50 years we are on 
a path where you could see us moving toward true peace in a 
region where we have had conflict for an enormous period of 
time. It is a really tough path, but it is the one that 
actually can work. I applaud that.
    I have put forward a bill--we have a number of Democrat and 
Republican cosponsors--called the Iran Democracy Act, and it 
states that it is U.S. policy to support democracy in Iran, and 
authorizes the use of funds for outside groups outside of Iran 
to broadcast into Iran, these private groups, and broadcasting 
messages of freedom and liberty, because it appears to me from 
what I am reading and the information we are getting that there 
is an enormous push from inside Iran for democracy, for a true 
government that represents them, and for a referendum 
supervised from outside Iran for a change of regime, for a 
change of government there.
    I am not suggesting at all a military campaign, but really 
more of a campaign to help the people who are inside who 
already want to push toward a democratic form of governance. It 
seems to me we are going to have trouble stabilizing in the 
region, or that we are always going to have an irritant in the 
form of Iran, given the nature of this regime that is a lead 
sponsor of terrorism in the world today.
    Mr. Wolfowitz. I find myself in great agreement, and I 
think the important point is, it is the Iranian regime that is 
the threat, not the Iranian people. They are a people who 
deserve a better government, and I think most of them recognize 
that what they got out of that revolution 20 years ago is a 
failed situation.
    Senator Brownback. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Brownback.
    We will have further questioning by members who wish to 
question. I will ask just two or three items and then yield to 
the distinguished Senator from Delaware.
    Secretary Wolfowitz, you mentioned the need for linguists, 
and this is a part of my general question. You have mentioned 
that Iraqi-Americans might be enlisted. To what extent do we 
have personnel in the Department of Defense, Department of 
State, or even elsewhere in our government who are really 
prepared for administrative situations, nonmilitary, but 
technical services that are probably going to be required 
either on the financial fiscal level or the democracy-building, 
the governmental side, and probably in fair numbers, and with a 
certain degree of linguistic ability, so that they are 
effective?
    One critique of the current situation has been that there 
are not enough people, at least with language skills. I am not 
in a position to know. Among the 1,000 administrators you 
mentioned, 617 from our government and 400-and-some from 
others, what kinds of talents are encompassed by that group? It 
is a pretty extensive group already, but can you characterize 
either what is there, or what kind of training or what kind of 
resources are already in this country?
    It is a different function from training people we get from 
the military academy, or even the Foreign Service situation, 
although perhaps both are helpful in this respect. In this 
nation-building in which business we are involved, there are a 
lot of technical aspects. Particularly if we are to be 
successful and to round it out, that would seem to be required. 
I am simply curious as to what kind of planning or thought has 
gone into the personnel.
    Mr. Wolfowitz. Certainly I can say anecdotally that we have 
some extremely talented officers and enlisted people. I have 
encountered them in Afghanistan and encountered them in 
northern Iraq 10 years ago, more recently in Bosnia, where the 
division that is carrying out our responsibilities in SFOR 
today is the National Guard division mostly from Kansas and 
Kentucky, and it is interesting that for the jobs that are 
needed in Bosnia, Lieutenant General Kip Ward, who is the 
active duty three-star in charge, says the National Guard 
people bring some real advantages because they transfer skills 
from civilian life into the military situation.
    I do think that one should not make the mistake of assuming 
all of these tasks need to be done, however, by people in 
uniform. And in fact, one of the things that we are trying to 
accomplish, and we have a major initiative here before the 
Congress now, is to be able to change the military, the DOD 
civilian personnel system so that some 300,000 or so jobs that 
are currently performed by people in uniform could be performed 
by civilians.
    Part of that is making it easier to hire civilians into the 
Civil Service, and I encountered this recently when I made a 
major effort to recruit Iraqi-Americans to help us in Iraq, and 
I am happy to say the good news is we have been successful in 
getting some 150 people, including a guy who was a medical 
school professor at the University of South Florida, another 
fellow who is an engineer with Pfizer, very impressive people 
who have taken leave or left their jobs to go and help out in 
Iraq, but it was too difficult to hire them in the Civil 
Service, so they are hired as contractors, and we do an 
enormous amount of those work-arounds, because we do not have 
the flexibility to hire that I think would be helpful.
    I think this challenge of having people who are not only 
bilingual but bicultural is enormous. I mean, it is great to 
train native-born Americans in these difficult languages, and 
we need to do more of it, but we have these huge resources here 
in the United States of Iraqi-Americans, Afghan-Americans, you-
name-it Americans who are more than willing to help out, and we 
are trying to expand those opportunities. I wish we had a 
somewhat more flexible personnel system, because it would be 
easier. I can get you for the record some of the numbers and 
some of where we would like to get to.
    [The following information was subsequently received.]

    The response from the Iraqi-American community, and from Americans 
who speak Arabic, has been significant. Working primarily with the 
community in Dearborn, MI and through our Web site, ``go-defense.com,'' 
we are in receipt of over 1,300 interest forms from Americans of all 
background, but primarily Iraqi-Americans, wishing to assist and 
participate in the reconstruction of Iraq efforts. Given the myriad 
requirements and tasks before us, these individuals would be performing 
a great service to the country for they possess all manner of civilian 
skill and language proficiency so necessary to our cause.
    We are referring resumes we have received to many hiring sources--
contract and internal. Our experience has been that we need a faster 
way to identify requirements and greater flexibility in our ability to 
place interested Americans against these requirements. To assist us in 
this effort--and more particularly to ensure a fair assessment of each 
candidate--we are enlisting the services of a contractor to review and 
verify the credentials of interested persons, and compile a source book 
for user entities.
    We need to arrive at a state where the employment of heritage 
speakers in future operations and contingencies is second nature to us. 
We have one other initiative to recruit these Americans into our 
Individual Ready Reserve (IRR) as linguists. The Army is trying a pilot 
program for us, and is enjoying initial success. Since beginning in 
August, they have contracted 39 soldiers and have, as of mid-September, 
455 leads, of which 157 appear to be pre-qualified. Programs such as 
these hold the promise of providing access to an important part of 
language and cultural expertise.

    The Chairman. Well, that is important. I want to hear from 
you, Ms. Chamberlin, but will you also just for the record 
maybe suggest some legislative language that is going to 
expedite this?
    This really is a major national security problem as opposed 
to simply a hum-drum personnel thing that in the due course of 
time we work out, and I think your idea is inspired. If there 
are that number of Iraqi-Americans who already have the 
language skills, the cultural background, and also the 
expertise that is going to help democracy or is going to help a 
waterworks run, or all the rest of it, we really need to lay 
hands on these. I sympathize with you tremendously that our own 
bureaucracy in its own hum-drum way, even while the world is 
falling apart, is still working out this and that.
    I hope you know that we can be of some help, because 
although I am sure that this committee will certainly pile in 
behind you to try to get something done. It is very urgent.
    Ms. Chamberlin.
    Ms. Chamberlin. Thank you very much, Mr. Chairman. I know 
Senator Brownback would like me to do a little bit of work this 
afternoon, so perhaps I can help a bit here with this answer. 
We, of course, with USAID are members of ORHA and, in fact, our 
USAID Mission Director is double-hatted as the USAID Mission 
Director but also as the Director of ORHA, the pillar of 
reconstruction.
    He is an Arabic speaker. He had been Mission Director in 
Jordan at one time, and that is why we recruited him, but that 
is not how USAID has tried to address this problem of how do we 
reach out for both Americans and people in the region, and 
Iraqis who have a lot to contribute to the effort that we are 
dedicated to, and in this case it is in the sectors of health, 
education, reconstruction and local government.
    We have a mechanism where we reach out to the American 
private sector. It is a group that we have not really talked 
about it very much, but that plays an enormously important role 
in ORHA to deliver some of the objectives of ORHA. We do it 
through our contracting method. We are quite proud of it, but 
we reach out to the American private sector and they in turn 
subcontract to Iraqi-American NGOs.
    We have several of them that are participating in this 
effort and we have, through our contracting, through the 
American private sector, they are hiring at this count about, 
well, several thousand Iraqi-American citizens in our effort in 
several of these sectors, so we are able to expand the pie.
    The Chairman. Thank you very much. That is very helpful 
information. I just want to conclude by saying I appreciated 
General Pace's facts that as many as 18,000 additional military 
personnel might join the 145,000 that are there. Likewise, he 
added that there will be some troops withdrawn among those that 
were involved in the battles early on, and for that matter a 
lot of rotation, I guess, given the reserves and the large 
dependence on that, but that fact alone demonstrates I think 
something that most Americans do not realize, including myself, 
that, in fact, additional people in the military are going to 
Iraq presently.
    There is the general view that a whole rush of people are 
coming out, that it is simply a one-way stream, which is 
totally inaccurate, but, you know, until you told us this, 
maybe others have picked it up somewhere else, we really did 
not know, and so I emphasize again our appreciation to you for 
sharing this information with us and with others, really, 
through this hearing.
    Senator Biden.
    Senator Biden. Thank you very much, Mr. Chairman.
    Along those lines, I would like to request, if you think it 
is appropriate--I think it is in order--that Deputy Secretary 
Wolfowitz, in addition to making briefings available to us in a 
timely way, which you have committed to do and have done in the 
past, and I am confident you will do in the future, that you 
either in classified form and/or in open form in writing, give 
us your best estimates, because I know Under Secretary Larson 
was at this meeting today, on the potential of oil revenue in 
Iraq and whether we are really not going to have to take a lot 
out of our pocket in order to get whatever has to be done done.
    I would like to have the administration's, and I am 
confident you have it--best estimate of what the schedule for 
oil production is, your timetable, your best estimate. That is, 
what will we have up and running in the next month, what do we 
expect to have up and running, what is our goal in the next 
year, what is our goal the next 3 years, how much investment 
will be required to get us there and how much revenue we think 
will be produced for the Iraqi people?
    It would be very important to know that, because the vice 
president, a guy named Mr. Mackenzie from BP-Amoco today cited 
the numbers I gave earlier that some total, it is $30 to $40 
billion direct investment. People are not going to invest if 
there is not security, et cetera. I do not know who is correct, 
I do not know what the rule, but I am confident--I would be 
dumbfounded if you have not gamed that out already and given 
your best estimates. For the record, if you would submit that, 
I would appreciate it.
    Mr. Larson. We would be happy to do our best to submit 
something of that sort.
    What I did want to just say very briefly to give a flavor 
of it is that I think you had quoted a representative from BP 
as talking about the amount of investment that would be 
required to get up to 1 million barrels per day of export.
    Senator Biden. And then up to 5 billion.
    Mr. Larson. Yes. On the first part of that, of course, Iraq 
was exporting at various times in the last couple of years a 
million barrels a day. In fact, we would go through a little 
crisis every now and then when Saddam Hussein would hold his 
breath and say he was going to cut us off, so our expectation, 
subject to further examination by the Army Corps of Engineers 
and the technicians, the Iraqi technicians, is that it is not 
necessarily going to take a long time or cost a lot of money to 
get up to a million barrels a day or more.
    Senator Biden. Well, that is very useful, because I may 
have misunderstood, but Mr. Yergin said today and Mr. Mackenzie 
agreed--and I may have misheard him or misunderstood him--that 
to get there would require an investment of over $1 billion 
now, to get to where they were at a million barrels a day.
    Now, that may not be correct. If you guys do not know these 
numbers, we are really in trouble, we really have a problem, so 
I am confident you have a good estimate. But in 2 to 3 years we 
are talking about trying to get to 3.5 million barrels a day, 
and I am told a minimum requirement to get there would be a $5 
billion out-of-pocket investment by a consortium--it does not 
have to be by us, but someone has got to invest up to $5 
billion. And then they both said, two experts from two 
different organizations, that the objective of getting to 5.5 
million barrels per day, which they have not had, but have the 
capacity to, would be a $30 to $40 billion investment.
    I am not an oil man. I have no idea whether those figures 
are accurate, but it is very important we know that because 
most of our colleagues think--I actually have colleagues 
approach me on the floor and say, look, Joe, you guys in 
Foreign Relations keep saying we are going to have to put a lot 
of money into Iraq. Damn it, why do we not just take the money 
and pay for our own troops, too, not only rebuild Iraq, there 
is enough money to pay for our troops.
    So in case you all do not know it, not only the American 
public, but a lot of our colleagues think that once they turn 
the spigot on and we are going to be able to do it pretty soon, 
they think that man, we do not have much of a problem. That it 
is the furthest thing from the truth based on the people I have 
gone to and asked independently.
    Before this morning's meeting that Wendy, you and I 
attended, not one person who has any knowledge of the oil 
business I am aware of indicated that is true, so I would like 
to know what you all think, because you have to have planned 
this. Your Marines and your military guys did something no one 
thought they could do. They secured those fields. They did not 
get blown up. They are there. You did your job, old buddy. Now 
the question is, can we do the rest of the job, and if we do 
it, what is it? It is very important for our planning.
    Since my time is going to be up, and you do not know the 
answer, I am not going to ask you to comment any more, but the 
second thing I want to ask before my time goes by is, could you 
also provide for the record what the plan is for plussing up 
training, if at all, of police forces--not when we are going to 
need them, because at some point we are going to need them.
    Now, it may be a week, it may be a month, it may be a year, 
it may be 2 years. If this were a military operation you would 
clearly have in train how you were going to get that number of 
military forces whenever you needed them. I would like to know 
what the game plan is, what your projections are, who you are 
training, who you are going to--whether you are training 
indigenous forces, how long it will take, whether you are 
looking for our allies and friends who have offered, I am told, 
carbinieri and others to participate, what you project, when 
you draw down, or when you think it is appropriate, general, 
for police presence to be there and what numbers you are 
looking at?
    What is the game plan? As that old song goes, what is the 
plan, Stan? What are you looking to, because we have to be 
looking to what kind of money we are going to be being asked to 
appropriate down the road here.
    And the third thing I would like to know for the record, 
what is your expectation, because you have obviously and 
understandably--it is not a criticism--had to recalibrate this. 
I remember speaking to the Vice President and speaking to the 
Secretary in a closed hearing and in an open hearing with the 
Secretary about the expectation--a reasonable one and again 
this is not a criticism--that there would be an infrastructure 
left, once we decapitated the Baath Party operatives within the 
police force and within the military, to stand up an indigenous 
Iraqi capability. I would like to know what the assessment is 
now of that possibility, what the timeframe is, your best 
guess, and we understand no one knows for certain, but you have 
to have a plan.
    I would like you to be willing to share what you at the 
outset thought or at least indirectly acknowledged, and you 
gave us a good reason, Mr. Secretary. You said, we did not tell 
you our plans because we did not begin until January to make 
any, because we did not want anyone to think that we had 
prejudged that we would go independently, absent the U.N. 
participation. I think that is kind of thin, but I will accept 
it.
    You then told us that General Garner did not come to us 
when we asked him to come to us to give us a sense because you 
thought it was not appropriate at that time, and events 
overtook us, and that you want to rectify that.
    I, for one, do not want to be on the other side of that 
glass looking in after the fact, being told that our 
requirements are something no one told me about, and I will end 
by saying there is a Wall Street Journal/NBC poll which goes to 
the very first point I raised, because we are going to have a 
hard time--I do not know whether this is going to cost us, sum 
total, a billion, $20 billion, $60 billion $100 billion more, I 
do not know, but in the poll done by NBC/Wall Street Journal, 
support or oppose the United States spending up to $60 billion 
over the next 3 years, that is $20 billion a year over the next 
3 years to rebuild Iraq, 37 support, 57 oppose.
    I am confident if we told the American people now what it 
takes, they would be prepared to do whatever it takes, which 
leads me to the concluding point. I would also think it is 
useful if you would, for the record, state, and I will not ask 
you to do it now unless you want to, what the stakes are in 
Iraq. I have a clear view of what the stakes are in Iraq if we 
do not get it right. The chairman and I have both written about 
it. My good friend from Nebraska has a clear notion of what he 
thinks the stakes are.
    I would like to know what the President and the 
administration think the stakes are for failure. What is it? We 
are not going to fail, but in order for me to convince my 
constituency to continue to spend this money, I have got to say 
to them--we all have to say to them, if we do not succeed, this 
is what will happen. This is what will happen.
    So you have stated several times, you must have a notion of 
what you think is at stake. What is at stake here? I would like 
that in writing for the record. What is at stake?
    And so there are my four requests, the oil projections, 
police training, if any, the schedule for standing up any 
indigenous Iraqis and what is at stake, and I will not try to 
take any more of the committee's time. I thank the chair. If we 
had time I would ask them to answer them now, but we do not.
    The Chairman. I thank the Senator.
    [The following information was subsequently supplied:]


                             OIL PRODUCTION

    In the past week, Iraq has been averaging 1.1 million barrels/day 
of oil production, which equates to roughly 600,000-700,000 barrels/day 
of export. Iraq should sustain 1.5 million barrels/day of production, 
and (at least) 1 million barrels/day of export, within one or two 
months, barring any major security problems. None of this will require 
major investment.
    Our goal is for Iraq to reach 3 million barrels/day of output by 
the end of 2004, which translates into at least 2.5 million barrels/day 
of export. This would return the country to its prewar production 
capacity. It is estimated that it might cost roughly $3 billion to 
reach that target. The Iraqi Oil Ministry has had plans for years to 
reach 6-8 million barrels/day of production, which some analysts 
believe will require 7-10 years and at least $30-40 billion of 
investment. It is not part of our mission to help Iraq reach those 
long-term production targets.

                              IRAQI POLICE

    As you know the Iraqi police service was terribly equipped and 
poorly trained. The CPA activity has focused on vetting, hiring, 
training and deploying Iraqi police forces and other security forces to 
assist in establishing a secure and permissive environment. The CPA has 
recalled to duty more than 27,000 police officers, is refurbishing 
police academies in Baghdad and Basra, is equipping 26 police stations 
in Baghdad, and in May began joint Iraqi-Coalition patrols. After 
extensive looting, CPA has had to provide virtually all equipment, 
uniforms and office supplies to stand up the police capability. In 
Baghdad, 33 police stations and 3 police divisions are now operating 24 
hours a day resulting in a dramatic increase in daily patrols.
    Rebuilding Iraqi police forces has been a challenge because the 
existing force was poorly trained, ineffective, and widely distrusted. 
But the creation and training of responsible public safety forces are 
indispensable to long-term progress in Iraq. To address the police 
situation, former New York City Police Commissioner Bernard Kerik was 
appointed to serve as CPA's Senior Policy Advisor overseeing the 
police, fire, borders, customs, and immigration organizations. Mr. 
Kerik's team recently completed a study that recommended the creation 
of a 50-80,000 member Iraqi police force. This force would be trained 
and supervised by international police advisors.
    The CPA is planning a three-pronged approach to implement the 
recommendations of the Kerik Report. First is to re-equip and rebuild 
the police force, including the rebuilding and staffing of the three 
academies in Iraq. Second is to develop a training course for new 
police officers. And third provide a monitoring capability of police 
activities in the field and while undergoing training.
    A detailed plan with associated costs is in the final stages of 
being completed that will meet the four-year goal of having a 
professional, fully trained force of 65,000 police in the field. Once 
that plan is complete, I will have my staff provide you a briefing.

                              IRAQI ARMY:

    One of the CPA's major initiatives is to establish a New Iraqi Army 
that will help provide for the military defense of the country and, as 
units become operational, will assume military security duties now 
being performed by Coalition forces. The old Iraqi military forces 
disintegrated with the collapse of organized military resistance; 
virtually all installations and equipment that were not destroyed in 
the fighting were looted or stolen.
    The CPA formally disbanded the former Iraqi military and security 
services and is currently working on the creation of a New Iraqi Army. 
The current plan is to build a force of about 40,000 members (roughly 3 
divisions) over 2 years as the nucleus of the national armed forces of 
the new Iraq. The first battalion begins training this month. A U.S. 
company will conduct the day-to-day training under the supervision of a 
coalition military assistance training team, which will be commanded by 
a U.S. major general and will include officers from the United Kingdom, 
Spain, and other coalition countries. This team is leading the effort, 
including finalizing recruiting, vetting, and training activities.
    It is our intention to build an Iraqi army that has officers who 
possess true leadership skills, takes on traditional Army roles such as 
boarder defense, and is truly a national force that represents the 
demographics of the country. It is our goal to have the first battalion 
in October, nine battalions by August 2004 and an additional 27 
battalions by mid-2005 for a total force of 40,000 troops.

                        WHAT'S AT STAKE IN IRAQ?

    If we don't succeed in Iraq, we lose the opportunity to----

  <bullet> Provide another example alongside Turkey, Indonesia and 
        Bangladesh that democracy can succeed in Muslim countries.

  <bullet> Demonstrate a more productive way forward for the Muslim 
        world, undercutting the appeal of fanaticism.

  <bullet> Show to the region and the world that the United States is 
        not anti-Muslim.

  <bullet> Show that action by the United States will have a beneficial 
        effect on countries that we engage in.

  <bullet> Take a key step in combating terrorism, by showing the world 
        that we will not tolerate regimes with WMD and ties to 
        terrorism. Our actions prove it is the regime, not the people 
        who they oppress, that are the target of our actions.

    The Chairman. I want to recognize Senator Corzine, who did 
not have an opportunity during the first round of questioning.
    Senator Corzine. Thank you, Mr. Chairman, and I appreciate 
very much your holding this hearing. I think the 
demystification of this whole discussion on stabilization and 
reconstruction is something that needs to be vetted to the 
American public. It is certainly a question I get in New Jersey 
from my constituents regularly, and what we are doing is 
basically reading the New York Times or the Washington Post for 
information. I think this has been very helpful in addressing 
some of the questions.
    I also want to join my colleagues in congratulating the 
military and Defense and others for the successful prosecution 
and liberating the people of Iraq. I think it is a real 
testimony to our Armed Forces, and I am particularly happy 
today to see the settlement or the agreement with the United 
Nations, which I hope will open many doors for shared 
responsibility with regard to the issues that we are talking 
about today.
    I wanted to go to a question that is often framed in a 
political context with regard to the rationale of why we went 
to this war, but this morning I read the headline in the New 
York Times, ``Pre-War Views of Iraq Threat are Under Review by 
the CIA,'' and I guess the gist of this is that television has 
presented one view, and is that really the view we are 
discovering on the ground, and my question as it relates to 
weapons of mass destruction is not really whether they were 
there, or we have a smoking gun, or any of those issues. It 
really goes to what is a deeper concern on my part, and I think 
a lot of folks, is the proliferation of these weapons.
    I heard some of this in the question that Senator Dodd 
raised with respect to the raids, or dissemination of some of 
the nuclear materials, but might be even more threatening in 
the context of biological and chemical weapons. I am more 
concerned, do we feel like we are in a position to say that we 
have contained what we expected to see in Iraq, or has it 
already proliferated, which is a real question in my mind and a 
concern.
    I am convinced that there is reason to believe that those 
weapons were there, or those efforts were there in place to 
develop them, but I think it raises a more serious question, 
where are they, and what do we think will happen along those 
lines? That is the first question.
    The second question is, which really relates to this U.N. 
agreement today, and I am pleased to hear that it opens the 
door to the World Bank and U.N. Development Corporation and 
other elements. How about opening the door to the discussions 
on NATO not unlike what we have seen in Afghanistan?
    I guess I would stop there. That is probably enough.
    Mr. Wolfowitz. OK, I might just say briefly, even before 
the U.N. resolution, NATO voted to provide planning support and 
other support, mainly just planning support for the Polish 
division that is going to be a part of the stabilization force.
    Senator Corzine. I was thinking more on the analogy of what 
is anticipated in Afghanistan this summer as more of a long-
term----
    Mr. Wolfowitz. I think the door is open to that. I was in 
NATO in December of last year and listed four tasks which then 
we expanded to six, where NATO could help in either the war or 
the post-war, and the post-war was frankly highest on my list 
of both priorities and expectations, and there are NATO assets, 
alliance assets that could be provided, but I think most 
importantly that decision to provide the Poles with support 
they need I think is a very strong political signal to other 
countries that may participate either under a NATO umbrella or 
simply as coalition partners.
    On your other question, which is obviously a very important 
question, it is very hard to answer what is going on in those 
things that we still do not know about. I know it is stating 
the obvious, but we do not know what we do not know. We are 
going to have to get more information from people who are 
involved in these programs than we have elicited so far.
    I do think that we have cauterized, if that is the right 
term--we have stopped one major potential source of chemical or 
biological weapons, and that is this poisons lab, as it was 
called, up in northeastern Iraq that was under the protection 
of an outfit called Ansar al Islam, which seems to be an al-
Qaeda branch organization, and it was connected to a gentleman 
named Zarqawi who is still at large, but who is responsible for 
the assassination of Mr. Foley in Jordan, who is apparently the 
man in charge of the networks that were--I do not know if they 
are fully detained, but that have been rolled up in London and 
Paris and in Milan.
    He continues to be out there. We captured one of his 
lieutenants in Baghdad, and that production facility in 
Northern Iraq is under our control. I think most of it was 
bombed beyond recognition, and a couple of hundred of Ansar al 
Islam people were killed and a few were captured.
    We do not know what has happened to the weapons of mass 
destruction, so I cannot sit here and guarantee you that it has 
not slipped out somewhere, or even that it might not be stored 
in some other country. There were reports that that kind of 
thing was going on before as well, but we believe it is very 
important to track this stuff down for just the reasons you say 
and try to get it under control so it does not end up in the 
wrong hands.
    Senator Corzine. Another question for me. Again, this 
demystification, I think this is one of the great reasons for 
this hearing, Mr. Chairman, is we hear much of a word that I 
hardly know how to pronounce or spell, de-Baathification, that 
we get news media reports that the coalition is working with 
some who may have been supervising the Yabu Gharib Prison.
    I think the leadership of the Baghdad University has also 
been at least asserted in the press to have Baath Party 
leadership associated with it. It sort of is in conflict with 
what we hear is policy, and there are other instances of this. 
Is it the intent that we will look at each situation in its 
specific, or is there a real attempt to change the nature of 
that, some 30,000 folks that I hear mentioned in the leadership 
that might be important positions in society?
    Mr. Wolfowitz. I think the reason Ambassador Bremer issued 
this very tough and very clear decree, that--as really almost 
his first action shortly after coming to Iraq, was the feeling 
that is very important to get clarity on just those situations 
you describe.
    I think the situation in the university and some of the 
ministries took place before he got there, before the decree 
was issued, and I think there has been some understandable 
tension between the desire to maintain efficient functioning of 
institutions and the recognition of the need to root out 
members of the old regime, and bearing in mind that a lot of 
people joined this party fairly innocently, and probably mostly 
because they were given no choice, but what his decree singles 
out is the so-called full members of the Baath Party which even 
have very specific ranks associated with them, and that is 
where the 30,000 estimate is, as opposed to a million regular 
party members, and those are the people that it focuses on, and 
I think we may have to look at further steps, particularly with 
respect to those people who are actually guilty of war crimes.
    Senator Corzine. In the two specific instances, do you know 
if there has been a reversal?
    Mr. Wolfowitz. I think they were both reversed, and there 
have been some other reversals I heard about in recent days. 
That decree of his, or order, whatever it is called, clearly 
gave a lot of encouragement, and it is exactly what we hoped it 
would do to local people, to say, wait a minute, this is going 
on, the Americans do not want it, so let us tell the Americans 
about it and get it fixed.
    Senator Corzine. Thank you, Mr. Secretary.
    The Chairman. Thank you, Senator Corzine.
    Senator Hagel.
    Senator Hagel. Mr. Chairman, thank you. We all are grateful 
that you are willing to stay a couple of extra minutes, that 
this will be soon complete and you will escape, so thank you.
    General, I want to go back to just see if I can get a 
clarification on troop strength. I was here when you answered 
the questions about the rotation, recent question here about 
that issue. I read your testimony. Are we saying--and realizing 
this is fluid, and I understand that--that we now, I think you 
said have around 145,000 American troops in Iraq. I believe you 
said we are bringing in 18,000 additional troops coming from 
the 1st Armored Division. Is that right so far? That would put 
us up over 160,000.
    Then you mentioned that there may be some rotation, I 
suspect from the troops, divisions, units that did the heavy 
initial fighting, 3rd Infantry Division, 82nd Airborne and so 
on, rotating out. Now, does that mean that you think we will be 
at a peak at about 163,000, if you are going to put 18,000 in, 
rotate some out? Where are we? Can you clarify that for the 
committee?
    General Pace. I will try to, sir, thank you.
    The 145,000 is the number on the ground today. There are 
18,000 flowing into theater, and I will have to get back for 
the record of how many of those have already gotten in theater 
and are already counted in the 145,000, so a portion of the 1st 
Armored Division has already moved into Iraq and is probably 
already into that 145,000, so I need to come back to the record 
with precise numbers.
    [The following information was subsequently supplied:]

    As of 4 June 2003, 145,000 American troops were deployed in Iraq.

    General Pace. When they were ordered forward the intent for 
them is that they were going to replace the 3rd Infantry 
Division, and that 3rd Infantry Division would come home on 
their arrival. Because of the situation General Franks and his 
commanders had made the decision no, the 3rd Infantry Division 
will not leave yet, the 1st Armored Division will be added to 
the forces in theater, and when we, meaning them on the ground, 
are comfortable that we have got the right security situation, 
then we will rotate home some of the 3rd Infantry Division. So 
at the highest number, even if none of the 1st Armored Division 
is counted in the 145,000, then you are up around 163,000, but 
I think it is probably not that high, sir, maybe 160,000, 
155,000 as a guesstimate.
    What has also happened is, when the war began there were 
about 300,000, 310,000 U.S. in theater. That is about the total 
number in theater right now. About 66,000 Navy, Air Force 
primarily have come home, and 4th Infantry Division and 1st 
Armored Division have been added, so although the total number 
of U.S. in theater has remained about the same, the mix of 
ground to air and ground to sea has shifted significantly.
    Senator Hagel. But in country, in Iraq.
    General Pace. And now the number in Iraq has gone from 
about 120,000 ground troops when we started the ground campaign 
to about 145,000 today, with an additional, guessing, 10,000 
out of the 18,000 who are not yet counted.
    Senator Hagel. OK, so is it correct to say when that is 
fulfilled we are at about 150,000?
    General Pace. About that, sir, yes.
    Senator Hagel. In country. Do you anticipate more than 
150,000 in country in the next 90 days; that we might need it?
    General Pace. There are no other troops on orders to the 
theater right now to be added to that pile, sir. That does not 
mean that they could not be, and the Secretary has stated many 
times that if needed, if the commanders on the ground, if 
General Franks asks for more, they will be provided, but he has 
not asked for more, and, in fact, he has said as early as this 
morning he is comfortable with what he has right now as far as 
ground troops.
    Senator Hagel. So that means you do not anticipate 
additional troops in Iraq?
    General Pace. That is correct. Do not anticipate in Iraq 
additional troops from the United States. We do anticipate that 
the U.K. division that is being generated through the Force 
Generation Conference they held about 2 weeks ago, and the 
Polish division that is being generated as we speak, will be 
added to the forces in Iraq, and again, when they arrive, it 
will depend on the situation on the ground whether they are 
additive or they replace somebody.
    Senator Hagel. Thank you.
    May I go back, Secretary Wolfowitz, on a question I had 
asked earlier when I quoted from the Washington Post, and if I 
might just take a moment to share with you continuation of this 
article, because I wanted to come back on this, and it is this. 
About the fifth paragraph into the story it talks about what we 
were talking about, Bremer's comments about selection of 
interim Iraqi Government 7 weeks away at least, so on and so 
on.
    About the fifth paragraph down it says, ``moreover, the 
interim government's responsibilities are still the subject of 
a disagreement between U.S. officials and their increasingly 
dissatisfied Iraqi allies.'' Is there disagreement within the 
administration on this issue?
    Mr. Wolfowitz. Not that I am aware of. I mean I think any 
one of us can argue round or flat on this one. There are 
considerations for moving quicker, and there are considerations 
for taking more time, and that is why the President and 
Secretary gave Ambassador Bremer full authority to get on the 
ground and make his own judgment of what the situation was 
there. I think it is really important to stress that there are 
just enormous limits on what judgments any of us can pass 
sitting here, I do not know, 8,000 miles away, and much further 
distance in terms of knowledge and information about a very 
complex society, and that is why----
    Senator Hagel. But you would disagree with this story that 
there is any disagreement, there is no disagreement within the 
administration on this issue you are aware of?
    Mr. Wolfowitz. I am sure you can find different views. My 
view, which I think is the correct view, is that there is an 
extraordinarily capable individual who has been put in charge 
to make those judgments, and that is how it should be done.
    Senator Hagel. Well, does that, then, lead to some 
understanding, better understanding as to why Ambassador Bremer 
got there? Was he in the original planning mix?
    You went into some detail in your testimony about how much 
planning was involved, post-Saddam planning, and all of the 
sudden Ambassador Bremer shows up--maybe it was not all of the 
sudden. Maybe that was in your plans back in January--and 
Ambassador Bodine comes home, other people come home. It 
appeared at least to this Senator it was rather an abrupt 
switch, or change. That is not the case, or maybe you could 
help us understand, or help me understand it.
    Mr. Wolfowitz. It is not, and if I could clarify something, 
too, that I think was not clear in my statement for Senator 
Biden, we did not start the planing in January. We started in 
January with setting up ORHA. My recollection is planning 
particularly on dealing with possible humanitarian crises and 
dealing with possible destruction of oil fields started--I 
cannot give you an exact date, my recollection is July or 
August, and one of the outgrowths of that planning was, we were 
going to need some sort of civilian organization paralleling 
the military to do this kind of work, and to get USAID involved 
and do contracting and so forth, and that is what led to the 
creation of ORHA in January.
    And I think I mentioned, maybe when you were not here, that 
when we approached Jay Garner about it, we already had in mind 
and told him we had in mind a senior civilian administrator 
over the whole operation who Garner would--actually, not 
Garner, because at that point Garner was setting up the office. 
It was not even clear he was going to deploy, and that that 
senior civilian would also be the person managing our end of 
the political process.
    Senator Hagel. But Bremer was in the mix early on?
    Mr. Wolfowitz. Not by name, but by position, and----
    Senator Hagel. So essentially what happened there that 
appeared to be rather abrupt, was all planned?
    Mr. Wolfowitz. It was planned, and the effort, it was quite 
a systematic one to think about. I mean, the Secretary put 
together a list of criteria, then a list of some 50 candidates 
and narrowed it down, and then consulted with Secretary Powell 
and Condi Rice and George Tenet. They all thought Bremer was a 
great choice, took it to the President. I mean, all of that was 
a two or three----
    Senator Hagel. But there were other people shifted out of 
there. I have got some of the names in front of me, but you had 
planned to shift some of those people out, too?
    Mr. Wolfowitz. I have no idea. You mentioned Ambassador 
Bodine. I have no idea whether--my understanding is that the 
State Department wanted to reassign her to other things, but--
--
    One of the things that Ambassador Bremer has got to do is 
both grow and prune that office. I gave you the numbers in 
there; some 1,000 people there, U.S. and coalition. I imagine 
some of them probably are not needed or are not appropriate, 
and on the other hand we probably need more people for other 
functions.
    Senator Hagel. Although they were not there that long.
    But my time is up, so thank you.
    Mr. Wolfowitz. But we learned an enormous amount each day 
that we did not know before about the situation on the ground. 
You know, the standard comment in the military is no plan 
survives first contact with the enemy. Believe me, no plan at 
all could possibly survive first contact with a complex 
civilian society like the one we see in Iraq, so things are 
going to change, and it may look abrupt, but it is a conscious 
notion that we need, and I might get myself in trouble with 
this description, but a senior quarterback out there to call 
audibles, because there is going to be a lot of them. And that 
is Bremer's job.
    The Chairman. Thank you, Senator Hagel.
    Senator Chafee.
    Senator Chafee. Thank you, Mr. Chairman, and thank the 
panel again for their patience.
    Mr. Secretary, you said on the first round of questioning 
that Iraq could be a model of democracy in the Middle East, and 
it might be fair to say that in 1979 in Iran there was a 
democratic revolution that brought in a virulent anti-American 
government. What would be our position if the Iraqi people 
wanted to elect not only an anti-American government, but a 
government that was opposed to our friend and ally, Israel?
    Mr. Wolfowitz. What took place in Iran 20 years ago was 
popular, and if you accept that as democratic, then you are in 
a realm of democratic that I do not mean and I do not accept.
    Senator Chafee. Well, the----
    Mr. Wolfowitz. This is important. I think we have said 
repeatedly----
    Senator Chafee [continuing]. I think the etymology of----
    Mr. Wolfowitz. No, it is more than etymology, I am--it----
    Senator Chafee. Demo means people, I believe, in Greek.
    Mr. Wolfowitz. No, I know. That is why I constantly say a 
free and democratic country. We view, I think correctly, in 
this country that democracy is a means to an end, and that end 
is individual liberty and individual freedom, and that is why 
we do not think of democracy as just elections, not even--you 
know, it is more than even just, it is not enough to have one 
man, one vote, one time.
    It is not acceptable to have a majority tyrannizing a 
minority, even if they do it by vote, so there are 
institutions, there are standards, there are rules, and I think 
that if we can create the conditions where Iraqis really can 
express their views freely, I think partly because of the 
enormous diversity of that society and partly because it is 
hard for me to imagine that the 50 percent of the society that 
are women, many of whom are relatively educated by standards of 
developing countries, are going to accept any kind of 
theocratic tyranny, or that the Kurds or the Turkamens, or for 
that matter the Sunni Arabs are going to want to accept a Shia 
theocratic State.
    There is a lot of pluralism built into that country, and as 
I think we have seen in our country, if it is structured 
properly, pluralism is a great force for liberty, so I think it 
may take some time, but I do not think one should anticipate 
the Iranian result in Iraq and, frankly, the Iranian model is a 
model of failure at this point, so I do not think it inspires 
anybody.
    Senator Chafee. So you would say that if there were free 
elections, and a theocratic government--we would oppose--there 
are conditions on our vision of democracy, is that what you are 
saying?
    Mr. Wolfowitz. I think there are standards that people who 
participate in this political process need to meet. They need 
to be committed to protecting the basic rights of the Iraqi 
people. They need to be committed to the principle of equal 
justice under law. If they are held to those commitments, then 
I think they will set up institutions that have a reasonable 
chance of success.
    There is no guarantee in this world. At some point they are 
going to be on their own, and people could abuse things, but I 
think we have a better chance here than we have had anywhere in 
the Arab world for decades, and I think a lot of Arabs--I 
mentioned the Moroccan Foreign Minister. I think there is a 
long list, especially of nonruling Arabs, who hope that this 
will be a successful model.
    Senator Chafee. Thank you.
    The Chairman. Thank you very much, Senator Chafee.
    Senator Biden.
    Senator Biden. Just to followup on the point that Senator 
Hagel was making, the reason why some of us are confused is 
that 1700 hours, 11 April, 2003, General Garner's staff briefed 
my staff and other staffs here and presented us with a chart, a 
flow chart of authority, and there is no place on here not only 
for Bremer, for any Bremer-like person. Asked specifically who 
was going to be over General Garner as Director of ORHA, he 
said it was going to be McCarron, the guy on the ground 
responsible to Franks, and Franks. And so that is the reason 
for our confusion. We are not making this up.
    That is why it looked to us like maybe you guys knew it, 
but you were a little bit of pea-in-a-shell game with us, 
because this is what was submitted by Garner's staff to our 
staff in an official briefing as to what the command flow would 
be, and so I would hope we do not have that kind of confusion 
again as to what you are going to do from this point on, 
because that was officially given to us, and I will give you a 
copy of it.
    That is why we are a little confused. That is why it looks 
like a little bit of revisionist history to us. I am sure you 
are telling the truth, but understand why--we are not just 
looking to pick a fight--it looks like revisionist history 
based on not what we just thought, but what we were told as of 
that date.
    And I remember we had Secretary Powell before us and I 
showed him that chart. I had to leave. The Senator from 
Connecticut, I gave him the chart. He asked the question on my 
behalf during his part, and the response from the Secretary of 
State was, this is news to me, and I am paraphrasing, but if 
this is what is intended, it will not stand, and we did not 
hear anything since then.
    And then Garner was out there, and then, quote, from our 
perspective, all of the sudden there was this new 
organizational head, which I think is a very good idea. But I 
do not want the press or the public listening or any of you to 
think we are kind of looking frightened. It is a genuine 
confusion on our part caused by, as they say in southern 
Delaware, by y'all, caused by you guys and we asked from the 
administration, and this is, at least speaking for myself, what 
I was given. That is the only reason why I state it, because 
hopefully we will not go through this from this point on.
    General Pace. Senator, I can help with just a small piece 
of it, if I may.
    Senator Biden. Sure, please. Please do.
    General Pace. Just a small piece of it, because you are 
correct if you did not have the entire picture, you did not 
have the entire picture, and what you see is what you got 
handed to you.
    I can tell you for a fact that the entire time that this 
organization was being talked about, starting back in July or 
August and certainly in the January timeframe, when Jay Garner 
came on board, that all of us in uniform and out, inside the 
Department, understood that the plan was that there would be a 
senior civilian who would be picked, because it was important 
to not have a general in command in Iraq very long, so clearly 
for all of us in the building we knew that that was the next or 
preordained step.
    The fact that you did not know is a bust on us, sir, and we 
need to find out how that happened.
    Senator Biden. The reason I mention it, I hope this will 
not happen again. I mean, this is important stuff, and again, 
there is not a member of this committee--I do not think there 
is a single solitary time that has publicly been anything other 
than supportive, myself included, of what you have undertaken 
before and after in Iraq, and this just makes it difficult.
    The second question I have, and if you do not want to 
answer it now, you can answer it for the record--there is an 
awful lot of speculation, and I think it is just that, that 
possibly weapons of mass destruction, at least some biological 
weapons from looted departments within Baghdad and Iraq 
generally may have gotten in the hand of looters and may or may 
not have gotten in the hands of terrorists. Let me be specific.
    In the Tuwaitha nuclear site which was looted, there were 
deadly materials, I am told, that were taken from that site. 
And with our focus on WMD--and I do not want to embarrass, so I 
will not mention his name--when the military guy onsite was 
asked by an ABC News crew why he did not stop the looting, he 
said that he did not have it on his list as a place that 
warranted being guarded.
    Now, this is a site that the U.N. had investigated, and our 
intelligence, I believe, had given the U.N. information a 
number of times that this was a a sort of Iraqi CDC. The 
looters entered and took live HIV virus, live black fever 
virus, and as I said, the young marine lieutenant in charge I 
believe told ABC he was never briefed on what was in the 
building, which is why he did not try to prevent the looting.
    And so the two questions I have, either now or for the 
record, classified or unclassified, will be No. 1, was this on 
the list--because you said earlier, Mr. Secretary, there was a 
list. Everybody knew, the military personnel going into Baghdad 
knew the places. They may not have had the ability, 
understandably, to guard everyone, but they knew. It was not a 
surprise. So was it on the list, No. 1?
    No. 2, if it was not on the list, what else was not on the 
list that got looted that we are worried about?
    And No. 3, what is your classified or unclassified 
assessment of what was taken, and whether there has been any 
success in tracking down who took, if it is true, HIV virus and 
live black fever virus from that facility?
    And again--and excuse me, no, there are two different 
places. The one place is the equivalent of the CDC in Iraq, 
which is the place from which the HIV and black fever virus was 
taken, and the other place was the Tuwaitha nuclear site, which 
was allegedly looted of deadly materials. I do not have a 
listing of the alleged materials that were taken from that 
site, radiological material taken from that site, and so there 
are two different sites.
    Were they--the CDC the young lieutenant said was not on the 
list. Was Tuwaitha on the list, and what was taken, to the best 
of our knowledge, and what kind of danger does what was taken 
pose, if anything was taken, and again, you may want to do that 
in a classified forum, which is fine, Mr. Chairman, I believe 
by the committee.
    [The following information was subsequently supplied:]

                          LOOTING OF WMD SITES

    The International Atomic Energy Agency inspected the sites and 
estimates that ten kilograms or less of yellowcake material remains 
unaccounted for at the Tuwaitha Nuclear Facility. It is their belief 
that this small amount is not a proliferation concern.

    Senator Biden. I have several other questions I will not 
take the time to ask, I will submit in writing, if I may Mr. 
Chairman, and close by saying that afterwards if maybe you, 
general, could hang for just a second, I do not want to give 
the location, but Mr. Mohammed, the young lawyer who is in this 
country now, is credited with saving Private Lynch. I met with 
him--he came to my home State--and I and I spent a little time 
with him. I presumed to ask him how his family members were.
    I received a call today saying that he had been in contact 
with them. They are in a certain particular place in Iraq, and 
his father has a serious heart artery condition and needs some 
help, and I have a location where he is, so I would like to 
pass that on to you, and I am sure you will do the right thing 
and know what to do, because I do not, for certain.
    And I thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Biden.
    Let me just say for the benefit of all members of the 
committee that the record will remain open until the close of 
business tomorrow for the members' statements and questions. We 
deeply appreciate responses by those who are testifying today, 
or by those who are helpful to you in responding to the 
questions that have been raised publicly, as well as those 
questions that members may submit later today and tomorrow.
    Senator Biden. Mr. Chairman, can I ask unanimous consent 
with regard to a question I asked--the statement I made to the 
Deputy Secretary early on about the candidate Bush saying we 
should get out of Bosnia. I submit for the record the newspaper 
report. It was on October 25, 2000, quoting Dr. Rice, who was 
then his chief foreign policy advisor, and another insert of 
October 27 from the Plain Dealer responding to that.
    The Chairman. Those will be made a part of the record.
    [The articles referred to follows:]

              [From The New York Times, October 25, 2000]

  Europeans Say Bush's Pledge to Pull Out of Balkans Could Split NATO

                          (by steven erlanger)
    PRAGUE, Oct. 24.--A promise by George W. Bush that, if elected 
president, he would negotiate the removal of American troops from 
peacekeeping duties in the Balkans and leave such work to the Europeans 
has provoked a collective sigh of anxiety and even weariness among 
European diplomats, officials and analysts.
    These officials said the proposal, as expressed in the Republican 
platform, enunciated by Mr. Bush during a presidential debate and 
elaborated upon by Mr. Bush's foreign-policy adviser, Condoleezza Rice, 
in an interview with The New York Times, could divide the NATO 
alliance, undermine the current European effort to increase its 
military capacity and question the postwar rationale for NATO's 
existence, which has revolved around the Balkans.
    Mr. Bush's idea comes at a time when Kosovo, which is run by the 
United Nations but patrolled by NATO-led troops, is facing a difficult 
and even explosive period with the fall from power of the Yugoslav 
president, Slobodan Milosevic. Kosovo Albanians' desires for 
independence seem farther away than before, and yet they trust 
Washington and American troops more than the Europeans, whom they see 
as pro-Serb.
    Ms. Rice dug new ground with the idea that the American military 
should be reserved for war-fighting, in the Persian Gulf or the 
Pacific, while the weaker European forces should concentrate on 
peacekeeping at home.
    ``Dividing NATO into `real soldiers' and `escorts' who walk 
children to school is the first way to divide the alliance itself,'' 
said a senior NATO-country official. ``President Bush decided he liked 
allies fighting alongside the Americans in the gulf war--the American 
people certainly did.''
    When questioned, no NATO government--including the British, French 
and Italians--would provide any official reaction, given the prominence 
Ms. Rice's comments have been given in the endgame of the American 
presidential campaign. The Democratic candidate, Al Gore, supported by 
Secretary of State Madeleine K. Albright, moved quickly to use the Rice 
comments to try to cast doubt on the fitness of Mr. Bush to be 
president.
    Any wariness by the allied governments was enhanced by the strong 
suspicion--expressed for example by Lord Roper, the British defense 
analyst and Liberal Democratic peer--that Ms. Rice intended her 
comments politically, to underline the usual Republican charge that, as 
he put it, ``the Democrats get Americans involved in long wars.''
    Still, the Bush-Rice proposal is not new, but an extension of a 
doctrine put forth by Gen. Colin L. Powell under the last Republican 
president, Mr. Bush's father. General Powell's belief was that American 
troops would essentially be reserved for a real crisis where 
overwhelming force could be brought to bear, to ensure victory and 
limit casualties.
    Ms. Rice also made it clear that any American move would be made 
after consultations with European allies, which means, the officials 
said, that an American pullout from the Balkans would be highly 
unlikely and certainly not soon.
    Lord Robertson, the NATO secretary general, has regularly told 
visiting American congressmen that the Bush proposal could undermine 
the whole idea of ``risk sharing, which is precisely the glue that 
holds the alliance together,'' one NATO official said. ``That's where 
we went wrong in Bosnia, and having corrected that error, it would be 
tragic to go back.''
    Nearly all of those interviewed made the same point. In 1992-95 in 
Bosnia, European forces were on the ground under United Nations 
auspices, while Washington kept out and kept NATO out, while 
undermining European proposals for a solution. ``Different 
perspectives--being on the ground and not--led to different policy 
perceptions,'' one official said. ``The problem in Bosnia was NATO's 
absence, not its presence.''
    When President Clinton finally committed American forces to Bosnia 
and NATO bombed the Serbs there, a peace deal was rapidly signed at 
Dayton.
    A further problem, the official said, is the bipartisan American 
insistence on controlling NATO policy. ``If you're not going to be on 
the ground, you can't expect to have your policy preferences prevail,'' 
he said.
    Lord Roper said: ``You can't not be present and want to call all 
the shots. Then we really are back to Bosnia in 1992-95. And the 
Europeans--and not just the French--will say that this idea of the 
Americans doing all the tough work and the Europeans mopping up 
afterwards is just another recipe for hegemony.''
    The officials and analysts said that another complicated issue is 
the role of Russia in the Balkans. The Russians have participated in 
peacekeeping in both Bosnia and Kosovo under the aegis of the 
Americans, in order not to be taking orders directly from a NATO 
general. If the Americans leave, who manages the Russians? ``Washington 
will hardly want the NATO relationship with Moscow managed by anybody 
else,'' a senior NATO diplomat said.
    Another common point expressed was NATO's own reason for existing 
after the cold war. The Balkans gave NATO a role, to defeat aggression 
and stabilize southern Europe; if the Americans pull out, what use is 
NATO?
    The bombing war in Kosovo highlighted the gaps in European military 
capacity, and the Europeans have since moved to fill them with the 
European strategic defense project, which envisages a European force of 
up to 60,000 troops ready to move quickly into a Kosovo-hike crisis. 
The project is also intended to improve European capacity for troop 
transport, electronic warfare, jamming, surveillance and smart-
bombing--just the kind of ``high end'' warfare Ms. Rice suggests the 
United States should handle alone.
    Washington was initially wary about the Europeans wanting to create 
a counterpoint to NATO without the Americans. American officials 
continue to stress in speeches that the European project is intended 
for crisis management ``where NATO as a whole is not engaged,'' but 
after alliance-wide consultation and consensus. French officials, too, 
emphasize that the European force would be used as an option after a 
NATO consensus, in areas where Washington does not want to be involved 
on the ground.
    In this sense, there is an opening for the Bush desire to hand over 
peace maintenance duties to the Europeans. Already, in Bosnia and 
Kosovo, American troops are no more than 20 percent of the total, and 
under 15 percent in Kosovo alone. American aid represents no more than 
20 percent of what is being provided in Bosnia and Kosovo.
    But European officials say that a small presence is different from 
no presence at all. And if the Americans do not want to use the 82nd 
Airborne to escort children to school, as Ms. Rice said, then surely, 
they pointed out, the Pentagon can train some peacekeepers, too.
    In Yugoslavia itself, Predrag Simic, an adviser on foreign affairs 
to the Serbian Renewal Movement, said that Mr. Bush's proposal is 
``another indication of American capriciousness in foreign affairs'' 
and will only give the Kosovar Albanians a ``new pretext to push for 
independence as soon as possible.''
    Both Europeans and Americans will eventually withdraw from Kosovo, 
Mr. Simic said. ``But Washington has to take responsibility first. If 
America took up the Kosovo brief, if it bombed in Yugoslavia, killing 
people in the pursuit of its goals and values, then the least America 
can do is not abandon the region before it can leave behind a stable 
structure, and some sense of security and well-being for the people of 
the region. I'd like to believe that the Europeans can do that on their 
own,'' he said. ``But I know they cannot.''
    Some officials interviewed argued that the risks in Bosnia now are 
so low that American troops could leave without any real problems, but 
that Kosovo is another matter entirely, given Albanian sensitivities.
    But Lord Roper believes that it is Bosnia where Americans must 
remain, because the troops are there to enforce an American-negotiated 
peace.
    One NATO-country diplomat said that the Bush argument for a better 
division of labor is a strong one, pointing to the Australian 
peacekeepers in East Timor, for example. ``But it is simply not 
realistic in the Balkans. The Americans have national interests in 
Europe and they play a deterrent role that is irreplaceable. NATO is 
not in Kosovo for the Kosovars, but for ourselves.''

                                 ______
                                 

      [From the Plain Dealer (Cleveland, Ohio), October 27, 2000]

 Bush Would Redefine U.S. Strategy in Europe; Ten Years After the Cold 
    War's End, A Rethinking of the U.S. Role in NATO is Long Overdue

                         (by christopher layne)
    Foreign policy finally has emerged as a campaign issue, sparked by 
the proposal advanced last week by Texas Gov. George W. Bush's top 
national security adviser, Condoleezza Rice. Rice stated that one of 
the first priorities of a Bush administration would be to have Western 
Europeans assume full responsibility for NATO's peacekeeping in the 
Balkans. Predictably, the Bush-Rice plan was denounced by Vice 
President Al Gore as reckless and proof that Bush is too inexperienced 
to be entrusted with the presidency.
    But exaggerated, partisan criticism notwithstanding, this proposal 
aimed at a new ``division of labor'' within NATO, has considerable 
merit. Explaining the plan's logic, Rice stated: ``This comes down to 
function. Carrying out civil administration and police functions is 
simply going to degrade the American capability to do the things 
America has to do'' in regions outside Europe where the United States 
has vital security interests.
    At one level, the Bush-Rice plan can be seen as just another 
chapter in the 50-year saga of NATO debates about ``burden sharing.'' 
Yet, these repeated calls for Western Europe to do more, so the United 
States can do less--for a more rational trans-Atlantic strategic 
division of labor--are the proverbial tip of the iceberg. Beneath it 
lurk fundamental questions about the often divergent geopolitical 
interests of the United States and its European allies; the proper 
scope and extent of NATO's role; and how the risks of defending the 
alliance's members from external threat should be shared.
    Western Europe lacks the ability to keep peace in the Balkans 
without American assistance. However, the European Defense and Security 
Policy has the more ambitious goal of investing Western Europe with the 
military capability to deal on its own with post-Cold War security 
threats.
    Though professing to welcome EDSP as an instrument to attain a 
fairer distribution of the alliance's burdens, the Clinton 
administration regards this West European initiative as a threat to 
NATO's existence, and has warned the EU strongly that EDSP should not 
be used to promote a truly independent Western Europe. The 
administration's stance reflects Washington's similar long-standing 
ambivalence about Europe.
    This fear is not without foundation. In 1965, Henry A. Kissinger, 
then a Harvard professor, observed that if Western Europe ever achieved 
political and economic unity and strategic self-sufficiency, it would 
be for the purpose of advancing its own interests, not America's. 
Although this is true, there is nonetheless a powerful argument that, 
in the long run, transAtlantic relations would be more stable if based 
on Western Europe's independence from, rather than dependence on, the 
United States.
    If implemented, the Bush-Rice plan, which implicitly is linked to 
EDSP's success, would transform the trans-Atlantic relationship--and 
NATO--in important ways. The Atlantic alliance's original architects 
never intended that the United States would be responsible for Europe's 
security in perpetuity. They intended the alliance to be a temporary 
shield to allow Western Europe to recover from World War II, at which 
point Western Europe would resume full responsibility for managing its 
own security affairs.
    Ten years after the Cold War's end, a rethinking of the U.S. role 
in NATO is long overdue. Historically, America's only strategic concern 
in Europe was to prevent a single power from dominating the continent's 
resources and using them to threaten the United States. With the Soviet 
Union's collapse, this specter of a European hegemony has disappeared. 
The continent's post-Cold War security concerns are quite different: 
nasty but small-scale conflicts such as those in Bosnia and Kosovo. 
Such conflicts do affect Western Europe's interests, but are peripheral 
to America's strategic concerns, which increasingly are centered on 
East Asia and the Persian Gulf.
    The fact is that although Western Europe remains important to the 
United States, it is much less so geopolitically and economically than 
it was during the Cold War. Beneath official declarations of harmony, 
U.S.-West European relations have been fraying for some time. Western 
Europe and the United States are locked in a bitter economic rivalry, 
and their political interests often clash. Most of all, Western Europe 
resents America's cultural and political dominance.
    Bush recognizes that the United States needs to exercise its power 
with restraint, lest America's current geopolitical preponderance 
trigger a geopolitical backlash. Seen from this perspective, the Bush-
Rice plan is the first step toward establishing a new U.S.-Western 
Europe relationship based on equality. As such, it should be seen as a 
potentially wise and far-sighted act of statesmanship.

    The Chairman. I do not want to constrain members from more 
questions if you are prepared to ask them, but I think in 
fairness to our witnesses, who have been very, very generous of 
their time, that we will call the hearing to a conclusion, 
with, once again, great appreciation to all four of you.
    We thank you, especially Deputy Secretary Wolfowitz, for a 
very comprehensive and well-prepared, well-researched statement 
which all of us need to study and think through. We read it, 
and we appreciate having the testimony before we came today, 
but it has been fleshed out a lot more in our understanding 
during this hearing.
    We thank you, General Pace, for your testimony, and 
likewise Mr. Larson and Ms. Chamberlin for the contributions 
you have made, which have been substantial, to this hearing. We 
will be hearing more from the State Department in subsequent 
hearings. We look forward to that testimony. As I have already 
announced, we will hold a number of hearings on Iraq. We will 
try to work with you, Deputy Secretary Wolfowitz, on briefings, 
or methods of bringing information to us that are useful and 
not unduly onerous as far as you are concerned. We will try to 
think through on our part about how to set up a process of 
dissemination of that material so that it is as useful and 
widespread to Senators and their staffs, and therefore their 
constituents, as possible.
    We thank you very much.
    Senator Biden. Thank you very much, folks. Appreciate it 
very much.
    The Chairman. The hearing is adjourned.
    Mr. Wolfowitz. Thank you. If I might just thank you for 
having this hearing, and repeat what I said at the beginning, 
of how much we appreciate the support the Congress has given us 
since the beginning of the war on terrorism, including the war 
in Iraq, and as all three or all four of you have said in 
different ways quite eloquently, the stakes are enormous, our 
commitment is large, and we look forward to working with you to 
sustain the support of the American people.
    Thank you.
    The Chairman. Thank you.
    [Whereupon, at 6 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


       Responses to Additional Questions Submitted for the Record


 Responses of Hon. Paul D. Wolfowitz, Deputy Secretary of Defense, to 
 Additional Questions for the Record Submitted by Senator Sam Brownback

                 IRAQ STABILIZATION AND RECONSTRUCTION

    Question 1. Secretary Wolfowitz, beyond efforts to restore law and 
order, is the ORHA taking steps to protect vulnerable religious 
minorities? What are they?

    Answer. The CPA is striving to protect religious minorities through 
the establishment of civil order and a representative government that 
recognizes and protects minority rights.

    Question 2. Secretary Wolfowitz, is there anyone in the Bremer 
administration charged with monitoring and relating to religious 
minority groups?

    Answer. An official in the Coalition Provisional Authority (CPA) 
charged with oversight of the Ministry of Religious Affairs has the 
duty of liaising with religious minority groups. In addition, senior 
CPA officials have met with leaders of all Iraq's principal minority 
groups.

    Question 3. Secretary Wolfowitz, has the Bremer administration or 
anyone else in ORHA made statements specifically aimed at dominant 
Shiite groups and militants warning them not to attack or harass non-
Muslim minorities?

    Answer. During meetings with individual leaders, officials of the 
CPA stress the importance of respecting the rights of all, including 
minorities. Additionally, the CPA plans to release a policy prohibiting 
the incitement of one religious group against another.

    Question 4. Secretary Wolfowitz, will basic human rights including 
religious freedom be guaranteed without qualification for all groups 
and individuals, Muslims and non-Muslims alike, in the new Iraq 
constitution?

    Answer. Iraqis will draft their new constitution themselves. The 
United States will work to ensure that that document will guarantee 
basic human rights, including religious freedom.

    Question 5. Secretary Wolfowitz, will the U.S. advocate protection 
for these basic human rights in the new constitution and laws of Iraq?

    Answer. Iraqis will draft their new constitution themselves. The 
United States will work to ensure that that document will guarantee 
basic rights, including religious freedom.

    Question 6. Secretary Wolfowitz, will Islamic law be a basis for 
Iraq's new legal system and judiciary or will it be referenced in the 
new constitution?

    Answer. Iraqis will draft their own constitution. I cannot say what 
the outcome will be as the final product will represent a compromise 
between Iraqis of widely varying beliefs and ideologies.

    Question 7. Secretary Wolfowitz, what can be pointed to as a model 
for ``Islamic democracy'' that Prof. Feldman enthusiastically supports 
in his book?

    Answer. Professor Feldman outlines a theory. However, the policy of 
our government is to encourage democracy, regardless of the ethnic or 
religious composition of any country. We hope that every nation will 
follow the road to democracy that Turkey, South Korea, Mali and Taiwan 
have.

    Question 8. Secretary Wolfowitz, is it out of the question for Iraq 
to be a secular state or is it a foregone conclusion that Iraq will be 
an Islamic state as Prof. Feldman implied in his BBC interview just 
before going to Baghdad?

    Answer. There is no foregone conclusion that Iraq will be an 
Islamic state. The constitution that determines the structure of the 
future Iraqi government will be the result of compromise between Iraq's 
wide range of ethnic and religious groups. Given Iraq's heritage and 
diversity, I am confident that even if the constitution makes reference 
to Iraq as an ``Islamic state,'' it will protect basic human freedoms.

    Question 9. Secretary Wolfowitz, if it is to be an Islamic state 
what protections would there be for Iraq's many religious minorities?

    Answer. Given Iraq's heritage and diversity, I am confident that 
even if the constitution makes reference to Iraq as an ``Islamic 
state,'' it will protect basic human freedoms.

    Question 10. Secretary Wolfowitz, will the constitution drafting 
team include any Christian human rights experts (such as Habit Malik)?

    Answer. We will recommend a broad range of experts to the 
constitutional convention and its drafting team.

    Question 11. Secretary Wolfowitz, is there anyone in the drafting 
team who are expert in forging human rights guarantees within an 
Islamic context (like Khalid El Fadi)?

    Answer. Again, we are recommending a large group of experts to help 
draft these human rights guarantees.

                                 ______
                                 

 Responses of Hon. Paul D. Wolfowitz, Deputy Secretary of Defense, to 
  Additional Questions for the Record Submitted by Senator Russell D. 
                                Feingold

    Question 2. If it is our policy to eradicate terrorist networks of 
global reach, then what does it mean when U.S. forces sign a cease-fire 
agreement with a designated foreign terrorist organization, as they did 
on April 15 with the Mujahedeen Khalq, or MEK? Now we read that the 
organization surrendering weapons to U.S. forces in a reversal of the 
April 15 decision, but I would like some explanation of that initial 
cease-fire agreement decision. How do we make peace with terrorist 
organizations? What was the policy process that led to this decision? 
Did it involve agencies outside of the Pentagon?

    Answer. U.S. policy regarding MEK has always been, and continues to 
be, that they are designated as a foreign terrorist organization (FTO). 
The policy of the USG is to eliminate MEK's ability and intent to 
engage in terrorist activity and to prevent its reconstitution as a 
terrorist organization.
    The April 15 cease-fire agreement with the MEK was an interim, 
tactical agreement that ultimately led to the MEK falling under the 
control of the U.S. forces and being disarmed. We did not make peace 
with this or any terrorist organization. The cease-fire agreement did 
not involve any agencies outside of the Department of Defense.

    Question 3. Secretary Wolfowitz, what is U.S. policy now regarding 
the MEK? What are the terms of the agreement by which they surrendered 
weapons to U.S. forces? Where is the MEK leadership? Can you compare 
the MEK's status with that of any other designated foreign terrorist 
organization?

    Answer. The MEK group that has fallen under U.S. control is being 
disarmed. We have also issued policy guidance to the combatant 
commander to screen individual members under the Article 5 of Geneva 
Convention to determine their status. After the screening, decisions 
will be made on a case-by-case basis regarding parole, etc.
    We do not know the whereabouts of Massoud and Maryam Rajavi or 
other MEK leaders. USCENTCOM is aware only of the location of Mr. 
Mahmoud Baraei, the leader of the group under U.S. Control.


</pre></body></html>
